<html>
<title> - INDIAN COUNTRY PRIORITIES FOR THE 114TH CONGRESS</title>
<body><pre>[Senate Hearing 114-275]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-275

            INDIAN COUNTRY PRIORITIES FOR THE 114TH CONGRESS

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            JANUARY 28, 2015

                               __________

         Printed for the use of the Committee on Indian Affairs

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-323 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001









                      COMMITTEE ON INDIAN AFFAIRS

                    JOHN BARRASSO, Wyoming, Chairman
                   JON TESTER, Montana, Vice Chairman
JOHN McCAIN, Arizona                 MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               TOM UDALL, New Mexico
JOHN HOEVEN, North Dakota            AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
        Mary J. Pavel, Minority Staff Director and Chief Counsel
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on January 28, 2015.................................     1
Statement of Senator Barrasso....................................     1
Statement of Senator Cantwell....................................     3
Statement of Senator Daines......................................    60
Statement of Senator Heitkamp....................................    61
Statement of Senator Lankford....................................    61
Statement of Senator Tester......................................     2

                               Witnesses

Bohlen, Stacy, Executive Director, National Indian Health Board..    40
    Prepared statement...........................................    42
Davis, Gary, Presisdent/CEO, National Center For American Indian 
  Enterprise Development.........................................    34
    Prepared statement...........................................    36
Home Gun, Vance, 2013 Champion of Change, Youth Advisory Board 
  Member, Center for Native American Youth.......................    54
    Prepared statement...........................................    55
Monette, Melvin, President, National Indian Education Association    26
    Prepared statement...........................................    28
Payment, Hon. Aaron, Midwest Area Vice President, National 
  Congress of American Indians; accompanied by Jacqueline Pata, 
  Executive Director.............................................     3
    Prepared statement of Hon. Brian Cladoosby...................     5

                                Appendix

Ballew II, Hon. Tim, Chairman, Lummi Nation, prepared statement..    80
Bluehouse, Randella, Executive Director, National Indian Council 
  on Aging, Inc. (NICOA).........................................    70
Confederated Salish and Kootenai Tribes of the Flathead Nation, 
  prepared statement.............................................    66
Murkowski, Hon. Lisa, U.S. Senator from Alaska, prepared 
  statement......................................................    63
Ogaard, Thomas D., President/CEO, Native American Bank, NA, 
  prepared statement.............................................    63

 
            INDIAN COUNTRY PRIORITIES FOR THE 114TH CONGRESS

                              ----------                              


                      WEDNESDAY, JANUARY 28, 2015


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:30 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Barrasso, 
Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    The Chairman. Good afternoon. I call this hearing to order. 
As soon as we have a quorum, we will move to the business 
meeting component of this. I want to welcome our witnesses.
    As you may have heard, we have about 18 roll call votes 
starting at 2:30 this afternoon, and some have recommended 
moving this hearing to tomorrow. But given the fact that people 
have traveled great distances, we want to get it done today. I 
want to give each of you a chance to provide your testimony 
before we get called away for the votes.
    I called this hearing to start this Congress, because it is 
Indian Country that we must engage when evaluating Federal 
Indian policy and legislation. As chairman, I am committed to 
following in the footsteps of my predecessors, three of whom 
still serve on this Committee: Senator McCain, Senator Cantwell 
and Vice Chairman Tester. They were part of a long line of 
great chairmen who were committed to improving the lives of 
Indian people.
    The two tribes in my home State of Wyoming, the Eastern 
Shoshone Tribe and the Northern Arapaho Tribe, they share the 
goals of other tribes: safe communities, good health, a 
prosperous life for their families, including good jobs. These 
goals are often stymied by Federal bureaucracy. The Federal 
Government has important responsibilities to Indian tribes and 
people. That responsibility should not create a confusing or 
complex web of rules which limit the prosperity of tribes and 
their members.
    Last week I had the privilege to provide the Congressional 
response to the National Congress of American Indians' State of 
Indian Nations address. One resounding theme of that address 
was to find innovative solutions and reduce bureaucracy. We 
have already started down that path. Last week, Senator Tester 
and I introduced the Indian Tribal Energy Development and Self-
Determination Act Amendments of 2015. Tribes have the potential 
to contribute to our Nation's energy security. This bill will 
tap into that potential. This legislation will cut the 
bureaucratic red tape and let tribes develop their energy 
resources, putting their destiny back into their hands and not 
those of the Federal Government.
    Today, I have also introduced the Department of Interior 
Tribal Self-Governance Act of 2015. This bill had been around 
in some form or another since at least the 108th Congress. It 
is intended to improve the process for negotiating, reviewing, 
and approving tribal compacts with the Bureau of Indian 
Affairs. These compacts are key mechanisms for tribal 
administration of Indian programs. This bill would reduce 
Federal bureaucracy and promote local control and 
accountability.
    Significant work on these measures has been done over the 
years. I urge this Committee and Indian Country to join me in 
getting these measures signed into law this year.
    I intend to continue advancing legislation and oversight 
that serves similar purposes and improves the lives of Indian 
people. As chairman, my top priorities are jobs, energy and 
natural resource development, health care, education, juvenile 
justice and tribal self-governance. The more progress we can 
make on these issues, the more progress we can make in helping 
families. I cannot do that without the bipartisan work of this 
Committee and the vice chairman in particular. So I want to 
reiterate my appreciation for Senator Tester's leadership and 
the collaborative spirit that he continues to bring to this 
Committee.
    I would like to ask Vice Chairman Tester if he has an 
opening statement.

             OPENING STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. I will make it very, very brief, because I 
understand we have some votes coming right up, and I want to 
hear from these folks. I just want to tell you very briefly 
congratulations on your chairmanship. I look forward to working 
with you and everybody else on this Committee to move Indian 
Country forward. There are a number of issues, some of which we 
will hear about today.
    I always think about the first time I met with the large 
land-based tribes. And I said, what are your priorities. After 
about three minutes I said, we are going to have to prioritize. 
Because there were just too many of them.
    So I think this has been a great Committee to work on. With 
your leadership, I look forward to good things happening.
    The Chairman. With your permission, Mr. Vice Chairman, what 
we talked about is allowing each of our guests to have an 
opportunity to make their statements, because we know we are 
going to a series of votes. Once we get a quorum here today, we 
will interrupt the testimony to have the formal business 
meeting and the elections.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Mr. Chairman, if I could just say 
congratulations to you in assuming the chairmanship of this 
Committee. As someone who has been the Vice Chair of the 
Committee under Senator Akaka, myself and Senator Tester, you 
have worked with each of us in a great collaborative fashion. 
We all appreciate that. So we wish you well in taking the gavel 
in this Committee, and look forward to working with you on the 
priorities that you just mentioned.
    If I could just for a second thank Mary Pavel, who will be 
leaving the Committee as staff director. She came on during my 
tenure, and I appreciate her hard work and dedication on behalf 
of Indian Country. So thank you, Mr. Chairman.
    The Chairman. Thank you.
    If we can start, I would like to welcome the Honorable 
Aaron Payment, who is the Midwest Area Vice President of the 
National Congress of American Indians, Washington, D.C. We 
would love to hear from you.

 STATEMENT OF HON. AARON PAYMENT, MIDWEST AREA VICE PRESIDENT, 
     NATIONAL CONGRESS OF AMERICAN INDIANS; ACCOMPANIED BY 
                  JACQUELINE PATA, EXECUTIVE 
                            DIRECTOR

    Mr. Payment. Good afternoon, Chairman Barrasso, Vice Chair 
Tester and members of the Committee. My name is Aaron Payment, 
Chair of the Sault Ste. Marie Tribe of Chippewa Indians.
    Thank you for allowing me to testify on behalf of NCAI's 
tribal priorities for the 114th Congress. I am pleased to be 
here for your first hearing as chairman, Senator Barrasso. I 
thank the new and returning Committee members for your service 
to Indian Country.
    NCAI is committed to continuing its strong relationship 
with this Committee, so that we can partner to improve the 
lives of Native people. This partnership was evidence last week 
when Chairman Barrasso delivered the Congressional response to 
NCAI's State of the Indian Nations address. This is a 
relationship that is built on trust. The trust responsibility 
has developed over hundreds of years pursuant to the 
Constitution, numerous treaties and Federal laws.
    President Cladoosby reminds us that the trust relationship 
is one that we have inherited. Tribal leaders are elected to 
uphold this trust relationship and as Senators, it is one that 
you agree to uphold when you take your oath of office. Thank 
you for your partnership and your commitment here.
    In exchange for ceding millions of acres of homelands, 
tribes reserved the right to continue self-governance and to 
exist as distinct people on our own lands. This is why the 
first priority we must request today is legislation to protect 
our homelands, lands that are necessary for economic 
development, cultural protection, natural resources management, 
housing, education and tribal infrastructure. Since 2009, this 
Committee has held numerous hearings, favorably passed 
legislation in each of the past Congresses which affirms the 
original intent of the Indian Reorganization Act and would 
allow the Secretary of Interior to take lands into trust for 
all tribes. We ask this Committee to take swift action to 
introduce and pass Carcieri fix legislation.
    In modernizing the trust relationship, we must first have 
certainty over our lands. Indian lands and natural resources 
are a primary source of economic activity for our tribal 
communities. But the Federal trust resource management system 
is antiquated, inefficient and contributes to a lack of 
investment in many reservation economies.
    NCAI points to two pieces of legislation that would 
immediately spur economic development and trust reform. The 
first is Senate Bill 209, a bill to amend the Indian Tribal 
Energy Development and Self-Determination Act of 2004, 
introduced by the bipartisan team of Senators Barrasso and 
Tester. This bill will streamline secretarial approval of 
energy development transactions on Indian lands and give tribes 
more autonomy over developing our own energy resources. NCAI 
looks forward to working with this Committee to pass this 
legislation.
    Another trust effort that NCAI supports is legislation that 
Senator Crapo introduced last session to establish a 
demonstration project allowing comprehensive land use planning 
and allocation of trust funding in accordance with tribal 
priorities. NCAI supports introduction of this legislation in 
the 114th Congress and recommends removing barriers in the 
appraisal, probate, land consolation and leasing processes.
    It is imperative that Congress work with NCAI, tribal 
organizations, tribal leaders, to modernize the trust system 
into a process that recognizes that we are in the best position 
to make innovative and long-lasting decisions for our 
communities.
    Thank you, Chairman Barrasso, for making infrastructure 
issues a priority. In order to attract economic development, 
teachers, law enforcement personnel and capital investments to 
our tribal lands, we must meet infrastructure needs. The 
current transportation authorization, MAP-21, which contains 
tribal programs for construction, maintenance of highways, 
roads, bridges and transit, is set to expire in May. With an 
annual budget of $450 million, this construction and 
maintenance needs of tribes continues to fall behind and 
creates unsafe conditions for all citizens who use our roads.
    In addition, the Native American Housing Assistance and 
Self-Determination Act expired in 2013. This bill is an 
excellent example of how tribes are exercising our right of 
self-determination to design and implement our own housing 
programs. Our housing needs are great. Reauthorization of 
NAHASDA is critical to continue to meet the housing needs of 
our people.
    We also ask this Committee to hold hearings and introduce 
legislation to address infrastructure needs of tribes in the 
areas of irrigation, housing, transportation and broadband. My 
friends here will speak to issues of health care and education, 
including my tribal member Stacy Bohlen. I call your attention 
to additional areas in our written testimony including juvenile 
justice, tribal taxation, public safety, veterans issues and 
more.
    I ask that our written testimony, entitled Promoting Self-
Determination, Modernizing the Trust Relationship, be entered 
into the record of today's hearing.
    The Chairman. Without objection.
    Mr. Payment. Funding decisions made by Congress are 
explicit expressions of the trust relationship between our 
governments. I respectfully request that the members of this 
Committee, eight of whom are on the Appropriations Committee, 
please use your voices to uphold this trust relationship. Your 
leadership will make a difference for our future generations.
    Again, chi-miigwetch on behalf of our NCAI team. I thank 
you for your service and your commitment to Indian Country.
    [The prepared statement of Mr. Cladoosby follows:]

    Prepared Statement of Hon. Brian Cladoosby, President, National 
                  Congress of American Indians (NCAI)
    On behalf of the National Congress of American Indians (NCAI), I'd 
like to thank you for the opportunity to testify at this important 
hearing as the Committee seeks to set its agenda for the I 14th 
Congress. NCAI is the oldest and largest American Indian organization 
in the United States. Tribal leaders created NCAI in 1944 as a response 
to termination and assimilation policies that threatened the existence 
of American Indian and Alaska Native tribes. Since then, NCAI has 
fought to preserve the treaty rights and sovereign status of tribal 
governments, while also ensuring that Native people may fully 
participate in the political system. As the most representative 
organization of American Indian and Alaska Native tribes, NCAI serves 
the broad interests of tribal governments across the nation. As this 
Committee considers its agenda for the 114lh Congress, tribal nations 
call on you to ensure that tribal priorities are represented and 
honored in the decisions made in this Congress.
Introduction
    NCAI appreciates the opportunity to present testimony on the 
Priorities of Indian Country for the 114lh Congress. It is important to 
note that the priorities that are highlighted were developed by tribal 
leaders in conjunction with NCAI, and that these priorities are all 
rooted in the modern trust relationship, self-determination, and 
sovereignty.
    The Constitution, numerous treaties, and laws have created the 
fundamental relationship between tribal nations and the United States. 
In return for ceding millions of acres of land that makes the United 
States what it is today, tribes codified their right of continued self-
government, and to exist as distinct peoples on their own lands. Part 
of that responsibility includes providing basic governmental services 
in Indian Country. As governments, tribes must deliver a wide range of 
critical services, such as education, workforce development, public 
safety, infrastructure, and healthcare to their citizens. Tribes have 
the capability as governments to oversee their own affairs and, as 
such, should be in parity with similarly situated governments who 
provide services to their citizens.
    The recommendations below can be accomplished in this session of 
Congress and further the government-to-government relationship between 
tribal governments and the Congress. In addition, the recommendations 
seek to identify areas where administrative barriers can be removed so 
that tribes can truly create opportunities for success--within our 
borders and beyond.
Trust Modernization
    Indian land and natural resources are a primary source of economic 
activity for tribal communities, but the federal trust resource 
management system is antiquated, inefficient, and contributes to the 
anemic condition of many reservation economies. NCAI urges the 
Committee to support legislative reforms that will eliminate the 
burdensome federal red tape stifling economic development in Indian 
Country, provide tribes with more flexibility and the option of greater 
control over decisionmaking, and prevent the reoccurrence of the trust 
mismanagement problems of the past. There is a need for greater 
efficiency in the trust resource management system, better economic 
returns on trust resources, and, above all, a much greater voice in how 
the trust will be administered.
    Tribes have been making progress on trust reform over the last five 
years and want to maintain that momentum. Tribes, working with Congress 
and the Administration, have seen significant settlements of trust 
litigation, the development of the Buy-Back program for fractionated 
lands, passage of the HEARTH Act to promote tribal control over surface 
leasing of tribal lands, and new leasing regulations that assist 
greatly on taxation of permanent improvements, among other matters. But 
there is much more work to be done. NCAI has identified key areas of 
the trust system that need improvements to better serve Indian Country:

  <bullet> Energy. The barriers to tribal energy development have been 
        well established by roundtables and hearings conducted by the 
        Department of Energy and this Committee. Barriers include 
        cumbersome bureaucratic processes that are largely attributable 
        to the requirement that tribes and tribal businesses obtain 
        Interior approval for almost every step of energy development 
        on tribal lands, including the approval of business agreements, 
        leases, rights of way, and appraisals. Other major barriers 
        include tribes' and tribal businesses' lack of access to 
        financing and transmission and Application for Permit to Drill 
        fees. For several Congresses, this Committee and the House 
        Subcommittee on Indian and Alaska Native Affairs have 
        considered legislation that would remedy the barriers to tribal 
        energy development in the Act. This legislation, championed by 
        Chairman Barrasso in the Senate and embodied in the 114th 
        Congress as S. 209, would provide tribes with greater control 
        and flexibility to develop their traditional and renewable 
        energy resources. We urge the Committee to pass S. 209 to 
        create careers and capital in Indian Country.

  <bullet> Trust modernization legislation. In the 113th Congress, 
        legislation was introduced that would have taken great steps 
        towards modernizing all trust processes for tribal lands. The 
        bill, introduced by Senator Crapo in the Senate and 
        Representative Simpson in the House, sought to establish a 
        demonstration project allowing comprehensive land use planning 
        and allocation of trust funding in accordance with tribal 
        priorities. We urge that this bill be taken up again, in 
        consultation with Tribes and the Interior Department, and moved 
        to the President's desk in the 114th Congress.

  <bullet> Appraisals and Valuation. Nearly every trust transaction 
        requires an appraisal from the Office of Special Trustee, and 
        this is the most significant bottleneck in the trust system. We 
        need to eliminate unnecessary appraisals and permit tribes to 
        rely on independent certified appraisals.

  <bullet> Lease Compliance and Trespass. Indian tribes have 
        significant problems with lessees who violate lease terms and 
        with outright trespass on Indian lands. We need legislation to 
        improve enforcement mechanisms and authorities. This is 
        explained in more detail in the proposal for Tribal Law and 
        Order Act Reauthorization below.

  <bullet> Conflict-of-Interest Issues. The Department of the Interior 
        (including the Solicitor's Office) oversees a vast range of 
        federal land issues that can come into conflict with their 
        trust responsibility to protect Indian land. We need to create 
        clearer divisions of responsibility that support the 
        identification and resolution of conflicts of interest.

  <bullet> Probate. Probate of individually-owned Indian lands 
        continues to be a bottleneck for many trust transactions, not 
        the least of which is the Buy-Back program. Many problem areas 
        in the probate process can be fixed through minor amendments to 
        the Indian Land Consolidation Act.

  <bullet> Self-Determination and Tribal Use of Lands. The HEARTH Act 
        was a good step forward to empower tribes to manage their own 
        lands. We need to build on this progress for other trust 
        resources, including subsurface lands, and to provide technical 
        assistance to tribes that wish to pursue the HEARTH Act 
        options.

  <bullet> Planning and Land Management. Tribal planning processes tend 
        to silo into grant-driven plans for housing, transportation, 
        water, power and sewage. Tribes need resources to integrate 
        planning for economic development and jobs, education, 
        agriculture and natural resources, and the development of 
        healthy communities. There is a growing emphasis on planning 
        for rural development and business agglomeration. Tribal 
        industries tend to cluster in certain areas, and tribes need 
        assistance with planning to build community infrastructure that 
        fits today's needs.

  <bullet> Land Consolidation. Individual Indian lands are often highly 
        fractionated, and these lands are also very difficult to put to 
        productive use. The Cobell settlement has established a Buy 
        Back Program intended to consolidate these lands for greater 
        use. However, tribes have significant questions and concerns 
        about this centralized federal program. We urge the Committee 
        to continue is oversight of this program and gather more 
        information about the track record so far, and push to make the 
        system effective and allow greater tribal involvement.

  <bullet> Federal Responsibilities for Title Maintenance, Technical 
        Assistance, and Prevention of Land Loss. At its most basic 
        level, the Federal Government has a responsibility to maintain 
        title to federal Indian lands, to report title quickly and 
        accurately, to include tribal governments in the title 
        management system, and to use that system to prevent land loss. 
        The Department of the Interior has invested some of the Buy 
        Back program funds into updating the title system, and a review 
        of the progress is recommended.

  <bullet> Land Restoration. Most reservations have suffered 
        significant land loss through federal laws and policies, and 
        are in a checkerboard pattern that is difficult to manage. Some 
        tribes have lost all of their land. The Federal Government has 
        a trust responsibility to restore tribal lands for all tribes. 
        In addition to the Carcieri Fix discussed below, we urge 
        Congress to continue to support tribal land restoration.

  <bullet> Natural Resources and the Environment. Tribal lands are 
        subject to environmental concerns that affect life in Indian 
        Country. At the same time, federal environmental regulations 
        are often unnecessarily burdensome and overly focused on 
        process rather than substance. We urge this Committee to review 
        existing regulations and statutes and determine where they can 
        be streamlined to empower tribes to manage and co-manage lands 
        effectively and efficiently.

  <bullet> Taxation and Services on Tribal Lands. Indian tribes need to 
        be able to collect taxes and control revenues in Indian Country 
        in order to provide services to their people. See the Tax 
        Issues section below for more background.

  <bullet> Access to Capital and Financing Development on Indian Lands. 
        Accessing capital to finance development on tribal and 
        individual Indian lands remains a significant challenge. It is 
        necessary to learn more about the barriers to investment so 
        solutions can be found for alternative mechanisms to secure 
        debt and equity investments in Indian Country.

  <bullet> Updating Regulations, Policies and Procedures. There are 
        many other areas of the trust system that need to be modernized 
        and updated. Progress has been made at the Department of the 
        Interior on the leasing regulations, and the pending Right-of-
        Way regulations, but tribes seek continued oversight from this 
        Committee so that progress will continue on trust regulations.

Tribal Land Restoration Under the Indian Reorganization Act
    The principal goal of the Indian Reorganization Act (IRA) was to 
halt and reverse the abrupt decline in the economic, cultural, 
governmental and social well-being of Indian tribes caused by the 
disastrous federal policy of ``allotment'' and sale of reservation 
lands. Between the years of 1887 and 1934, the U.S. Government took 
more than 90 million acres from the tribes without compensation, nearly 
2/3 of all reservation lands, and sold it to settlers and timber and 
mining interests. Even worse, many tribes had no land at all, and the 
IRA is clear in its purpose to acquire land for landless tribes. The 
IRA is comprehensive legislation for the benefit of tribes that stopped 
the allotment of tribal lands, provides for the acquisition of new 
lands, continues the federal trust ownership of tribal lands, 
encourages economic development, and provides a framework for the 
reestablishment of tribal government institutions on their own lands.
    Section 5 of the IRA, 25 U.S.C.  465, provides for the recovery of 
the tribal land base and is integral to the IRA's overall goals of 
recovering from the loss of land and reestablishing tribal economic, 
governmental and cultural life. Section 5 is designed to implement the 
fundamental principle that all tribes in all circumstances need a 
tribal homeland that is adequate to support tribal culture and self-
determination. As noted by one of the IRA's principal authors, 
Congressman Howard of Nebraska:

         This Congress, by adopting this bill, can make a partial 
        restitution to the Indians for a whole century of wrongs and of 
        broken faith, and even more important--for this bill looks not 
        to the past but to the future--can release the creative 
        energies of the Indians in order that they may learn to take a 
        normal and natural place in the American community. 78 Cong. 
        Rec. 11731 (1934).

    Of the 90 million acres of tribal land lost through the allotment 
process, only about 8 percent has been reacquired in trust status since 
the IRA was passed seventy-five years ago--and most were simply 
unallotted lands that were returned soon after 1934. Since 1934, the 
Bureau of Indian Affairs has maintained a conservative policy for 
placing land in trust. Still today, many tribes have no land base and 
many tribes have insufficient lands to support housing and self-
government. Section 5 clearly imposes a continuing active duty on the 
Secretary of Interior, as the trustee for Indian tribes, to take land 
into trust for the benefit of tribes until their needs for self-support 
and self-determination are met.
    In contemporary implementation of trust land acquisition, it is 
important to raise three important points. First, while some 
controversies exist, what is often misunderstood is that the vast 
majority of trust land acquisitions take place in extremely rural areas 
and are not controversial in any way. Most acquisitions involve home 
sites of 30 acres or less within reservation boundaries. Trust land 
acquisition is also necessary for consolidation of fractionated and 
allotted Indian lands, which most often are grazing, forestry or 
agricultural lands. Other typical acquisitions include land for Indian 
housing, health care clinics that serve both Indian and non-Indian 
communities, and land for Indian schools.
    Second, state and local governments have a role in the land to 
trust process. The Interior regulations provide opportunities for all 
concerned parties to be heard, and place the burden on tribes to 
justify the trust land acquisition, particularly in the off-reservation 
context. It is important to recognize that land issues require case-by-
case balancing of the benefits and costs unique to a particular 
location and community. The regulations cannot be expected to 
anticipate every situation that might arise, but they do provide an 
ample forum for local communities and governments to raise opposition 
to a particular acquisition and they reinforce the Secretary's 
statutory authority to reject any acquisition. State and local 
governments have an opportunity to engage in constructive dialogue with 
tribes on the most sensible and mutually agreeable options for 
restoring Indian land. In many cases, a ``tax loss'' of less than $100 
per year is a minimal trade-off for the development of schools, 
housing, health care clinics, and economic development ventures that 
will benefit surrounding communities as well as the tribe. Whatever 
issues state governments may have with the land to trust process, the 
Carcieri decision is not the place to address it. The Carcieri decision 
has created a problem of statutory interpretation that calls for a 
narrow fix to ensure equitable treatment of all tribes.
    Third, the chief problem with the land to trust process is the 
delays caused by inaction at the Bureau of Indian Affairs. Too often 
tribes have spent scarce resources to purchase land and prepare a trust 
application only to have it sit for years or even decades without a 
response. In addition, during inordinate delays tribes risk losing 
funding and support for the projects that they have planned for the 
land, and environmental review documents grow stale. Tribal leaders 
have encouraged the Bureau of Indian Affairs to establish internal time 
lines and checklists so that tribes will have a clear idea of when a 
decision on their application will be rendered. We are seeing some 
progress at Interior, and we encourage continued support for land to 
trust acquisition.
    Legislative Action Needed to Address Carcieri v. Salazar. In a 2009 
decision, the Supreme Court interpreted the definitions section of the 
IRA and held that the term ``now'' in the phrase ``now under Federal 
jurisdiction'' in the definition of ``Indian'' limits the Secretary's 
authority to provide benefits of the IRA to only those Indian tribes 
``under federal jurisdiction'' on June 18, 1934, the date the IRA was 
enacted.
    The Carcieri decision is at odds with the federal policy of tribal 
self-determination. In particular, the decision runs counter to 
Congress' intent in the 1994 amendments to the IRA. These amendments 
directed the Department of Interior and all other federal agencies, to 
provide equal treatment to all Indian tribes regardless of how or when 
they received federal recognition, and ratified the Department of the 
Interior procedures under 25 C.F.R. Pt. 83 for determining and 
publishing the list of federally recognized tribes.
    The Carcieri decision does not address what it means to be ``under 
federal jurisdiction'' in 1934. As the Carcieri decision continues to 
stand unaddressed by Congress, it is engendering costly and protracted 
litigation on an esoteric and historic legal question that serve no 
legitimate purpose. The Carcieri decision is creating litigation on 
long settled actions taken by the Department pursuant to the IRA, as 
well as on the Secretary's ability to make future decisions that are in 
the best interests of tribes. The decision is already creating 
significant delays in Department of Interior decisions on land into 
trust, a process that is already plagued with unwarranted delays.
    While the Carcieri decision addressed only land in trust, there may 
be efforts to use the decision to unsettle other important aspects of 
tribal life under the IRA. The IRA is comprehensive legislation that 
provides for tribal constitutions and tribal business structures, and 
serves as a framework for tribal self-government. Future litigation 
could threaten tribal organizations, contracts and loans, tribal 
reservations and lands, and provision of services. Ancillary attacks 
may also come from criminal defendants seeking to avoid federal or 
tribal jurisdiction, and would negatively affect public safety on 
reservations across the country.
    When the Supreme Court has narrowly interpreted an Act of Congress 
in a manner that is unfair and not in accordance with its original 
purposes, Congress should move quickly to amend and clarify the law. 
NCAI urges Congress to amend the IRA to the effect that all federally 
recognized tribes are included. We greatly appreciate your leadership 
and efforts to make clear that IRA benefits are available to all 
federally recognized Indian tribes.
Economic Development
    For generations, Native peoples have faced harsh economic 
conditions that are more pronounced than those generated by the Great 
Recession. Today, while unemployment rates across the country hover 
around 6 percent, tribal governments and businesses wrestle with 
unemployment rates that have well-exceeded ten percent and beyond for 
decades. The lack of employment opportunities in Native communities has 
had a wide-ranging impact, affecting all aspects of life. While tribal 
governments have successfully supported job creation both in government 
and the private sector, ensuring that job growth keeps pace with the 
growing Native youth population is an ongoing challenge. Considering 
that Indian Country has one of the youngest populations in the nation, 
with 42 percent of Native people under the age of 25, workforce 
development opportunities are of critical importance.
    A comprehensive Congressional and multi-agency approach is 
necessary to address the issues hindering economic success for many 
tribes. Conditions such as minimal access to capital, poor physical 
infrastructure, lack of broadband access, and a need for workforce 
training all combine to contribute to the economic development 
challenges found in Indian Country. These conditions, along with 
inadequate funding and programs for tribes have contributed to the 
chronically high unemployment rates throughout Indian Country. Honoring 
the trust responsibility and addressing the key economic needs will 
unleash the economic power of Indian Country. The results will be 
beneficial for not only our tribal nations but for the United States as 
well. Tribal nations and the Federal Government must work together to 
fulfill the promises of the past to secure prosperity for future 
generations.
    This Congress should focus on policies which bring economic 
opportunities to Indian Country and bring parity between tribal, state, 
and local governments. The empowerment of tribal efforts to manage and 
control their own affairs requires the Federal Government to grant 
tribes the flexibility needed to administer federal programs while 
removing barriers and bureaucratic hurdles and undermine tribal self-
determination and discourage private investment in tribal communities. 
NCAI recommends that Congress act quickly on legislation to improve 
jobs and self-governance in Indian Country while allowing tribes the 
flexibility to design and implement these programs in the ways that 
best meet the needs of their members.
    Permanently authorize the Indian Employment Training and Related 
Services Demonstration Act of 1992 (P.L. 102-477). The Indian 
Employment, Training, and Related Services Demonstration Act ``477'' 
program supports self-determination by permitting tribes to design 
their own programs and services, build tribal capacity, and use federal 
funding more effectively. The statute allows tribes to consolidate 
funding streams from the Departments of the Interior, Health and Human 
Services, and Labor into an integrated employment, supportive services, 
and training program with a single budget and single reporting system. 
This law has proven to be an exceptional success in making existing 
federal programming more effective in meeting the employment, training, 
education and welfare reform needs of Tribes and Tribal Organizations.
    The 477 program maximizes federal dollars for tribal governments by 
fostering agency cooperation while reducing administrative burdens. 
This flexibility allows the creation of programs that culturally meet 
the needs of tribal citizens and eliminate administrative duplication.
    In the last Congress, this Committee heard testimony on S. 1574 a 
bill introduced by Senator Murkowski. That bill would have consolidated 
and streamlined federal funding for tribal employment and training and 
related service programs in Indian Country. The legislation would also 
have updated and improved upon existing law which has allowed tribes to 
integrate their employment related funding and maximum program 
efficiency for the past 20 years. In the House of Representatives, 
Congressman Young (R-AK) has already introduced legislation that is 
identical to that introduced by Senator Murkowski in the 113th 
Congress.
    NCAI recommends the Committee on Indian Affairs take up this 
legislation for passage in this session of Congress.
    Enact Self-Governance Legislation. Self-governance allows tribes, 
as sovereign nations, to exercise their right to be self-governing and 
to take program funds and manage them in ways that best fit the needs 
of their citizens and tribal communities. It places the Federal 
Government's Indian Country programs firmly in the hands of the people 
who are served by them, enhancing and empowering tribal governments and 
their institutions, all while reducing the federal bureaucracy. As a 
tribally-driven initiative created through Congressional legislation, 
it allows tribal governments to negotiate annual appropriated funding 
and to assume management and control of programs, services, functions, 
and activities--or portions thereof--that were previously managed by 
the Federal Government.
    As of 2014, there are 254 Self-Governance Tribes within the 
Department of the Interior--Bureau of Indian Affairs and 341 Self-
Governance Tribes within the Department of Health and Human Services--
Indian Health Service. Over the last 25 years, the Self-Governance 
tribal leadership and representatives have held ongoing meetings with 
the Administration and Congress regarding ways to improve and advance 
self-governance and have made recommendations to update and enhance the 
current legislation.
    NCAI recommends that Congress enact Title IV Self-Governance 
Amendments. Amending Title IV of the Indian Self-Determination and 
Education Assistance Act (ISDEAA) has been a top legislative priority 
for Self-Governance tribes for more than a decade. Over the past 35 
years, the ISDEAA has been one of the most successful mechanisms 
allowing tribes to develop the capacity for government-building 
activities. However, Title IV of the ISDEAA, the Self-Governance 
program within the Department of the Interior, has serious gaps and 
problems. Therefore, tribal leaders continue to advance the vision of 
the ISDEAA by working to amend Title IV of the ISDEAA to create 
consistency and administrative efficiency for Self-Governance tribes 
between Title IV Self-Governance in the DOI and Title V Self-Governance 
in the DHHS.
    In the last Congress, the Committee on Indian Affairs favorably 
reported S. 919, the Department of the Interior Tribal Self-Governance 
Act of 2013 out of the Committee. The Department of the Interior has 
also expressed strong support for passage of this legislation which 
would significantly advance Congress's long-standing policy of 
promoting tribal self-governance. NCAI recommends swift introduction 
and action on this legislation in this session of Congress.
    In addition, NCAI urges both Congress and the Administration to 
look at expanding selfgovernance programs outside of the Department of 
the Interior and the Indian Health Service. Demonstration projects, 
consistent with fundamental self-governance tenants, could be developed 
where agencies have a high degree of tribal programs and tribes have 
the capacity for program administration.
Tax Initiatives
    NCAI greatly appreciates the Committee's support in collaborating 
with the Finance Committee to further tax initiatives important to 
Indian Country. NCAI encourages this Committee to ensure that tribes 
are included in any broader tax reform efforts taken up by Congress in 
this Session. Tribal governments should be included in the Tax Code in 
a manner that encourages growth and acknowledges the sovereign taxing 
authority of tribal governments. Federal budget difficulties have 
underscored the need for development of tribal taxing authority to 
provide government revenue independent of Federal appropriations. 
Tribal governments are increasingly using their taxing authority to 
support tribal Government programs and infrastructure. NCAI has the 
following recommendations, and urges consultation with tribal leaders 
who are becoming increasingly engaged with tax matters in Indian 
Country:
    Make Tax ``Extender'' Incentives Permanent--Support legislation to 
incentivize business development on tribal lands. NCAI urges Congress 
to consider the urgent and continuing need for economic development on 
Indian reservations in the context of the Indian Employment Tax Credit 
(IRC Section 45A), the Accelerated Depreciation Provision for on-
reservation business infrastructure (IRC Section 168(j)), and the 
Indian Coal Production Tax Credit (IRS Section 45) which expired on 
December 31, 2014, and should be reenacted as soon as possible and on a 
permanent basis. In addition, we would like to bring your attention to 
proposals to modify the New Markets Tax Credit and the Low-Income 
Housing Tax Credit to make them more accessible to Indian reservation-
based economic and housing development projects.
    The Employment Credit provides private businesses with an incentive 
for employing Indian tribal members in reservation-based business 
operations. The Accelerated Depreciation Provision provides businesses 
with the opportunity to take accelerated depreciation deductions on 
business property located on Indian reservations. NCAI recommends that 
Congress make both tax incentives permanent so that employers can rely 
on the incentives when planning to locate a facility in Indian Country. 
The lack of certainty in the future of these tax provisions undermines 
their ability to attract larger, long-term investments.
    NCAI also supports the proposal in the Department of Treasury FY 
2015 Budget to update the Indian Employment Credit (Green Book pp. 13-
15). The Indian Employment Credit is structured as an incremental 
credit applicable to current year qualified wages and health insurance 
costs in excess of such costs paid in the base year (1993, the year of 
original enactment). Updating the base year would achieve two goals: 
(1) simplicity by eliminating the need for businesses to maintain tax 
records long beyond normal requirements, and (2) restoration of the 
original incremental design of the credit. However, we note that in 
certain instances, this would result in a lesser amount of tax credit 
being available to certain businesses with on-reservation operations. 
We recommend use of the tax revenue savings inherent in this change to 
extend the credit permanently and to make the New Markets Tax Credit 
more accessible to tribal projects, as proposed below.
    We also urge extension of a tax provision of importance tribes in 
coal-rich areas, the Indian Coal Production Tax Credit (ICPTC). The 
ICPTC was enacted for a temporary period in the Energy Tax Incentives 
Act of 2005 (see IRC Section 45(d)(10) and (e)(10)). The credit was 
later extended and expired on December 31, 2014. There is a compelling 
need for the ICPTC. Tribes with coal reserves rely on the jobs and 
revenues generated by mining operations to improve the well-being of 
their citizens as they strive for economic self-sufficiency. 
Unfortunately, on-reservation mining operations are disadvantaged by 
bureaucratic obstacles, additional federal regulatory requirements, and 
the higher financial costs associated with mining on Indian lands, 
which make it difficult to compete with off-reservation operations. 
Since 2006, the ICPTC has helped offset those disadvantages and level 
the playing field for tribal mining operations.
    The New Markets Tax Credit (Section 45D) was established in 2000 to 
spur new or increased investments in operating businesses and real 
estate projects located in low income communities. The program has 
traditionally been a successful tool for attracting private capital to 
Indian Country. However, neither tribal organizations nor Indian 
reservation-focused applicants received a single dollar in the 2013 or 
2014 rounds of NMTC Funding. NCAI urges Congress to address this 
problem by creating a set-aside for Indian reservation-focused 
applicants and by amending Section 45D(i)(6) to direct Treasury to 
prescribe regulations to ensure that Indian reservations (as well as 
nonmetropolitan areas) receive an allocation of qualified equity 
investments.
    Similarly, the Low-Income Housing Tax Credit (LIHTC) is too 
frequently unavailable to tribes. Indian tribes have great numbers of 
low-income tribal members and long waiting lists of members who need 
housing. Unfortunately, the LIHTC allocations are provided only to 
state governments, who most frequently use criteria that benefit only 
urban areas. We urge that a set-aside be created for tribal 
governments.
    Tax Parity for Tribal Governments. Members of Congress and Indian 
tribes have been identifying a significant number of provisions where 
tribes are unable to use the Tax Code in the same manner as state and 
local governments. NCAI urges the Committee to take action in these 
areas to ensure that tribal governments achieve tax parity with state 
and local governments.

  <bullet> Tribal government tax-exempt bonds. Currently, tribes may 
        only use tax-exempt bonds for ``essential government 
        functions.'' Unfortunately the IRS has interpreted this in a 
        way to exclude tribal economic development as a governmental 
        function, while state and local governments frequently use tax 
        exempt financing for revitalization projects. This 
        unnecessarily prevents tribes from securing the funding needed 
        to revitalize their communities. Tax parity is essential for 
        tribal governments to freely implement important initiatives in 
        Indian Country.

  <bullet> Tribal government pension plans. Tribal governments 
        currently must provide both government and private ERISA 
        pension plans to their employees. This largely depends on 
        whether the employee works for the tribal government or for a 
        tribal enterprise. This requirement is both costly and 
        cumbersome. Tribal governments must be able to operate a 
        single, comprehensive, government pension program for all of 
        their employees.

  <bullet> Tribal foundations and charities. Tribally-created 
        foundations and charities do not enjoy the same tax-exempt 
        status that state-created foundations and charities enjoy. This 
        creates an uncertain atmosphere for potential benefactors 
        seeking to maintain their tax-exempt status. In order for 
        tribal foundations and charities to thrive, it is necessary for 
        benefactors to feel unencumbered to make contributions without 
        potential tax penalties.

  <bullet> Tribal child support enforcement agencies. Tribal child 
        support enforcement agencies need authority to access parent 
        locator services, which are currently only available to state 
        and local governments but not tribes. Also, the tax code should 
        be amended to allow tribal child support enforcement agencies 
        to enforce orders for support through the authority to withhold 
        past due child support payment from the federal income tax 
        returns of parents with past due obligations.

  <bullet> Tribal access to Clean Renewable Energy Bonds (CREBs). 
        Tribes and entities wholly owned or controlled by tribes, 
        should be able to utilize CREBs for energy development 
        projects. Legislation should also create a set aside for tribal 
        projects under the CREBs provision.

  <bullet> Adoption Credit. Recognize American Indian/Alaska Native 
        tribal governments for purposes of determining under the 
        Adoption Credit whether a child has special needs. Adoption is 
        widespread throughout Indian Country. Tribal courts need the 
        ability to make a determination of special needs in order to 
        grant tax credits to adoptive parents on par with state courts.

  <bullet> Tax credits granted to doctors employed by Indian Health 
        Service facilities. Tax credits are available to doctors 
        employed in other areas of the public sector, but are 
        unavailable to those employed by the Indian Health Service. 
        This would create an incentive for practitioners to bring their 
        skills to Indian Country, where they are greatly needed.

    Inclusion of American Indian/Alaska Native tribal governments in 
any forthcoming tax reform bill. The last national tax reform occurred 
during the 1980s. As such, any tax reform will most likely create a Tax 
Code which will govern the United States, its territories, and Indian 
tribal governments for decades to come. For this reason, it is 
important that tribal governments be included in any tax reform efforts 
as a matter of fairness. Reliable funding sources have been few and far 
between for every tribal government service for decades. NCAI 
recommends further consultation with tribes to develop an initiative 
that will promote tribal government tax authority and promote the 
ability of tribal governments to sustain programs and services in a 
more self-sufficient manner.
    Include Tribal Governments in the Marketplace Fairness Act. NCAI 
seeks the Committee's support of the Marketplace Fairness Act and 
requests the inclusion of tribal governments in any legislation that 
regulates the collection of sales taxes or implements the State 
Streamlined Sales and Use Tax Agreement. The Senate included tribes 
within last year's version of S. 743, and we are optimistic the 
legislation will be considered again this year.
    In sum, Indian tribal governments have authority to, and increasing 
utilize, their authority to collect sales taxes on Indian reservations. 
Tribal governments use these tax revenues to provide services on their 
reservations, such as law enforcement, education, health care and all 
the basic roads and infrastructure needs.
    In the Marketplace Fairness Act, Congress will be exercising its 
Commerce Clause authority, which includes the authority to regulate 
Commerce ``with foreign Nations, and among the several States, and with 
the Indian tribes.'' Like states, tribal governments are subject to 
confusing federal common law decisions on taxing jurisdiction, and can 
benefit from simplified rules on remote sales taxes and the sourcing of 
tax jurisdiction.
    We urge that any legislation passed by Congress also protect the 
tax status of Indian tribal governments by allowing Indian tribes to 
participate in the same manner as states. NCAI has worked with states 
and the National Conference of State Legislatures, and Indian tribes 
were included in prior legislation, in S. 34 from the 110th Congress 
and in H.R. 5660 from the 111th. We believe that the provisions 
incorporated in these older bills are better model for including 
tribes.
    Inclusion of tribes is extremely important, because the legislation 
will create the sales tax collection system for the next century, and 
sales taxes are a critical source of government revenue for Indian 
tribes. State governments rely on federal funding for approximately 25 
percent of their budgets, while tribal governments rely on federal 
funding for more than 60 percent of their budgets. Most often tribal 
governments are supplying services that the Federal Government is under 
treaty and trust obligations to provide. At a minimum, Congress should 
exercise its authority in a way that supports and protects the ability 
of tribal governments to raise tax revenues on their own. If a new 
national system of sales tax collection is to be created with 
Congressional approval, basic fairness means that tribal governments 
should have the same opportunities to collect taxes as other 
jurisdictions within the federal system. We urge Congress to include 
tribal governments within the Marketplace Fairness Act.
Tribal Infrastructure
    Tribal infrastructure needs must be addressed in order for tribes 
to not only meet the needs of their members, but to attract economic 
development opportunities to their communities. In this session of 
Congress, members of this Committee will be asked to take action on 
transportation and housing reauthorizations that will have a great 
impact on the current housing and transportation programs operated by 
tribal governments.
Transportation
    Tribal transportation programs are critical to ensuring that tribal 
governments can provide for the economic and social well-being of their 
tribal members and members of the surrounding communities. Surface 
transportation in Indian Country involves thousands of miles of roads, 
bridges, and highways. According to the latest National Tribal 
Transportation Facility Inventory, there are approximately 160,000 
miles of roads and trails in Indian Country owned and maintained by 
tribes, the Bureau of Indian Affairs, states, and counties. Of those, 
Indian tribes own and maintain 13,650 miles of roads and trails of 
which only 1,000 (or 7.3 percent) are paved, with another 12,650 miles 
consisting of gravel, earth, or primitive materials. Of the 29,400 
miles owned and maintained by the Bureau of Indian Affairs, 75 percent 
of them are graveled, earth, or primitive. When combined, the roads 
owned and maintained by Indian tribes and the Bureau of Indian Affairs 
are among the most underdeveloped and unsafe road networks in the 
nation, even though they are the primary means of access to American 
Indian and Alaska Native communities by Native and non-Native residents 
and visitors alike.
    Therefore, safety issues continue to be among the biggest 
challenges for tribal nations because many tribal communities are 
vulnerable due to unsafe and often inaccessible roads, bridges, and 
ferries. According to the Federal Highway Administration, ``American 
Indians have the highest rates of pedestrian injury and death per 
capita of any racial or ethnic group in the United States.'' Over the 
past 25 years, 5,962 fatal motor vehicle crashes occurred on Indian 
reservation roads, with 7,093 lives lost. While the number of fatal 
crashes in the nation declined 2.2 percent during this time period, the 
number of fatal motor vehicle crashes per year on Indian reservations 
increased 52.5 percent. Adult motor vehicle-related death rates for 
American Indians/Alaska Natives are more than twice that of the general 
population. These statistics are alarming and call for major changes in 
federal transportation safety programs serving Indian Country.
    The current cost to construct for Bureau of Indian Affair owned 
roads in Indian Country is approximately $81.6 million. Indian Country 
will require a substantial commitment of federal resources in keeping 
with the trust responsibility to meet maintenance and transportation 
needs for tribal governments and citizens. In addition, another surface 
transportation program that has a growing shortfall is the Bureau of 
Indian Affairs Road Maintenance Program. The lack of investment in this 
infrastructure over the past decade has compromised highway safety in 
Indian Country, dramatically shortened the useful life of the Bureau of 
Indian Affairs transportation system, and tribal roads and bridges and 
undermined tribal economic development initiatives in Indian Country.
    Bureau of Indian Affairs Road Maintenance Program. Although the 
majority of transportation programs are authorized and funded through 
the Department of Transportation, there is one critical tribal 
transportation program located within the Bureau of Indian Affairs. 
This program, the BIA Road Maintenance program is responsible for 
maintaining approximately 29,400 miles for roads in Indian Country 
including 900 bridges. The funding for this program has steadily 
declined for several fiscal year cycles and is currently funded at $26 
million for FY 2015.
    The current deferred maintenance for BIA roads is over $289 million 
and rising. At this current level of funding it would take more than a 
decade to clear the current maintenance backlog on these roads, not 
accounting for future maintenance needs. These staggering amounts of 
deferred maintenance on BIA roads directly impacts tribes. The safety 
of our youth, elders, tribal citizens, and non-Native neighbors depend 
on the adequacy of these roads.
    Reauthorization of MAP-21. The Moving Ahead for Progress in the 
21st Century (MAP-21) is the major transportation authorization that 
administers highways, bridges, transits, and safety programs within the 
Department of Transportation. Particularly for tribes, MAP-21 comprises 
the Tribal Transportation Program (TTP) and Public Transportation on 
Indian Reservations Section 5311 (c) (also known as the Tribal Transit 
Program). Currently tribes receive $450 million for TTP for the 
construction and maintenance of highways, roads, and bridges; and $30 
million for Public Transportation on Indian Reservations, which 
provides funding for development and maintenance of transit systems 
that serve tribal communities.
    NCAI requests this Committee to hold a hearing on tribal 
transportation priorities in anticipation of the reauthorization of 
MAP-21 which expires in May of 2015. This hearing could be used to 
highlight the importance of tribal transportation programs and how 
those programs can be improved as Congress considers reauthorization of 
the broader transportation reauthorization.
Housing
    Housing is a core necessity for tribal communities. While tribes 
have made great strides toward improving housing conditions in their 
communities, the need for adequate, affordable housing for low-income 
Indian people persists. Native Americans still face some of the worst 
housing and living conditions in the Unites States. According to the 
U.S. Census Bureau's 2006-2010 American Community Survey, there are an 
approximate 142,000 housing units in Indian Country, and those homes 
frequently lack utilities and basic infrastructure. The survey shows 
that approximately 8.6 percent lack complete plumbing facilities, 7.5 
percent lack kitchen facilities, and 18.9 percent lack telephone 
service. Close to 30 percent of Indian homes rely on wood for their 
source of heat.
    These staggering statistics have long been challenges facing Indian 
tribes, and without appropriate policies and proper government-to-
government planning to address these challenges, Indian Country will 
continue to fall behind. Seventy percent of the existing housing stock 
in Indian Country is in need of upgrades and repairs, many of them 
extensive. The longer it takes to address these significant housing 
needs in Indian Country, the more expensive remedies will be in the 
long-term.
    Tribal programs under the Native American Housing and Self-
Determination Act have been successful in allowing tribes the self-
determination necessary to provide effective programs for tribal 
citizens. NAHASDA effectively replaced the various Indian housing 
programs under the 1937 Housing Act and consolidated federal housing 
funds through direct block grants to the tribes and their housing 
authorities. Tribes are now exercising their right of self-
determination to design and implement their own housing and other 
community development infrastructure programs. NAHASDA has resulted in 
tens of thousands more housing units being constructed as well as 
increased tribal capacity to address related infrastructure and 
economic development challenges. Since the enactment of NAHASDA in 
1996, tribal housing programs have been making great strides for 
housing and community development by using sustainable building 
practices and leveraging their NAHASDA and other federal funding. Today 
there are close to 500 Tribally Designated Housing Entities in Indian 
Country.
    Reauthorization of NAHASDA. The current NAHASDA authorization 
expired in September of 2013. NCAI recommends the reauthorization of 
NAHASDA and its programs and activities. NAHASDA's programs are key to 
meeting the housing needs of Indian Country. In the last session of 
Congress, NAHASDA legislation passed the House but stalled in the last 
days of the Congress. NCAI recommends that this Committee work on 
legislation to reauthorization NAHASDA to bring certainty to housing 
development and programs throughout Indian Country.
Telecommunications
    As the United States progresses with the deployment and adoption of 
21st Century technologies, mechanisms implemented must take into 
consideration the unique circumstances that exist on tribal lands. As 
new policy initiatives spur robust, high-speed broadband services 
throughout the country, adequate resources and funding for these 
efforts will need to keep pace. Policies focused on the deployment and 
adoption of these new technologies provides renewed opportunities for 
tribes to exert self-determinations and advance capacity building. 
Funding for federal commitments to consult with tribal nations and 
access to public media systems continue to be essential functions for 
bridging the Digital Divide in Indian Country.
    The primary law governing our telecom sector is the 1934 
Communications Act--which was last amended in 1996 due to rapid 
advances in wireless and cable technologies. The 1996 amendments 
created the Universal Service Fund to meet the goals of providing 
affordable and quality telecom services across the country--most 
notably to rural areas, and for low-income individuals. However, the 
law passed without consideration to the general absence of these 
facilities and services on tribal lands.
    In the 2000 U.S. Census, it was estimated that less than ten 
percent of tribal lands had access to the Internet--and that just 68 
percent of tribal households had access to basic telephone service. 
With these startling statistics, tribes united to advocate for change.
    NCAI urges the Committee to hold an oversight hearing on 
connectivity in Indian Country and make specific recommendations below 
to improve Administration efforts in telecommunications.
    Establish the Office of Native Affairs and Policy as an independent 
office at the FCC. The FCC has already established a procedural 
framework for stand-alone offices, such as the Office of General 
Counsel and Office of Engineering and Technology. These offices were 
created to directly advise the FCC Chair and Commissioners as specific 
subject matter experts. When the FCC Office of Native Affairs was 
established (FCC-ONAP), it was place under the Intergovernmental 
Affairs Bureau with the intent to report to, and work directly with the 
FCC Chair and across the Bureaus and Offices at the Commission. 
Elevating FCC-ONAP to operate as a stand-alone office will ensure that 
it has the unfettered access needed to address tribal concerns and 
advise the FCC Chair, Commissioners, and the Commission's Bureaus and 
Offices on all tribal matters.
    Dedicated Funding for FCC-ONAP. NCAI urges continuation of a 
dedicated, annual budget for FCC-ONAP to ensure the FCC's commitment to 
consult with tribal nations is preserved and exercised. FCC-ONAP is 
charged with consulting with tribal nations on behalf of the entire 
agency, and working with FCC Commissioners, Bureaus, and Offices for 
the development and implementation of policies benefiting tribal 
nations. The passage of the 2014 Omnibus Appropriations bill was the 
first time Congress appropriated funds to the FCC specifically for 
consultation purposes with tribal nations. We urge Congress to continue 
funding of no less than $300,000 for consultation purposes at the FCC 
through its Office of Native Affairs and Policy.
    ConnectED. In June 2013, President Obama announced the ConnectED 
initiative to connect 99 percent of America's students to high-speed 
broadband and services by 2018. Shortly after this announcement, the 
Federal Communications Commission initiated rulemakings to modernize 
its $2 billion Schools and Libraries program (E-rate)--the Federal 
Government's largest educational technology program. In the Final Order 
adopted by the FCC in August 2014, many tribal concerns were addressed, 
such as the need for training on various programmatic aspects of the E-
rate program and the need for a Tribal Liaison at the Universal Service 
Administrative Company.
    However, the Final Order missed taking action on several key 
recommendations to increase tribal participation in the program. 
Additionally, the Final Order focused on prioritizing funding to 
support Wi-Fi deployment, which does not address the critical need for 
new hardline, and in many cases first-time, connections to the nation's 
schools and libraries.
    Amend the Library Services and Technology Act. NCAI seeks an 
amendment to the Library Services and Technology Act to recognize 
tribal authority to designate what constitutes a ``library'' on tribal 
lands.
    Tribal ``libraries'' are usually located in multi-service buildings 
that provide programs and services to tribal members, which may not 
constitute a formal `stand-alone' library or necessarily be attached to 
a primary or secondary education institution. When the 1996 
Telecommunications Act passed it recognized the Library Services and 
Construction Act, which provided tribes the ability to designate their 
own libraries. However, just months after passage of the '96 Telecom 
Act, the LSCA was rescinded and replaced by the Library Services and 
Technology Act (LSTA). Under the LSTA tribes must receive approval from 
a State Library Administrative Agency to designate a ``library'' as 
eligible for receiving funds for various library functions--including 
eligibility for participation in the E-rate program. NCAI requests 
legislation to amend the LSTA, or remove the requirement that tribal 
libraries be eligible for LSTA under state programs and instead restore 
them to being treated as agencies of sovereign tribal nations.
Public Safety
    Congress has taken historic steps in the past several years to 
address public safety issues in Indian Country. With the passage of the 
Tribal Law and Order Act in 2010, the Violence Against Women 
Reauthorization Act of 2013, and the Alaska Safe Families and Villages 
Act of 2013, Congress has begun to address some of the structural 
barriers to public safety in tribal communities. For the promise of 
these laws to be fully realized, however, they must be fully 
implemented at the agency level and sufficient resources must be 
allocated through appropriations.
    In 2013, the bi-partisan Indian Law and Order Commission released 
its report to Congress and the President concluding that ``[h]ow we 
choose to deal with the current public safety crisis in Native 
America--a crisis largely of the Federal Government's own making over 
more than a century of failed laws and policies--can set our generation 
apart from the legacy that remains one of [the] great unfinished 
challenges of the Civil Rights Movement. Lives are at stake, and there 
is no time to waste.'' The public safety problems that continue to 
plague tribal communities are the result of decades of gross 
underfunding for tribal criminal justice systems; a uniquely complex 
jurisdictional scheme; and the historic, abject failure by the Federal 
Government to fulfill its public safety obligations on American Indian 
and Alaska Native lands. Residents and visitor on tribal lands deserve 
the safety and security that is taken for granted outside of Indian 
Country.
    Reauthorization of the Tribal Law and Order Act; with Juvenile 
Justice, Technical Amendments and a Joint Effort to Address the Crisis 
in Criminal Justice Funding. NCAI asks that the Senate Committee 
prioritize the reauthorization of the Tribal Law and Order Act of 2010 
(TLOA). The TLOA was a strong and bi-partisan step forward by Congress 
to address tribal justice systems. The Act authorized funding for a 
number of programs to tribal governments to improve public safety and 
the administration of criminal justice in Indian Country. All 
authorized funding under the TLOA is expiring this year. It is 
important that Congress not only reauthorize this funding, but also 
appropriate the crisis-level funding needed for criminal justice in 
Indian Country. There is very strong, but as yet unrealized, support 
within Congress, and combining additional appropriations with the 
reauthorization will be well-received and strongly supported by tribal 
leaders.
    The reauthorization of the TLOA may also serve as a vehicle for 
improvements to the Juvenile Justice system in Indian Country, which we 
describe in the next section. Chairman Barrasso and Vice-Chair Tester 
have both identified youth justice as a priority, and Indian Country 
fully agrees.
    The TLOA was also a vehicle for a series of important technical 
improvements to the federal criminal justice laws in Indian Country. 
Tribal justice systems now have nearly five years of experience with 
implementing the law, and that implementation has led to proposals to 
continue to make technical amendments to improve the law.
    Bureau of Prisons Tribal Prisoner Pilot Program. Specifically, we 
ask that the Committee reauthorize and make the Bureau of Prisons 
Tribal Prisoner Pilot program, which expired on November 24, 2014, 
permanent. The Pilot Program created the option to send highly violent 
offenders to federal corrections facilities. Many tribes do not have 
the resources or personnel to adequately and safely house these types 
of offenders. The federal system also offers greater access to 
treatment, rehabilitation, and reentry programs.
    At the time of enactment, NCAI believed that the program would be 
used sparingly for only the most violent offenders. However, there were 
concerns about costs and the program was limited to a pilot for four 
years. In that short time the program is only beginning to work, but it 
works extremely well. Tribal governments must develop new criminal 
codes, train staff, and then it took time to navigate the federal 
bureaucracy to use the program. Three tribes have only fairly recently 
transferred a total of six prisoners to federal prisons, but this is an 
extraordinarily useful tool for a big problem--the small number of very 
violent offenders. Providing tribes this flexibility will allow tribal 
governments to concentrate their resources on other pressing criminal 
justice and public safety needs. The Federal Bureau of Prisons has 
supported the continuance of this program in its report to Congress as 
required by the Tribal Law and Order Act.
    Trespass. NCAI has also received increasing technical feedback from 
tribes on criminal justice concerns. As an example, we recommend that 
Congress consider updating the 18 U.S.C. 1165 regarding trespass. 
Trespass on an Indian reservation is treated as a misdemeanor under 
federal law, which may be appropriate for minor hunting and fishing 
trespasses. However, Indian reservations are experiencing increasing 
problems with serious criminal trespass and a lack of deterrence. 
First, tribes are unable to address problems with sexual assault and 
stalking offenders who are subject to civil protection or exclusionary 
orders, but continue to return to the reservation to harass victims. 
Violating a tribal protection or exclusionary order should be subject 
to more serious federal penalties. Second, tribes also have 
difficulties with former lease tenants who overstay agricultural and 
residential leases for many years and refuse to leave or pay rent. 
Third, tribes are also experiencing problems with timber theft, 
repeated poaching, illegal mining and illegal marijuana operations. 
These are serious property crimes that are infrequently enforced by the 
Federal Government because the penalty is a misdemeanor. The goal would 
be to create an effective federal deterrent that could be included in 
initial notices or orders. In short, the Indian Country trespass crime 
should be updated to increase penalties and deterrence for those who 
cause serious threats to persons and loss of property.
    Juvenile Justice. The Indian Law and Order Commission's ``A Roadmap 
for Making Native America Safer'' report discussed the disturbing 
reality that American Indian/Alaska Native youth face disproportionate 
exposure to violence and poverty. Many of these communities lack access 
to funding for mental health and other support resources to offset the 
impacts of these conditions. As a result, Native children are 
particularly likely to enter the juvenile justice system. Removing 
these children from their families, tribal communities, and culture 
increases the likelihood that they will become habitual offenders. At 
present, the majority of youth in federal detention centers are 
American Indian/Alaska Native. American Indian/Alaska Native youth also 
make up a disproportionate number of the population in state juvenile 
justice systems, when compared with their non-Indian counterparts.
    When faced with these realities, tribes are often unable to 
participate in ensuring the health and welfare of their juvenile 
populations. In most cases, tribes are better situated to offer 
culturally appropriate alternatives to incarceration, however, many 
tribes lack the ability to financially support the infrastructure 
needed to deter and rehabilitate juvenile offenders, and rely solely on 
federal appropriations. The immediate costs of arming Native juvenile 
justice systems with the tools they need to implement culturally 
sensitive juvenile justice solutions pale in comparison with the long 
term costs of incarcerating habitual juvenile offenders into adulthood. 
NCAI has the following recommendations for the Committee:
    Funding for American Indian/Alaska Native Juvenile Justice 
Programs. The Tribal Law and Order Commission's 2013 Report on juvenile 
justice (TLOC Report) and the Attorney General's Advisory Committee on 
American Indian/Alaska Native Children Exposed to Violence 2014 Report 
(AG Report) recommend that, rather than incarcerate Native juvenile 
offenders, tribes implement culturally-appropriate rehabilitation 
measures. Incarceration of Native juvenile offenders only exacerbates 
an already precarious situation. According to the TLOC Report, when 
placed in juvenile detention facilities, youths are placed in 
``generally unsafe, abusive, ineffective, and horribly expensive'' 
situations that tend to push them further into a life of crime. It is 
therefore necessary for tribal juvenile justice systems to be able to 
fashion appropriate alternatives aimed at rehabilitation and treatment.
    The TLOC Report recommends that resources be more effectively 
deployed to Indian Country in order to achieve parity between Native 
and non-Indian justice systems. The Juvenile Justice and Delinquency 
Prevention Act of 2002 (JJDPA), which is up for reauthorization, 
provides funding for juvenile justice prevention and treatment programs 
in Indian Country. Currently, the aggregate amount of funding provided 
by the JJDPA for all of Indian Country equals the amount apportioned to 
one state. This is unacceptable in light of the challenges facing 
Indian Country in implementing and sustaining juvenile justice systems. 
Tribes must be allocated and appropriated at least ten percent of the 
funding available under the JJDPA in order to provide their communities 
with adequate juvenile justice solutions. Both the TLOC Report and the 
AG Report recommend that Congress authorize additional and adequate 
funding for tribal juvenile justice programs in the form of block 
grants and self-governance compacts to support the restructuring and 
maintenance of tribal juvenile justice systems.
    Tribal Juvenile Data collection. The TLOC Report highlights the 
difficulties Indian Country faces in keeping track of its juvenile 
offenders. In some cases, juvenile offenders disappear completely from 
a tribe's radar once they are in the system. At the state level, data 
collection is either inadequate or nonexistent. Both the TLOC Report 
and the AG Report emphasize that proper data collection is essential if 
tribes are to attempt early intervention with at-risk youth. A number 
of tribes have instituted juvenile tracking programs, in which they 
have collected data from a variety of sources to create a comprehensive 
picture of each of the youths within their tribal communities. From 
this data, tribes have been able to foresee when family situations 
require preventative action, and then supply the resources necessary to 
maintain the youth's wellbeing. This kind of data collection is 
essential for tribes to maintain healthy youth communities, but many 
tribes lack the resources necessary to institute these kinds of 
comprehensive programs. Appropriated funding is therefore necessary for 
the long term health of these tribal communities, and will result in an 
overall savings in both social and fiscal costs.
    Preventative Family Services. The AG Report states that Native 
juvenile offenders are exposed to violence at extremely high rates. 
This exposure negatively impacts neurological development, physical and 
mental health, and school performance, and increases substance abuse 
and delinquent behavior. Many of these issues could be resolved through 
early preventative services, such as providing mental health and 
substance abuse counseling for parents, screening youth for trauma, or 
providing after school programs and youth mentorship. Tribes often lack 
the resources to initiate and facilitate these programs. It is 
therefore necessary for Congress to appropriate funding essential to 
the creation and implementation of preventative tribal intervention 
programs.
    Request for Oversight Hearing on Nationwide Implementation of 
Tribal Domestic Violence Jurisdiction. NCAI respectfully requests the 
Committee hold an oversight hearing on the implementation of 25 U.S.C. 
 1304, known as Special Domestic Violence Criminal Jurisdiction 
(SDVCJ), in March of this year. The restoration of tribal jurisdiction 
over non-Indian domestic violence offenders marked one of the most 
important and most highly visible provisions of the reauthorization of 
the Violence Against Women Act nearly two years ago. On March 7, 2015 
all Indian tribes will become generally eligible to implement the new 
law without prior approval from the Attorney General. That month would 
be an opportune time for the Committee to hear about implementation 
from the three tribes in the Pilot.
    Under the Pilot Program, three tribes were approved by the Attorney 
General to exercise SDVCJ on an accelerated basis on February 20, 2014. 
The three tribes include the Confederated Tribes of the Umatilla Indian 
Reservation (Oregon), the Pascua Yaqui Tribe (Arizona), and the Tulalip 
Tribes (Washington). Over the past two years, 41 tribes have worked in 
collaboration to prepare for implementation as part of the Intertribal 
Technical-Assistance Working Group. It is expected that quite a few 
more tribes will begin implementation in the near future.
    One goal in requesting this oversight hearing is to educate more 
tribal leaders about the process of implementation. The pilot project 
tribes have done tremendous work in developing tribal codes and putting 
the required criminal procedural safeguards into place. They have 
accumulated a lot of lessons learned, and a Senate hearing would be an 
excellent place to share this knowledge.
    In addition, this issue garnered a great deal of attention in 
Congress, and we feel a responsibility to keep Congress informed about 
progress with the new law. The pilot project has illustrated the 
necessity of criminal jurisdiction over non-Indians on tribal lands in 
order to ensure public safety. The three pilot tribes are already 
making multiple arrests of non-Indian domestic violence and dating 
violence offenders and have a great deal of data and information to 
share.
    For example, there have been multiple related assaults and 
incidents involving children, which the tribes cannot prosecute under 
their current authority. This data is especially relevant given the 
Attorney General's Task Force on Children Exposed to Violence recent 
recommendations. In addition, it is notable how many of these SDVCJ 
defendants have arrest warrants in other jurisdictions and have 
attempted to exploit jurisdictional gaps by ``hiding out'' in Indian 
country. The pilot project has also illustrated the need for access to 
federal criminal databases and for clarification of authority to detain 
criminal offenders for federal or state prosecution. Finally, 
implementation has highlighted the tremendous need for increased 
resources for tribal justice systems.
    The SDVCJ pilot project has placed these issues in spectacularly 
focused detail. NCAI believes that the Committee will be highly 
impressed with the results of any hearing that includes representatives 
of the three pilot project tribes.
    Victims of Crime Act (VOCA) Funding. Congress created the Crime 
Victims Fund through the Victims of Crime Act in 1984. It is based on a 
simple idea: Money the government collects from those who commit crimes 
should be used to help those victimized by crime. Each year, criminal 
fines and penalties collected in federal court are deposited into the 
Crime Victims Fund. The Department of Justice disburses money from this 
Fund to States and other entities to support victim compensation and 
assistance programs. It is important to note that the Fund receives no 
tax dollars. Unfortunately, since its inception, Indian tribes have 
largely been shut out of the critical funds disbursed from the Crime 
Victims Fund.
    Since fiscal year 1999, Congress has capped the amount of money 
disbursed from the Crime Victims Fund. The cap on money disbursed from 
the Fund has remained low, even as the amount of money going into the 
Fund has risen dramatically. For example, from fiscal year 2009 through 
fiscal year 2013, the Crime Victims Fund collected an average of $2 
billion each year, but disbursed only an average of $700 million per 
year.
    Last year, Congress raised the cap for fiscal year 2015 to $2.3 
billion. Unfortunately, the vast majority of that funding is 
distributed via a formula grant to states and territories and is not 
reaching tribes and tribal communities. NCAI Resolution calls for 10 
percent of the distributions from the Crime Victims Fund to be directed 
to tribal governments. This was also the recommendation of the Attorney 
General's Task Force on American Indian and Alaska Native Children 
Exposed to Violence. We understand that there is an effort underway in 
the Senate to make the increased distributions from the Crime Victims 
Fund permanent, and we request that the Senate Committee on Indian 
Affairs work with the your colleagues to ensure that Indian tribes are 
appropriately included in distributions from the Crime Victims Fund 
moving forward.
Appropriations
    Annual funding decisions by Congress are an expression of our 
nation's policies priorities and the federal budget for tribal 
governmental services reflects the extent to which the United States 
honors its promises to Indian people.
    Tribal leaders throughout Indian Country seek the same outcomes as 
other national leaders: to protect the health, safety, and prosperity 
of the populace they serve. Tribal leaders are addressing urgent 
societal challenges, often with inadequate resources and authority, but 
still facing expectations from their people for safe communities, 
educational opportunities, health care, clean air and water, and 
economic growth. Effective tribal governments that can meet the 
essential needs of their citizens require the fulfillment of the modern 
federal trust responsibility as well as respect for tribal self-
determination.
    The NCAI FY 2016 Budget Request, included as part of this 
testimony, was developed in coordination with national tribal 
organizations and tribal partners, and offers recommendations for ways 
the Federal Government, partnering with tribes, should meet the 
educational needs of a young Indian population through Bureau of Indian 
Education schools, tribal schools, and the public schools on and near 
tribal lands; provide adequate health care via the Indian Health 
Service, both direct and self-governance; ensure responsible resource 
development for the future; provide safe and secure tribal communities; 
and supply the long-term investments in tribal public infrastructure 
and services required to ensure every American Indian and Alaska Native 
enjoys a decent quality of life and has an opportunity to succeed.
    A combination of parity in governmental and program funding as well 
as promoting Indian selfdetermination will help to achieve the vision 
of broader progress in Indian Country. Several areas of tribal 
administration and services demonstrate the impediments to effective 
tribal governance due to disparities in resources, such as in tribal 
public safety and justice, child welfare, and natural resources, to 
name a few.
    Contract Support Costs. The Indian Self-Determination and Education 
Assistance Act has represented the cornerstone of this nation's federal 
policy toward tribes for the last forty years. Under the Indian Self-
Determination Act, the United States enters into inter-governmental 
contracts with tribes under which tribes administer federal programs, 
either through contracts of selfgovernance compacts for the benefit of 
tribal members. In amending the 1975 Act in 1988, Congress observed 
that the single greatest impediment to successful implementation of the 
Indian Self-Determination Policy was the consistent failure of the 
Bureau of Indian Affairs and the Indian Health Service to pay full 
contract support costs associated with the administration of 
transferred programs. Congress recognized that the failure of the BIA 
and HIS to pay full fixed contract support costs has often led to 
reductions in programs, amounting to partial termination of the Federal 
Government's trust responsibility.
    NCAI calls on Congress and the Administration to honor the nation's 
current and future contract obligations to tribal nations and work 
diligently toward a permanent solution to contract support cost funding 
and to implement meaningful contract support cost reforms in 
consultation and partnership with Indian Country.
    Work to secure full CSC funding without impacting program funding. 
Following the Supreme Court's Ramah decision, the Administration 
proposed ``mini-caps'' on contract support cost appropriations for FY 
2014 that would have capped the amount of CSC available for each 
individual Indian Self-Determination Act contractor. Congress rejected 
the mini-cap proposal, which was vigorously opposed by tribes, and 
ultimately enacted the FY2014 Consolidated Appropriations Act without 
any limits on contract support cost spending at the individual or 
aggregate level. As a result the entire unrestricted lump-sum 
appropriations for the IHS and BIA were legally available to pay the 
agencies' contract support cost obligations.
    Congress and the Administration must seek permanent full funding 
for contract support costs that will not come at the expense of direct 
program funding or retained tribal shares. All tribes agree that the 
payment of contract support costs, which is a legal obligation, should 
not be achieved by reducing direct services to any tribes. Tribes and 
tribal organizations across the country overwhelmingly support the 
creations of a permanent, indefinite appropriation for contract support 
costs, which would ensure full funding for contract support costs on an 
as-needed basis without impacting the rest of the IHS and BIA budgets.
    Prompt Settlement of Past Claims. In June 2012, in the Ramah and 
Artic Slope tribal contracting case decisions, the Supreme Court 
rejected the Federal Government's defense of these breach of contract 
claims and rule that the government acted illegally in failing to pay 
tribes and tribal contractors the full contract price due under their 
Indian Self-Determination Act contracts. This breach covers thousands 
of contracts by the BIA and IHS extending back over more than twenty 
years.
    Rather than acting quickly to resolve these claims, which are 
supported by years of data documenting the government's underpayments, 
the agencies insisted that in order to settle these claims they must 
re-audit contracts and re-calculate indirect cost rates according to 
retroactively-adopted accounting rules in an effort to re-determine the 
amount of underpayments. The result has largely been to further delay 
justice and further burden tribes with slow, expensive and unnecessary 
accounting battles, both in the contexts of individual IHS claims and 
the BIA Ramah class action sampling process. On the IHS side, where 
claims must be settled tribe-by-tribe and year-by-year, progress has 
been made recently, however, by the agency's own account, some 600 
claims remain unresolved.
    Given the wealth of available data about the underpayments compiled 
by the agencies themselves, settlement of all cases should have taken 
no more than a few months--it should not take years. While tribes 
appreciate the progress that has been made, further delay is not 
acceptable and the agencies must approach settlement with all tribes in 
a consistent and equitable manner.
Education
    No resource is more important to the continued success and growth 
of our nation and Indian Country than our children. It is vital that we 
all work together to strengthen our human capital in all tribal 
communities across America. The greatest way to do just that is to 
provide a high-quality, culturally-appropriate education that 
effectively and equally benefits all of our nation's children--
including our Native children.
    Ensuring equal educational opportunities is not simply a matter of 
fairness, but even more importantly in today's challenging economic 
climate, it is an essential strategy for creating jobs and securing the 
nation's future prosperity especially is tribal communities. Education 
also drives personal advancement and wellness, which in turn improves 
social welfare and empowers communities--elements that are essential to 
protecting and advancing tribal sovereignty and maintaining tribes' 
cultural vitality.
    The Federal Government provides education to Indian students in two 
ways, through federally funded Bureau of Indian Education (BIE) schools 
or through education assistance to public schools where Indian students 
attend. Currently 620,000, or 93 percent, of Indian students attend 
public schools and approximately 45,000, or 7 percent, attend BIE 
schools. There are 184 BIE-funded schools (including 14 peripheral 
dormitories) located on 63 reservations in 23 states.
    Many challenges exist in reforming the educational system for 
Native students. For example, the 2011 National Indian Education Study 
found that Native students continue to score significantly lower than 
their peers in reading and math in grades four and eight. The severity 
of the current state of Indian education is perhaps most apparent in 
the Native high school dropout rate. The graduation rate for American 
Indian and Alaska Native high school students is 67 percent--the lowest 
of any racial/ethnic demographic group across all schools. \1\ Even 
worse, the graduation rate for Native students in the Bureau of Indian 
Education (BIE) school system is a staggering 53 percent compared to 
the national average of 80 percent. \2\ In fact, recent data finds that 
while the graduation rates continue to rise nationally, with strong 
gains by the Latino and African American communities, Native American 
students have experienced only modest improvements since 2000 and have 
seen their graduation rates actually decline since 2008.
---------------------------------------------------------------------------
    \1\ Indian Students in Public Schools--Cultivating the Next 
Generation: Hearing on Indian Education Before the S. Comm. On Indian 
Affairs, 113th cong. (2014) (testimony of William Mendoza, Exec. Dir., 
White House Initiative on Am. Indian and Alaska Native Educ.).
    \2\ See Marie C. Stester & Robert Stillwell, U.S. DEP'T OF EDUC., 
NAT'L CTR. FOR EDUC. STAT., PUBLIC HIGH SCHOOL FOUR-YEAR ON-TIME 
GRADUATION RATES AND EVENT DROPOUT RATES: SCHOOL YEARS 2010-11 AND 
2011-12 (10) 2014), available at http://nces.ed.gov/pubs2014/
2014391.pdf.
---------------------------------------------------------------------------
    NCAI applauds the work of this Committee in the last session of 
Congress in renewing focus on Indian education and holding five 
separate hearing on issues impacting Native students from pre-k to 
college. We request that the Committee continue this work and introduce 
tribal-specific legislation to improve Indian education while working 
with the Health, Education, Labor and Pension Committee as it proposes 
changes to the Elementary and Secondary Education Act.
    As reauthorization of the No Child Left Behind Act begins this year 
it is vitally important that tribal leaders and educators are included 
at the forefront to ensure greater tribal participation in the 
educating of their children, to expand the investment in culture and 
language revitalization, to provide greater support for Native 
teachers, administrators, and leaders, and to promote greater 
interagency coordination for a truly holistic approach to the 
educational experience of all students. Specific recommendations 
include:
    Reauthorization of ESEA (No Child Left Behind Act). Support a 
reauthorization of the Elementary and Secondary Education Act (ESEA) 
that improves education opportunities for Native students. Indian 
Country needs strong, concerted, and sustained support to include key 
Native education priorities that will allow tribes to take greater 
control over the education of their citizens and help Native students 
succeed in the classroom and beyond:

  <bullet> Strengthen tribal control of education: Tribes should be 
        granted the authority and funds to build capacity for their 
        education departments in the same ways that are provided to 
        states and districts. The ESEA reauthorization should authorize 
        tribes to operate ESEA title programs in public schools that 
        are located on Indian lands and serve Native students. The 
        Department of Education would work with tribes to identify 
        appropriate title programs for tribal administration, and 
        tribes would work with the local educational agency on their 
        respective reservations to implement the title program(s) in 
        qualifying schools.

  <bullet> Preserve and revitalize Native languages: The survival of 
        Native languages and cultures is essential to the success of 
        our communities and ways of life. Because immersion is largely 
        recognized as the best way to learn a language, the 
        reauthorization of the ESEA should authorize a grant program to 
        develop and maintain Native language immersion programs.

  <bullet> Provide tribes with access to tribal member student records: 
        The ESEA reauthorization needs to expressly grant tribes and 
        tribal education agencies (TEAs) access to tribal student 
        academic records in the same way that local educational 
        agencies have access. Tribes and their education agencies are 
        in the best position to track and coordinate Native student 
        data.

  <bullet> Encourage tribal/state partnership: States that have Indian 
        lands within their geographic boundaries have not been 
        required--or even encouraged--to collaborate with tribes to 
        meet the educational needs of Native children. The ESEA 
        reauthorization must require states and local educational 
        agencies to consult with tribes when developing applications 
        for various ESEA title programs.

  <bullet> Equitably Fund the Bureau of Indian Education: The Bureau of 
        Indian Education (BIE) is currently ineligible for many of the 
        Department of Education's flagship programs, such as Race to 
        the Top, because the ESEA does not include language expressly 
        making them eligible. The ESEA reauthorization should include 
        express statutory language making all funding stream available 
        to BIE schools, either through an overarching provision or 
        within each ESEA program.

    NCAI also requests that the Committee works with the Administration 
on several key recommendations that could enhance educational 
opportunities for Native students.
    Blueprint for Reform. Last year, Secretary of the Interior Sally 
Jewell and the Secretary of Education Arne Duncan convened the American 
Indian Education Study Group (Study Group) to address the systemic 
challenges facing the Bureau of Indian Education (BIE) and to propose a 
comprehensive plan to reform the system. The Study Group held listening 
sessions in tribal communities and drafted a framework on proposed 
reforms following the listening sessions. After publication of the 
draft framework for reform the Study Group conducted four tribal 
consultations in April and May of this year and received public comment 
through June. NCAI and the National Indian Education Association (NIEA) 
submitted joint comments on the proposed framework advocating for 
reforms that address the needs of tribal communities and their BIE 
schools expressed by our membership.
    Following the input from tribal leaders, Native educators, 
organizations, and other stakeholders, the Study Group released a 
``Blueprint for Reform'' during President Obama's trip to Indian 
Country in June of this year aimed at transforming the BIE system from 
a director provider of education into a capacity-builder and service-
provider to tribes with BIE-funded schools. The aim of the current 
reforms is to empower tribes to have greater control in the education 
of their children who are currently attending BIE schools.
    Resulting from the recommendations in the ``Blueprint for Reform,'' 
Secretary of the Interior Sally Jewell issued a Secretarial Order that 
will implement the recommendations. The implementation is currently 
underway in a two-phase process: the first over the course of the 2014-
2015 academic year and the second over the course of the 2015-2016 
academic year.
    NCAI has committed to engaging tribal leaders in ensuring tribal 
engagement with this effort at reform of the BIE school system, but 
also requests that the Committee conduct oversight of this reform to 
ensure that it is conducted in a manner that will achieve the goals of 
tribal control over BIE schools.
    Elevate Key Positions at the Department of the Interior and the 
Department of Education. Too often, Indian education is second-tier to 
many other important priorities facing administration officials making 
policy for tribal communities. The Administration must establish key 
positions in both federal departments that oversee the education of 
Indian Country's most precious resource--their children. The Bureau of 
Indian Education (BIE) Director is often mired in a heavilybureaucratic 
structure within the Bureau of Indian Affairs (BIA) that creates 
barriers to effectively advance policy change. In addition, the Office 
of Indian Education at the Department of Education (ED) primarily 
serves as an administrator of Title VII--the Indian Education Title--
within the broader ESEA. Taken together, the issues and concerns facing 
Indian education are often unable to reach the Secretarial level where 
effective change can truly occur. Having senior positions in both 
Departments will ensure greater active participation in the formation 
of Indian education policy in both the BIE and the public education 
system.
    Reissue the Executive Order on Tribal Colleges and Universities. 
Executive Order 13592, which established the White House Initiative on 
American Indian and Alaska Native Education, was a step in the right 
direction for Native education. However, tribal colleges and 
universities (TCUs) previously had a stand-alone Executive Order and 
their own initiative, which Executive Order 13592 rescinded and folded 
into a single Executive Order on Native education. Tribal leaders and 
Native educators did not request this change, and the net result has 
been less effort focused on strengthening TCUs. We urge this Committee 
to request that the Administration reissue the separate Executive Order 
and Initiative on TCUs, sufficiently fund both programs so they may 
meet their mandates, and direct that the two Initiatives work together. 
Current Executive Orders on African American education and historically 
black colleges and universities already do this for other students. 
American Indian and Alaska Native students deserve no less.
Natural Resources
    American Indian and Alaska Natives have nurtured, lived, and 
thrived off this land as first stewards since time immemorial. Tribes' 
cultures, traditions, lifestyles, communities, foods, and economies all 
depend upon many natural resources, and yet so many critical natural 
resources and disappearing faster than we can restore them. However, 
the ecological practices tribal peoples have cultivated for millennia 
are inherently sustainable and practical; they are time tested methods 
for resource and, correspondingly cultural survival.
    Today, tribes are using their unique knowledge and skills in 
concert with modern management practices, often collectively with 
community and non-tribal organizations, to produce real accomplishments 
and model programs of excellence. Tribes and their communities can cite 
many examples where they have shaped the successful restoration and 
sustainable management of fragile natural resources through a 
commitment to stewardship that often requires arduous, through 
rewarding, collaboration with states, regional organizations, local 
governments and other stakeholders in larger ecosystem management 
efforts.
    Tribes, as proven effective managers of their own resources, must 
be provided with the necessary tools and support as require by the 
treaty and trust responsibilities of the Federal Government. 
Congressional investment in tribal natural resources management helps 
to sustain tribal land and people and grow economies by fostering 
tribal economic self-sufficiency, cultural revitalization, and 
collaborative working relationships across jurisdictions, supporting 
communities and economies throughout the United States.
    NCAI has the following recommendations on legislation that will be 
considered by Congress this session:
    Wildfire Disaster Funding Act. The management of the forests, 
grasslands, and rangelands to restore them to resilient ecosystems and 
a sustainable environment furthers the protection of our territories, 
reservations, treaty and trust resources, and sacred and religious 
sites. As wildfires are increasing in frequency and intensity, the 
current practice of funding wildfire fighting, transferring funds from 
non-fire programs to cover the cost of essential fire suppression, has 
undermined the U.S. Department of Agriculture's (USDA) and Department 
of the Interior's (DOI) ability to sustainably manage the forests, 
grasslands, and rangelands that are critical to tribal culture, 
religion, treaty rights, and trust resources.
    Legislation introduced in the 113th Congress would treat the budget 
for responsible fire suppression in a similar manner to other 
emergencies such as floods and hurricanes, while ensuring funding for 
general land management and restoration actions that can reduce the 
need for wildfire suppression in the future. Identical legislation has 
been introduced in the House in the 114th Congress and NCAI urges this 
Committee to continue the work of the bipartisan group of Senators and 
Congressmen who introduced this legislation in Congress to ensure that 
essential forestry funding goes to the necessary programs and that the 
critical wildfire disaster funded just like other natural disaster 
emergencies.
    Magnuson-Stevens Reauthorization. The Magnuson-Stevens Fisheries 
Conservation Act (MSFCA) is due to be reauthorized and it is time for 
some much needed changes and amendments to incorporate American Indian 
and Alaska Native in the decisionmaking processes as well as a need for 
improved practices to protect the health of our fish resources.
    Despite being charged with the upholding fishing treat rights of 
Northwest tribes and the right to fish of Alaska tribes, the management 
of the North Pacific Fishery Management Council fails to consider the 
needs of American Indian and Alaska Native people and the structure of 
the council prevents tribes from participating as part of the 
decisionmaking process and engages in a flawed single-species based 
management system which does not consider the food web dynamics, 
fishing gear impacts, and non-target species taken as bycatch has 
resulted in the overfishing of a third of the nation's fish stocks. 
Without appropriate reform of the MSFCA, natural fish populations and 
the Alaska Native inhabitants' well-being along with the treaty-
protected rights of Pacific Northwest Indian nations and tribes will 
continue to be at risk.
    NCAI requests that the purpose of the MSFCA be amended to include 
promotion of Alaska Native subsistence rights and tribal fisheries 
based on treaty rights, including a mandate to be responsive to the 
needs of federally recognized tribes, and require that tribes and 
Native subsistence users be represented on the North Pacific Fishery 
Management Council. Further, it must utilize ecosystembased management 
rather than species specific management and additional methods to 
better protect fish stocks and health. The management councils as well 
as all fishery plans must not only include input from tribes, but must 
also reflect treaty rights and subsistence rights American Indians and 
Alaska Natives while limiting states' ability to interfere with treaty 
and subsistence rights. Finally, the MSFCA must provide resources for 
mitigation efforts when needed to protect tribal treaty rights 
including: increased hatchery production, habitat protection and 
restoration, development of alternative fisheries when primary 
fisheries have been reduced, and the development of value added 
programs to increase the value of treaty fisheries.
    Protection and Health of Tribal Forests. The 2013 Indian Forest 
Management Assessment Team (IFMAT) III Report identifies not only the 
success of innovative tribal forestry management practices despite 
extremely limited federal funding and support, but the possibilities of 
continued improvements with some key legislative and administration 
policy and funding changes. The Report found that, on a per acre basis, 
tribes receive only one-third the funding for forestry and wildfire 
management as the U.S. Forest Service, but are to stretch those funds 
using holistic approves and traditional ecological practices to 
maintain some of the healthiest forests in the country. While this is a 
success is a testament to tribal innovation, the funding and staffing 
levels continue to dwindle down to amounts well below the levels 
necessary to fulfill the fiduciary trust obligations leaving the 
ability to do so in the future very much in doubt.
    There are several items this Committee and the 114th Congress can 
do to help support tribal forestry management while upholding the 
federal trust responsibility and promoting tribal self-determination. 
First, the Anchor Forests concept needs to be supported by legislation. 
Anchor Forests, ``a relatively large multi-ownership area that will 
support sustainable long-term wood and biomass production levels backed 
by local infrastructure and technical expertise, and endorsed 
politically and publicly to achieve the desired land management 
objectives,'' are key to forest health and sustainability. Next, while 
the Tribal Forestry Protection Act of 2004 (TFPA) was passed to allow 
tribes the ability to propose projects on adjacent federal lands to 
protect tribal rights, lands, and resources by reducing threats from 
wildfire, insects, and disease, the Act has not met these important 
expectations. TFPA needs to be amended to expedite consideration, 
approval, and implementation of TFPA projects.
    In addition to these legislative proposals, NCAI requests that the 
Committee should work with the Administration to ensure that tribes can 
achieve parity with other governments in the management of their 
natural resources and to ensure that adequate consultation is conducted 
on matters that impact tribal management of natural resources.
    Parity for tribal governments in Natural Resource programs. In 
order for tribes to adequately care for and fully utilize their natural 
resources and maintain natural resource management programs, funding 
for Bureau of Indian Affairs natural resource programs must increase. 
Tribal funding has declined incrementally over decades, more 
precipitously than other Department of the Interior natural resource 
programs, while tribes continue to be excluded from eligibility for 
billions of dollars from dozens of natural resource programs across the 
federal agencies that are otherwise available to states, local 
governments, and other entities.
    Consultation. We request the Committee work with the Administration 
to ensure tribal inclusion and consultation in the development and 
implementation of laws, programs, and policies that affect tribal 
interests in natural resources and include tribes as eligible entities 
for all conservation programs and measures.
Healthcare
    The health and wellness of tribal communities depends on a network 
of health, education, and wellness service providers, prevention 
coordination, and tribally-driven initiatives. Despite the Federal 
Government's trust responsibility to provide health care to our people, 
American Indians and Alaska Natives continue to experience the greatest 
health disparities in the United States when compared other Americans. 
Shorter life expectancy and the disease burdens carried by American 
Indians and Alaska Natives exist because of inadequate education, 
disproportionate poverty, discrimination in the delivery of health 
services, and cultural differences. These are broad quality of life 
issues rooted in economic adversity, poor social conditions, and 
decades of historical trauma.
    Tribal leaders recognize that the responsibility for wellness of 
their community lies with the tribal government working in concert with 
their citizens and with agencies across the Federal Government. The 
Indian Health Service has been and continues to be a critical 
institution in securing the health and wellness of tribal communities, 
and advance appropriations are necessary for IHS. New health care 
insurance opportunities under the Affordable Care Act beginning in 2014 
and expanded Medicaid in some states have expanded health care 
resources available to many American Indians and Alaska Natives. A fix 
to the definition is required to ensure that all American Indians and 
Alaska Natives are receiving the special benefits and protections for 
American Indians and Alaska Natives. However, these new opportunities 
are still no substitute for the fulfillment of the federal trust 
responsibility.
    Advance Appropriations for the Indian Health Service. NCAI along 
with many national and local health boards are on record supporting the 
need for legislation to authorize advance appropriations for the Indian 
Health Service. Since 1998, appropriated funds for medical services and 
facilities through IHS have only been provided before the commencement 
of the new fiscal year one time. Late funding has resulted in 
significant challenges to tribal and IHS programs as to budgeting, 
recruitment and retention, provision of services, and facility 
maintenance and construction efforts, as well as other areas.
    The goal of advance appropriations is for the Indian Health Service 
and tribal health care providers to have adequate advance notice of the 
amount of federal appropriations to expect to administer health 
programs and services to American Indian and Alaska Native people and 
thus not be subjected to the uncertainties of late funding and short-
term continuing resolutions. Congress provides advance appropriations 
for the Veterans Administration medical accounts, and the request is 
for parity in the appropriations schedule for the IHS.
    Definition of Indian in the ACA. The Affordable Care Act provided 
for permanent reauthorization of the Indian Health Care Improvement 
Act, ending a 17 year effort for reauthorization. Tribes are adamantly 
opposed to repeal of the ACA, however, if this Congress takes up 
specific provisions of the bill, tribal leaders seek a fix to the 
definition of Indian within the ACA. There are three separate 
definitions of Indian throughout the ACA which creates confusion in 
eligibility for certain benefits. Tribes seek consistency in the 
definitions to ensure that all those currently eligible for benefits 
continue with those benefits.
    Permanent Reauthorization of the Special Diabetes Programs for 
Indians. At nearly 16.1 percent, the American Indian and Alaska Native 
population has the highest of diabetes among all U.S. racial and ethnic 
groups, and an estimated 30 percent percent of American Indians and 
Alaska Natives are pre-diabetic. In 1997, Congress addressed the 
growing epidemic of diabetes in American Indian and Alaska Native 
communities by passing the Balanced Budget Act which established the 
Special Diabetes Programs for Indians. The Special Diabetes Programs 
for Indians provides assistance for developing local initiatives to 
treat and prevent the disease and has served as a comprehensive source 
of funding to address diabetes issues in tribal communities by 
providing grants for diabetes prevention and treatment services to more 
than 400 Indian Health Service, tribal, and urban Indian health 
programs in 35 states. These grants are critical to improving the 
overall health of American Indian and Alaska Native people because they 
greatly enhance the effectiveness of preventative health programs and 
allow programs aimed at stopping the spread of diabetes to children and 
young adults to be established.
    The Special Diabetes Program for Indians was last reauthorized in 
2014 for a period of one year, and its current authorization expires on 
September 30, 2015. NCAI requests that legislation permanently 
reauthorized and that full funding be provided for the permanent 
continuation of this program.
    Exempt Tribal Employers from the ACA Employer Shared Responsibility 
Mandate. The Employer Shared mandate violates the federal trust 
responsibility because it requires AI/ANs to pay for the cost of their 
own health insurance and also requires tribes to subsidize IHS 
services. AI/AN are exempt from the individual mandate and AI/AN should 
not be required either directly or indirectly to pay for private 
insurance offered by their employer. Most importantly, the mandate will 
be unaffordable for many tribal employers and require them to use 
limited resources towards either insurance premiums or shared 
responsibility payments which could be used for other services and 
programs.
Native Veterans
    American Indians and Alaska Natives have proudly served in the 
United States military since the Revolutionary War. From earlier 
struggles such as the Spanish-American War to the present-day conflicts 
in Iraq and Afghanistan, Native people continue to serve at higher 
percentages than any other ethnic group. It is estimated that over 
150,000 veterans identify as American Indian and Alaska Native, with 
over 24,000 active duty Native service members currently serving in the 
Armed Forces. With their warrior tradition and the sacrifices that have 
been made, it is vital to create sound policies and programs to promote 
the overall wellbeing of our Native veterans. NCAI seeks fair and 
dignified treatment of all veterans while advocating for federal 
support and funding for Native veteran programs and services that are 
greatly needed and deserved.
    Native veteran issues are similar to non-veteran tribal community 
members, adequate health care to address increases in the incidence of 
diabetes, various types of cancer, neurological and autoimmune 
disorders; unemployment; domestic violence; substance abuse; criminal 
activity; and suicide. Native veterans are the single most underserved 
group of veterans of the American Armed Forces. Geographical distances 
present challenges for many veterans to access resources and programs 
not only for compensation and pensions, but for economic and 
educational benefits through the Department of Veterans Affairs (VA), 
the Department of Labor, the Small Business Administration, and other 
federal agencies and entities. This is particularly true of those who 
live on reservations and in tribal communities where there are 
considerable distances between clinics and medical centers operated by 
the Department of Veterans Affairs Health Administration.
    Tribal Veterans Service Officers in Indian Country--Parity with 
State and County Veterans Service Officers. Tribal veterans should have 
equal access to representation and the benefit of services from the 
Department of Veterans Affairs (VA). One great first step to better 
ensuring this happens for our veterans is to provide the establishment 
of Tribal Veteran Service Officers (TSVOs) who are designated by local 
tribal leadership. These officers would function on the same basis as 
state and country veterans service officers pursuant to 38 C.F. R. 
Sect. 14.628. The current use of Tribal Veterans Representatives (TVRs) 
is insufficient as their purpose is to purely disseminate information 
to veterans, not to be their advocates. TVRs are trained by VA 
personnel often with no knowledge or awareness of the local Native 
culture and needs. TVSOs makes sense both as a matter of tribal 
sovereignty of providing their own representation and advocacy on 
behalf of tribal governments' veterans before the VA. Further, TVSOs 
will ensure greater cultural competency in the pursuit of claims 
arising from psychic trauma and other mental/behavioral issues 
affecting veterans--they will provide for cultural competent mental 
health evaluations and facilitate the use of traditional healing 
practices in that process. TVSOs would meet the same employment/
appointment, training, and certification standards that apply to State 
and County Veterans Service Officers.
    Indian Health Service/Veterans Administration--Memorandum of 
Understanding. It is appalling that Native veterans have become victims 
of bureaucratic technicalities in the health care delivery system. In 
2010 the Indian Healthcare Improvement Act was permanently reauthorized 
as Title X under the Patient Protection and Affordable Care Act. 
Included in Title X was a provision mandating the Department of 
Veterans Affairs (VA) to reimburse tribes, the IHS, and tribal 
organizations for services provided to veterans. A memorandum of 
understanding has since been established between the VA and the Indian 
Health Services to aid this provision. However, the Veterans 
Administration is only reimbursing tribes that (1) agree to enter into 
a model agreement the VA has developed, and (2) the VA does not allow 
for reimbursement of purchased/referred care provide through tribal 
health programs to veterans, limiting reimbursement to only direct 
service care. The Veterans Administration's implementation of this 
provision of Title X must be done in a manner that is streamlined and 
focuses on providing timely and quality health care. We are asking 
Congress to conduct oversight hearings on this matter to ensure the 
most effective delivery of health services to which Native veterans are 
entitled.
    Improper State Taxation of Reservation-Domiciled Service Members. 
Federal law prohibits states from taxing the pay of military service 
members who are not a domiciliary of that state. However, for years now 
the U.S. Department of Treasury has improperly withheld military pay 
for states from American Indian service members domiciled on 
reservations. The enlistment process must be changed with notification 
given to Native veterans who are residing in Indian Country in order to 
prevent this wrongful taxation. We call upon Congress to address this 
matter by providing Congressional oversight and ask the Chairman to 
address this matter and contact officials from all relevant departments 
and agencies including but not limited to: the Department of Defense, 
the Department of Veterans Affairs, the Department of Treasury, and the 
Department of Justice. We must make sure that our service members are 
receiving their full compensation for their honorable service to our 
nation.
Conclusion
    NCAI appreciates the opportunity to present Indian Country's 
priorities for the 114th Congress to the Committee. We look forward to 
working with the Indian Affairs Committee and its members during this 
Congress to advance the interests of tribal governments in accordance 
with the federal trust responsibility.
    The trust relationship in the 21st Century must maintain the 
nation-to-nation treaty obligations, such as the provision of 
education, public safety, health care and more, while promoting tribal 
capacity and governance. That relationship has evolved over time to 
recognize the self-governance potential of Native peoples and 
governments, but also needs to be modernized to reflect the needs of 
Native people today. The Congress, and this Committee, in meeting its 
treaty and trust obligations, plays a key role in Indian country. If 
Congress shrinks away from its commitments it leads to grave impacts to 
the harmony of tribal communities. But when, this Committee, and the 
Congress as a whole honors its commitments based in the trust 
responsibility while promoting tribal self-determination, Native people 
and leaders can solve long-standing social and economic dilemmas.

    The Chairman. Thank you so much for your testimony.
    Melvin Monette, who is the President of the National Indian 
Education Association. Welcome.

    STATEMENT OF MELVIN MONETTE, PRESIDENT, NATIONAL INDIAN 
                     EDUCATION ASSOCIATION

    Mr. Monette. Thank you, Chairman Barrasso, Vice Chairman 
Tester and members of the Committee. Thank you for inviting the 
National Indian Education Association here today to provide 
testimony on Indian Country priorities for the 114th Congress. 
I am Melvin Monette, President of the National Indian Education 
Association and a citizen of the Turtle Mountain Band of 
Chippewa Indians.
    Before I begin, I want to add that NIEA supports the 
requests of our partner organizations here today and requests 
that the chairman submit our written testimony and supplemental 
documents into the record.
    During the State of the Union address, the President 
rightfully celebrated the Nation's all-time high graduation 
rates among high school students. Unfortunately, the stressed 
graduation rates and academic successes are not representative 
of many communities. Native students continue to trail their 
peers in reading and mathematics. Our students face some of the 
lowest high school graduation rates in the Country. Among many 
causes, these trends can be traced to disproportionately high 
incarceration and criminal recidivism in Native communities.
    Native education is one of the most effective and efficient 
investments the Federal Government can make. Data illustrates 
an initial investment in education creates future successes, 
which decreases incarcerations, instances of traumatic violence 
and repeat criminal offenses later in life. To provide the 
needed investments, NIEA provides the following 
recommendations.
    Congress should work with tribes to increase self-
determination within the Elementary and Secondary Education 
Act, or ESEA. Provide critical Bureau of Indian Education 
reform oversights, and support holistic Native youth programs 
such as juvenile justice resources.
    I will briefly discuss each, beginning with the ESEA 
authorization. Tribes and Native communities have long awaited 
the opportunity to partner with Congress to take bold actions 
on improving education systems serving Native communities. As 
the ESEA reauthorization gains momentum, we look forward to 
working with this body and others to ensure any ESEA 
reauthorization language specifically gives tribes eligibility 
to directly administer educational resources. Tribes have shown 
great success in delivering health care and other local 
services but now is the time to allow tribes the ability to 
provide similar solutions to the education dilemma in our 
communities.
    The Federal Government should work directly with tribes to 
develop their capacity to administer ESEA title programs, 
including critical language immersion and culture courses, in 
schools that are serving Native students and are located on 
tribal lands. Tribes understand their children best and can 
more efficiently and effectively address their students' unique 
cultural and educational needs.
    Regarding BIE reform, NIEA was optimistic when we learned 
of the renewed effort to reform the BIE school system. We 
appreciate the continued outreach BIE has provided in 
coordination with NIEA, but we respectfully agree with tribes 
who continue to request detailed written information on what 
reform means for our local communities.
    The current plan for BIE reform, while well-intentioned, 
was not a direct result of extensive tribal consultation. So, 
after a year of implementation, we must ensure proper 
oversights and accountability measures are in place to monitor 
the Bureau's reorganization.
    We request that this Committee form a Congressional 
investigation into the BIE restructuring to ascertain if the 
secretarial order creates any statutory conflict as well as 
document DOI proposed offsets intended to pay for the 
restructuring. We also request an immediate convening of a 
tribal leaders oversight committee, which would report to 
Congress on the current status of the reform and guarantee 
tribal concerns are heard and addressed.
    Regarding juvenile delinquency in Native communities, 
Native youth comprise only 1 percent of the Nation's youth. Yet 
they account for 3 percent of offenders. For some offenses, 
Native youth are arrested twice and three times as often. That 
is why it is critical that the Federal Government work with 
tribes to decrease the rates of violence and juvenile 
delinquency and address continued instances of recidivism.
    Our populations are among America's most vulnerable, yet 
our programs are often hit hardest during Federal funding 
negotiations. We hope to work with you to reinstate $620,000 
for juvenile detention education and BIA funding at facilities, 
as well as provide critical educational services to detained 
and incarcerated youth. We then need you to work with local 
partners and tribes across the Country to develop sound plans 
for addressing local concerns.
    As tribes increase their governance and education, they 
need support to assist in accelerating local relationship 
building and holistic juvenile services throughout their school 
systems. By strengthening tribal sovereignty and education, we 
will make the tribe the central nexus for connecting parents 
and families to critical programmatic supports, while also 
ensuring the use of a culturally responsive methodology.
    The opportunity for educators, families and tribal leaders 
to change a child's life is extensive. But their combined work 
must be supported here in Washington and grounded in tribal 
self-determination and the preservation of the Federal trust 
responsibility. NIEA appreciates your continued support to do 
just that, and I look forward to answering any questions you 
may have. Thank you.
    [The prepared statement of Mr. Monette follows:]

   Prepared Statement of Melvin Monette, President, National Indian 
                         Education Association
    Chairman Barrasso, Vice Chairman Tester, and members of the 
Committee, thank you for inviting the National Indian Education 
Association (NIEA) to testify today. I am Melvin Monette, President of 
NIEA and a citizen of the Turtle Mountain Band of Chippewa Indians. On 
behalf of NIEA, I am grateful for this opportunity to provide testimony 
for the record on ``Indian Country Priorities for the 114th Congress.'' 
I would also like to thank the Committee for hearing the collective 
call of tribes and Native communities regarding the need to highlight 
the priorities and needs of our communities. The commitment of this 
Committee is critical as we work together to ensure equitable 
educational opportunities are provided to Native students.
    NIEA, founded in 1969, is the most inclusive Native organization in 
the country-representing Native students, educators, families, 
communities, and tribes. NIEA's mission is to advance comprehensive 
educational opportunities for all American Indians, Alaska Natives, and 
Native Hawaiians throughout the United States. From communities in 
Hawaii, to tribal reservations across the continental U.S., to villages 
in Alaska and urban communities in major cities, NIEA has the most 
reach of any Native education organization in the country.
The State of Native Education
    Put simply, Native students are leaving high school unprepared for 
college and careers. Among numerous issues, these trends are often due 
to disproportionately high incarceration and criminal recidivism rates. 
In 2011, greater percentages of Native students and youth--nearly three 
to one--were incarcerated when compared to their non-Native peers. 
Consequently, in the last decade only 52 percent of Native students 
enrolled in higher education programs immediately after high school 
graduation with fewer than 40 percent of those students graduating with 
a bachelor's degree in six years. \1\ In contrast, nearly 62 percent of 
White students graduated within six years.
---------------------------------------------------------------------------
    \1\ U.S. Department of Education, Institute of Education Sciences, 
National Center for Education Statistics, National Assessment of 
Educational Progress (NAEP), 2005, 2007, and 2009 National Indian 
Education Studies.
---------------------------------------------------------------------------
    For Native students to succeed in school and become our next 
generation of leaders, Native communities need the Federal Government 
to provide resources and support systems to guarantee tribally-led 
initiatives create safe environments and opportunities that decrease 
juvenile delinquency among Native youth. \2\ Education is critical to 
breaking the cycle of violence and criminal activity many Native 
students currently face. Unfortunately, historical funding trends 
illustrate that the Federal Government is abandoning its' trust 
responsibility by decreasing federal funds to Native-serving programs 
by more than half in the last 30 years. Although tribes work to divert 
precious funds to cover shortfalls, there are simply insufficient 
resources for decreasing crime and increasing student achievement. 
Until reinvestment takes place, reoccurrences of crime, violence, and 
low student achievement will remain commonplace.
---------------------------------------------------------------------------
    \2\ U.S. Census Bureau, American Community Survey 2005-2009 
estimates.
---------------------------------------------------------------------------
The Federal Trust Responsibility
    Since its inception, NIEA's work has centered on reversing the 
negative statistics characterizing Native students. Established through 
treaties, federal law, and U.S. Supreme Court decisions, the federal-
tribal trust relationship includes a fiduciary obligation to provide 
parity in access and equal resources to all American Indian and Alaska 
Native students, regardless of where they attend school. Under the 
Federal Government's trust corpus in the field of Native education, it 
is important to state that the obligation is a shared trust among the 
Administration and Congress for federally-recognized tribes.
    Native education is one of the most effective and efficient 
investments the Federal Government can make because data suggests that 
initial investments in education create future success, which results 
in fewer incarcerations, instances of traumatic violence, and repeat 
criminal offenses later in life. Likewise, reinvesting in the services 
and programs tribes and Native communities utilize to combat juvenile 
delinquency and criminal recidivism will support the education systems 
necessary for creating student preparation for college and careers.
    As such, NIEA applauds this Committee's commitment toward upholding 
the trust relationship and our communities and tribes. NIEA priorities 
for the Committee broadly fall under three categories: Elementary and 
Secondary Education Act (ESEA), Bureau of Indian Education (BIE) reform 
oversight, increasing holistic Native youth support systems such as 
juvenile justice resources, as well as general priority provisions. 
Implementing the following recommendations would ensure the Federal 
Government upholds this trust relationship by reinvesting critical 
resources that decrease violence and improve the education systems 
serving Native students.
I. ESEA Reauthorization Recommendations
    The ESEA reauthorization is a key opportunity for the Federal 
Government to uphold its' trust responsibility and fairly provide 
Native students education services based on principles of 
accountability, equity, and excellence. The ESEA is in pressing need of 
updating and we request that the United States honor its' commitment to 
tribes and Native education by strengthening tribal self-determination 
and fairly providing Native students comprehensive educational 
opportunities by incorporating NIEA's ESEA priorities within any 
reauthorization.
    During the State of the Union Address, President Obama rightfully 
celebrated the nation's all-time high graduation rates among high 
school students. Unfortunately, the stressed graduation rates and 
academic successes are not representative of many Native communities. 
NCLB has done little to address the longstanding challenges affecting 
Native students. Over the past decade, Native students continue to 
trail their peers in reading and mathematics (grades four and eight). 
Nationwide, our students face some of the lowest high school graduation 
rates with even fewer students graduating from college. Native 
education is in a state of emergency and tribes have long awaited the 
opportunity to partner with Congress to take bold action that will 
significantly improve the education systems serving Native communities.
    Tribes and Native communities have an enormous stake in their 
children's education. While the ESEA reauthorization must provide 
effective accountability to protect the civil rights of all Americans, 
the ESEA reauthorization must also be a commitment to the sovereignty 
of this country's First Americans. As such, the ESEA draft should be 
revised to support tribal nations as they develop their ability to 
deliver education services as well as coordinate with local and state 
educational agencies. Only by including the following priorities will 
an ESEA reauthorization ensure effective and efficient use of funds and 
delivery of resources to Native communities as well as increase Native 
student achievement.
Priorities Implementation
  <bullet> Strengthen Native Participation in Education: Tribes should 
        have the authority to build their capacity to administer 
        education title programs. Native leaders understand their 
        children best and can better address their students' unique 
        cultural and academic needs.

  <bullet> Encourage Tribal/State Partnerships: While the Federal 
        Government has a trust responsibility to work with tribes, 
        tribal concerns are often excluded at the state and local 
        level. The ESEA reauthorization should require local and state 
        educational agencies to closely work and meaningfully consult 
        with tribes when developing applications and plans for ESEA 
        title programs.

  <bullet> Preserve and Revitalize Native Languages: The continued 
        existence of Native languages is crucial to protecting and 
        strengthening Native culture and tribal communities as well as 
        increasing the academic achievement of Native students. Any 
        ESEA reauthorization should provide resources for eligible 
        schools to participate in a program to develop and maintain 
        Native language immersion education models.

  <bullet> Increase Access to Native Student Records: Native students 
        often transfer between federal, state, and tribal school 
        districts, which creates information gaps as systems are not 
        required to track and coordinate student data. The ESEA 
        reauthorization should provide the ability for schools and 
        state and local educational agencies to share Native student 
        data with their local tribes. Providing such information will 
        create longitudinal student statistics that will help schools 
        and Native partners alleviate issues that decrease Native 
        student achievement.

II. BIE Reform: Oversight and Accountability to Strengthen Tribal Self-
        Determination
    While Native education stakeholders and tribes have numerous 
priorities geared toward improving their education systems, NIEA would 
be remiss if testimony excluded the important influence of BIE reform 
and its' reorganization. Since the late 20th Century, the Federal 
Government has worked to strengthen tribal capacity to directly serve 
their own citizens. In this spirit, Congress must ensure federal 
programs support local reforms necessary to increase self-
determination.
    Congress should work with the Administration to ensure proper 
oversights and accountability measures are in place for the BIE reform 
process. As the reorganization enters its second year, more information 
must be disseminated to tribes on the status of the reform. NIEA 
appreciates the BIE webinars and outreach held in coordination with our 
organization. However, tribes continue to request written information 
for what reform means for their local communities as well as guidance 
for the overall authority claimed by the BIE to make such reforms 
without congressional action.
    The current proposal for BIE reform, while well intentioned, was 
not a direct result of tribal consultation, so we must ensure proper 
oversights and accountability measures are in place to monitor the 
Bureau's reorganization and its' federal programs utilized by tribes. 
The Committee should form a congressional investigation into the BIE 
restructuring and Blueprint for Reform to ascertain if the Secretarial 
Order creates a statutory conflict and to document Department of the 
Interior proposed offsets to pay for the restructuring. To carry out 
such measures, the Committee should also convene oversight hearings 
with appropriate congressional committees to ensure oversights and 
accountability measures are in place for the reform process and that 
accurate information is provided to tribes and their education systems.
Priorities Implementation

  <bullet> Congress should ensure federal programs support local 
        reforms necessary to increase self-determination.

  <bullet> Congress should work with the Administration to ensure 
        proper oversights and accountability measures are in place for 
        the BIE reform process as well as call on the Secretary of the 
        Interior to disseminate detailed guidance to tribal communities 
        for the local reform implementation process and what BIE 
        reorganization means for local Native communities and Native 
        students, families, and educators.

  <bullet> The Committee should immediately call for and convene a 
        tribal leaders' oversight committee to report to Congress on 
        the current status of the reform in order to provide needed 
        oversight and accountability.

III. Decrease Juvenile Delinquency in Native Communities
    1.) Meaningful Cooperation: U.S. Department of Health and Human 
Services (HHS) statistics reveal that American Indian children face 
higher rates of child abuse and neglect, juvenile delinquency, suicide, 
substance abuse, and lower rates of academic achievement. \3\ For 
example, the Youth Risk Behavior Survey illustrates that 16 percent of 
students at BIE schools in 2001 reported having attempted suicide, 
which is the second largest cause of death among Native youth--twice as 
many as the national average. As Native children face higher rates of 
violence at home, such unsafe environments often translate into issues 
in the classroom resulting in lower achievement rates.
---------------------------------------------------------------------------
    \3\ Attorney General's Advisory Committee within the Department of 
Justice. 2014 Report on American Indian/Alaska Native Children Exposed 
to Violence. November 2014.
---------------------------------------------------------------------------
    NIEA was excited by the creation of the Attorney General's Advisory 
Committee within the Department of Justice (DOJ) as well as the work of 
the DOJ Task Force to hold open meetings and develop a 2014 Report on 
American Indian/Alaska Native Children Exposed to Violence. However, we 
were disappointed by the absence of classroom teachers and school 
administrators among Task Force experts, as they are on the front lines 
of school violence and understand Native students' needs. Educators are 
often the first to witness and handle occurrences of violence and this 
gap in expertise is discouraging. It is critical that the role of 
education is not underestimated in its ability to combat the many 
issues causing community violence and juvenile delinquency both in-
school and after school.
    Much work lies ahead. NIEA requests that Congress work with the 
Administration to take concrete steps to support the reforms required 
for increasing the capacity of tribes to govern education systems and 
address issues facing Native students. To achieve this, the federal 
agencies should help tribes increase their ability to administer 
education services in Native-serving schools and increase federal 
partnership opportunities with tribes and local leaders to support the 
tribal role to create community awareness that bolsters tribal 
collaboration and familial engagement that prevents violence and 
delinquency.
Priorities Implementation

  <bullet> Engage Native education stakeholders, tribes, and local 
        juvenile delinquency partners to create best practices and 
        locally-led support services geared toward providing Native 
        students' safe learning and after-school environments conducive 
        for student success.

    2.) Agency Cooperation: Because the BIE is located in many Native 
communities beset by violence and juvenile delinquency, cross-
departmental support is crucial as tribes increase their capacity to 
administer education, mental health, and violence prevention services 
that keep students in school, deter criminal activity, and decrease 
violence. Although the BIE only serves seven percent of Native 
students, the BIE is uniquely situated to become a fundamental 
component to fighting community violence. BIE schools are centrally 
located in many Native communities, which provide the BIE the 
opportunity to become a catalyst for working as a capacity builder and 
creating community awareness.
    DOJ should join the BIE and other agencies in providing resources 
to tribes for accelerating local reforms and aligning violence-
reduction services with tribal education priorities based on local 
needs. Federal agencies must work locally in order to catalyze reform 
efforts and create high-performing schools, federal agencies would also 
provide on-going technical assistance to help tribes become the 
education leaders in their communities. These efforts would include 
coordinating a local network of services--whether they are led by the 
Department of the Interior (DOI) or DOJ--to provide complimentary 
supports to increase academic achievement while also addressing issues, 
such as substance abuse or other violence or psychologically-related 
issues.
Priorities Implementation

  <bullet> Federal agencies, such as the Department of Justice, should 
        ensure local cross-departmental support assists tribes as they 
        increasingly administer education, mental health, and violence 
        prevention services that keep students in school, deter 
        criminal activity, and decrease violence.

  <bullet> Ensure the BIE becomes an entity that works directly and 
        meaningfully with tribes to provide Native-serving schools 
        culturally sensitive juvenile programs.

    3.) Decrease Recidivism Rates Among Native Children through Policy 
and Appropriations Reform: The Federal Government should work with 
tribes to decrease the rates of violence and juvenile delinquency among 
Native children as well as instances of recidivism. Native students and 
young adults should be eligible to receive critical funding for 
education programs, even if they have been incarcerated. These 
populations are among America's most vulnerable and should have the 
resources necessary to provide them opportunity to overcome past 
transgressions and achieve an education to become a strong citizen. 
Unfortunately, under the No Child Left Behind Act of 2001 (NCLB)--the 
current iteration of the ESEA--entities operating as detention 
facilities under Justice and Delinquency Prevention programs are 
ineligible for ESEA Title funds because such facilities are not 
interpreted as eligible local education agencies.
    ESEA statute prohibits such institutions from providing critical 
education resources to Native students. As such, NIEA recommends that 
Congress works to reform current law to provide all Native students 
education resources that set them on the path to success no matter 
where they are located. While Native youth comprise of only 1.1 percent 
of the national youth population, they account for 3 percent of 
offenders. \4\ For some offenses, Native youth are arrested twice or 
three times as often. Therefore, providing education resources makes 
sense as more federal resources are often expended on recidivism and 
repeat offenders than would be otherwise provided for initial 
educational resources and tools to those serving in detention 
facilities. Creating opportunities and a means for self-betterment 
makes more sense than supporting Native children repeatedly returning 
to a life of crime and violence.
---------------------------------------------------------------------------
    \4\ Justice Policy Institute, Calculating the Full Price Tag for 
Youth Incarceration. December 2014
---------------------------------------------------------------------------
Priorities Implementation
  <bullet> Reform the ESEA to ensure entities operating as detention 
        facilities under Justice and Delinquency Prevention programs 
        are eligible for ESEA Title funds as local education agencies.

  <bullet> Reinstate $620,000 for juvenile detention education in BIA-
        funded facilities and increase the funding line to provide 
        critical educational services to detained and incarcerated 
        youth at 24 BIA-funded juvenile detention facilities.

    4.) Disseminate Best Practices: While the ability to analyze and 
discuss issues facing Native youth in hearings, such as these is 
critical for developing plans to address violence and delinquency, 
action must be taken locally in our communities to gather input from 
and provide supports for those personally connecting with our children. 
Educators, tribal education and child welfare service directors, as 
well as parents and family members, must be engaged to increase 
collaboration, so they may detail local initiatives that meet their 
community's needs. Services from DOJ, such as technical assistance on 
juvenile delinquency and substance abuse, should be present to ensure 
complimentary support as tribes develop community-driven engagement 
models, such as town halls and professional development sessions, which 
create action in Native-serving schools for minimizing violence.
    As tribes increase their governance in education, they can assist 
by accelerating relationship building by making the school the central 
nexus for engaging parents in a culturally-responsive methodology that 
creates community buy-in. Tribes must be engaged with their local 
educators and schools in order for Native-serving institutions to 
understand how to work with parents and build community relationships. 
DOJ and the BIE can support these efforts by setting up models for 
tribal collaboration among the schools and justice programs. NIEA has 
created similar community pilot programs that increased the ability of 
tribes to engage local teachers in curriculum development.
    In the Jemez Pueblo located in New Mexico, tribal leaders hold 
monthly collaborative meetings with public, charter, and BIE school 
administrators and teachers in order to ensure they are meeting local 
needs by coordinating calendars, placing elders in the classroom to 
help with cultural learning, and implementing community-wide 
professional development training. Such trainings ensure the exchange 
of best practices as well as create support systems for addressing the 
needs of their Native children. This collaborative model can and should 
be used across a variety of Native communities in order to disseminate 
best practices among peers in battling crime and violence. Regardless 
of whether it is curriculum development or reducing violence in the 
community, local cooperation is critical for creating the family and 
tribal engagement needed to reduce local violence.
    The opportunity for educators, families, and tribal leaders to 
change a child's life is extensive, but their support must be 
continually present. By tribes developing their capacity to 
increasingly work with their schools and families in order to provide 
services and collaborative engagement, families will stay informed and 
feel appropriately comfortable participating in their child's life. 
When a parent understands and trusts the system teaching or helping 
their child with an issue, the parent will support those institutions. 
The Federal Government should not work in a vacuum but cooperate with 
local schools and tribes to develop the trust necessary to effectively 
combat community violence. It must be a coordinated effort centered on 
the tribe and its community ties.
Priorities Implementation

  <bullet> Support federal engagement of local educators, tribal 
        education and child welfare service directors, as well as 
        parents and family members to increase collaboration for 
        detailing local initiatives necessary for meeting community's 
        needs.

  <bullet> Reinforce successful tribal and state initiatives that are 
        driving innovation for tribal-state collaboration, such as 
        Jemez Pueblo collaborative meetings and New Mexico's tribal 
        notification law that ensures that when youth from Native 
        communities are arrested, the tribe is notified to ensure local 
        culturally-respectful treatment and supports are provided.

IV. General Priorities
    1.) Additional ESEA Recommendation: In addition to the priorities 
included above, NIEA also requests that the complete recommendations 
and draft language for reforming the Elementary and Secondary Education 
Act are included into the record.
    2.) Budget Recommendation: NIEA also requests that our annual 
budget document funding requests are also entered into the record. 
Funding for many Native-serving programs is consistently underfunded. 
Only by appropriating the requested levels would the Federal Government 
begin to address the years of underfunding and uphold the federal trust 
responsibility.
    3.) Carcieri Recommendation: It has now been six years since the 
devastating Supreme Court decision in Carcieri v. Salazar, which held 
that only tribes ``under federal jurisdiction'' in 1934 are eligible 
for the Indian Reorganization Act's land into trust provisions. This 
ruling jeopardizes the ability for all federally recognized tribes to 
rebuild their communities and provide critical programs, as tribal land 
bases are the very foundation of tribal sovereignty and economies. The 
legal ambiguities resulting from Carcieri have further delayed the 
already severely backlogged land-into-trust process, and have resulted 
in other harmful case law challenging and destabilizing land that has 
been held in trust for decades. As such, we continue to seek 
legislative relief that would return tribes to a status quo of 75 years 
of prior practice--restoring the Secretary of the Interior's authority 
to take land into trust and reaffirming existing trust lands. NIEA, in 
coordination with our tribal partners, urges this Committee to end the 
chaos that has resulted from this erroneous decision and pass a clean 
Carcieri fix.
Conclusion
    NIEA appreciates the continued support of this Committee and we 
look forward to working closely with its members. We share your 
commitment to Native education. Strengthening our partnership will 
ensure all Native-serving schools are as effective as possible and that 
tribes have more access to administer education services. We must make 
sure federal programs provide tribes and Native-serving schools the 
tools necessary to improve and assist Native communities in providing 
services to our citizens as well as decrease instances of juvenile 
delinquency and violence. This effort cannot be a top-down approach, 
but a measure created through grassroots support at the tribal level 
but supported through federal programs and funding.
    To achieve success, there must be collaboration among all entities 
that touch a Native child's life and at all levels--tribal, federal, 
state, and local. Only by working with all stakeholders in all 
education systems will we increase our students' preparedness for 
success and decrease the issues that lead to high dropout rates and 
increased juvenile delinquency in Native communities. Once again, thank 
you for this opportunity.
        Attachments to this prepared statement have been retained in 
        the Committee files see:
        http://origin.library.constantcontact.com/download/get/file/
        1103596296665-410/NIEA+Budget+Document.pdf
        http://files.ncai.org/broadcasts/2013/May/
        Summary%20of%20Native%20Education%20Recs,%20May%202013.pdf

    The Chairman. Thank you very much for your thoughtful 
testimony.
    Mr. Gary Davis is here as President and CEO of the National 
Center for American Indian Enterprise Development, in Mesa, 
Arizona. Thank you and we look forward to hearing from you.

 STATEMENT OF GARY DAVIS, PRESISDENT/CEO, NATIONAL CENTER FOR 
             AMERICAN INDIAN ENTERPRISE DEVELOPMENT

    Mr. Davis. Good afternoon, Chairman Barrasso, Ranking 
Member Tester and Members of the Committee. I am Gary Davis, a 
proud member of the Cherokee Nation of Oklahoma and President 
and CEO of the National Center for American Indian Enterprise 
Development. Thank you for inviting the National Center's views 
on Indian Country's priorities for this Congress, focusing on 
economic and business development, especially recommendations 
that this Committee can advance.
    The National Center, now in its fifth decade, is the 
Nation's leading and longest-serving national organization 
dedicated to developing American Indian self-sufficiency 
through business ownership. We have expanded our services to 
range from business and supply chain management to procurement 
and technical assistance for thousands of businesses nationwide 
that are owned by Indian tribes or American Indians, Alaska 
Natives or Native Hawaiians. We encourage investment in Indian 
Country by assisting and promoting these Native business 
interests in the commercial and government marketplaces, both 
domestic and international.
    We also produce national and regional reservation economic 
summits and trade shows, known as RES, that attract thousands 
of business and tribal leaders of indigenous groups in America, 
Canada and other countries and Native entrepreneurs. At our 
upcoming National RES, March 9 through 12, we will launch our 
new Native Edge Business Development and Training web portal, 
utilizing technology and the internet to provide tremendous 
opportunities, receive business assistance, conduct business 
and trade, advertise and find procurement offerings and job 
openings, improve job skills and advance education and 
business.
    We will provide far more services online than we have been 
able to offer over the phone or in our offices to countless 
more Native businesses and entrepreneurs, tribes and tribal 
enterprises, whenever it essential or convenient for those 
users to go online.
    At last year's RES DC, we streamed this Committee's hearing 
on economic development into the conference for our 
participants to see and hear. In my testimony for that hearing 
and at the Committee-sponsored listening session on economic 
development at our RES Wisconsin conference on October 9th, I 
outlined proposals the National Center has long advanced for 
economic and business development in Indian Country.
    Therefore today, I will limit my remarks to these 
categories of actions that the Committee should take to address 
key economic and business development priorities. Category one, 
committee oversight actions. Whether at the oversight hearings 
or letters requesting repots, the Committee should ask for 
essential data that might not ever come to light or even be 
developed or collected in the first place on these subjects. 
First, Buy Indian Act implementation and enforcement. Interior 
finally issued implementing regulations and has pledged to 
increase Buy Indian procurement awards by 10 percent, so we are 
starting to see some results. From our own RES oversight 
workshops on Buy Indian contract progress, we know BIA is doing 
good work. Less is known about IHS' use of this important 
contracting authority. It is reportedly sparing, at best.
    We urge this Committee to hold an oversight hearing to hear 
specifics from Interior, BIA and IHS, including their 
contracting officers, on historical and current use of Buy 
Indian Act procedures and on increases in the number and value 
of procurement awards to Indian-owned economic enterprises.
    A second area for oversight is the status of Native 
American Affairs offices at Commerce and SBA. This Committee 
should hold an oversight hearing on Commerce's efforts to 
fulfill duties prescribed by two Acts passed in 2000 as well as 
other authorities, to galvanize economic and business 
development in Indian Country. Commerce also should explain how 
and when it plans to expand the office dedicated to Native 
American business development authorized in 2000 within its own 
budget.
    Category two, Committee recommendations on Indian program 
funding. These are not requests for handouts. They are requests 
for programs that use minimal Federal funds for maximum 
economic development impacts in Indian Country.
    We urge the Committee to raise the following key programs 
in hearings and letters on the fiscal year 2016 budget request. 
Fifteen million dollars for the Indian Loan Guaranty Program, 
which leverages minimal Federal funds for a credit subsidy to 
facilitate substantial conventional lending for Indian economic 
and business development. In 2006, this Committee spearheaded a 
huge increase in the aggregate limit on Indian guaranteed loans 
from $500 million to $1.5 billion. However, Congress has funded 
this program's credit subsidy at less than $7 million, limiting 
total guaranteed loans to less than $100 million. A $15 million 
credit subsidy could afford guarantees for about $240 million 
in total loans.
    Number two, provide $15 million for Native CDFIs and report 
language on new market tax credit allocations for Indian 
Country. Since none of the last two rounds of NMTC allocations 
went to the community development entities, or CDEs that 
primarily or exclusively serve Indian Country, we urge the 
Committee to signal a desire to see a greater percentage of 
NMTCs allocated to CDEs that do focus on community housing, 
economic and business development in Indian Country.
    Three, provide line item funding for the Office of Native 
American Affairs within Commerce's departmental management 
budget and SBA's budget.
    Category three, legislation to achieve parity. The National 
Center applauds this Committee's search for proposals, vetted 
or new, to enhance Indian economic and business development. We 
recommend focus on high priority, parity-forging legislation 
that has gained consensus support in Indian Country to one, 
restore parity in trust land acquisition by passing legislation 
like last year's S. 2188, so that all federally-recognized 
Indian tribes can protect and enhance their tribal lands to 
attract investment, create jobs, and build self-sustaining 
tribal economies. The Committee might also consider proposals 
to make it easier to develop Indian lands to support economic 
development and generate self-sustaining income.
    Two, reach parity and incentives for energy investment and 
other economic development on Indian lands, Congress should act 
on vetted legislation, Chairman, like your bill, to remove 
regulatory barriers to Indian energy and infrastructure 
development on Indian lands and provide tribes more funding 
mechanisms to develop their energy resources.
    Thank you again for inviting the National Center's 
testimony today.
    [The prepared statement of Mr. Davis follows:]

 Prepared Statement of Gary Davis, Presisdent/CEO, National Center For 
                 American Indian Enterprise Development
    Good afternoon, Chairman Barrasso, Ranking Member Tester and 
members of the Committee. I am Gary Davis, President and CEO of the 
National Center for American Indian Enterprise Development, and I thank 
you for inviting the National Center's views on Indian Country 
priorities for the 114th Congress, focusing on economic and business 
development recommendations and specifically some that this Committee 
can take the lead in advancing.
    The National Center, now in its 5th decade, is the Nation's leading 
and longest serving national organization founded to dedicate its 
efforts solely to developing American Indian self-sufficiency through 
business ownership. While maintaining that dedication, the National 
Center has expanded its services to range from business and supply 
management to procurement technical assistance for hundreds of Indian 
tribes and thousands of businesses nationwide, whether owned by Indian 
tribes or American Indians, Alaska Natives or Native Hawaiians. We 
encourage investment in Indian Country by assisting and promoting these 
Native business interests in commercial and government marketplaces, 
both domestic and international. We also produce national and regional 
Reservation Economic Summits (RES) and Trade Shows that attract 
thousands of leaders of tribal governments and their enterprises, 
businesses owned by indigenous groups in American and those from Canada 
and other countries, as well as Native entrepreneurs. All these folks 
attend our RES events because we feature training sessions, business 
matchmaking and extensive networking opportunities, as you can see from 
the agenda posted online for our National RES on March 9-12, 2015: 
www.res.ncaied.org/national-res-las-vegas-agenda/.
    We have extended RES to regional conferences, last October in 
Wisconsin and last June in DC. In fact, this Committee's June 25, 2014 
hearing on ``Economic Development: Encouraging Investment in Indian 
Country,'' was streamed into the National Center's RES DC conference 
for hundreds of our participants to see and hear that important 
proceeding.
    At our National RES this March, we will launch new web-based 
business development assistance through our National Center Edge 
portal, proactively utilizing technology and the Internet to provide 
economic opportunities, trainings, business development services, and 
much more, to tribes and Native businesses nationwide.
The National Center Recommendations on Economic and Business 
        Development Priorities
    My testimony at the Committee's June 25, 2014 hearing, and at the 
Committee-sponsored ``Listening Session on Economic Development'' at 
RES Wisconsin on October 9, 2014, detailed proposals that the National 
Center has long advanced for economic and business development in 
Indian Country. Therefore, I will limit my remarks to three categories 
of actions this Committee should take during the 114th Congress to 
address key economic and business development priorities: (1) Oversight 
Actions; (2) Committee Recommendations on the FY 2016 Budget for Indian 
Country; and (3) Legislation, primarily on parity treatment for tribal 
governments.
I. Committee Oversight Actions
    The National Center applauds the Committee for jumpstarting its 
work in the 114th Congress with this hearing. Oversight can be such a 
powerful tool to inquire, probe and persuade to achieve desired 
results--without having to draft, negotiate and pass legislation. 
Whether through hearings or letters requesting reports, the Committee 
can elicit essential data that might not ever come to light, or even be 
developed or collected in the first place.
    Subjects for helpful Oversight Hearings, or letters to federal 
departments and agencies, include:
A. Buy Indian Act Implementation and Enforcement
    After 100 years of quasi-dormancy at the Department of the 
Interior, this Act's authority finally came to life with promulgation 
of final rules in 2013 to implement this critically important catalyst 
for economic, business and workforce development in Indian Country. In 
2014, Interior pledged to improve implementation and increase by 10 
percent Buy Indian procurement awards and purchases from Indian 
economic enterprises. The National Center hosted workshops at our RES 
DC and Wisconsin conferences in 2014 to receive progress reports, and 
we will do so again at our upcoming National RES on March 11, 2015. 
Through our own ``oversight'' efforts, we have found the Bureau of 
Indian Affairs (BIA) to be working hard and deserving kudos for their 
efforts. As for the Indian Health Service (IHS), while its implementing 
procedures were promulgated many years earlier, they seem to be applied 
sparingly, at best. No IHS representative has attended our RES 
workshops to report on Buy Indian contracting. We urge this Committee 
to hold an oversight hearing and invite witnesses from Interior, BIA 
and IHS, including contracting officers, to report on historical and 
current use of Buy Indian Act procedures and on increases, if any, in 
the number and value of procurement awards to tribal and other Indian-
owned economic enterprises. The Committee also should seek testimony on 
how Congress can expand the Act's application to other federal 
departments and agencies that expend funds for the benefit of Indians, 
so as to maximize that ``benefit'' through contracting, purchasing and 
hiring that spur economic and business development in Indian Country.
    The Committee's hearings on the FY 2016 Interior/BIA and IHS budget 
request are other venues for asking the agencies for status reports on 
Buy Indian Act implementation.
B. Elevation of Two Key Native American Affairs Offices
    The National Center and a dozen other national and regional 
organizations representing Indian Country interests have long urged the 
elevation and enhancement of the Office of Native American Affairs 
within the Department of Commerce and the Small Business Administration 
(SBA). This Committee should hold an oversight hearing on the 
respective efforts of Commerce and SBA to address Indian Country's 
economic and business priorities.
    Several federal departments now operate a high level Office of 
Native American Affairs or Tribal Relations, with its own budget, to 
promote and support economic and business development in Indian 
Country. It is past time for such Offices at Commerce and SBA to be 
elevated and provided their own budgets. In 2000, Congress passed two 
laws to deploy Commerce's robust economic, business, trade and tourism 
promotion programs to advance Indian Country's interests:

  <bullet> The Indian Tribal Regulatory Reform and Business Development 
        Act (Public Law 106-447), directing the Commerce Secretary to 
        establish a Regulatory Reform and Business Development on 
        Indian Lands Authority to identify and remove obstacles to 
        investment, business development, and wealth creation in Native 
        communities.

  <bullet> The Native American Business Development, Trade Promotion 
        and Tourism Act (Public Law 106-464), codifying an existing 
        office with a new name, the Office of Native American Business 
        Development. The Act prescribes duties for the Office Director 
        to fulfill, including to: (1) ensure intra- and inter-agency 
        coordination of federal programs assisting business and 
        economic development, and expansion of trade; (2) carry out a 
        Native American export and trade promotion program; (3) conduct 
        a Native American tourism program; and (4) report annually to 
        the Senate Committee on Indian Affairs and House Committee on 
        Natural Resources on the operation of the Office and any 
        recommendations for legislation deemed necessary.

    Commerce Secretaries have ignored the first Act above, and only 
intermittently implemented the second Act, despite repeated requests by 
the National Center and many other Native American organizations for 
elevation and specific funding of the Office of Native American 
Business Development to address these Acts' requirements. Last year, 
legislation (H.R. 4699) proposed to amend the second Act to require the 
Secretary to report to this Committee (and its House counterpart) on 
recommendations for promoting the sustained growth of the economies of 
Indian tribes and Indian lands. Instead, your Committee should hold a 
hearing or listening session to hear what the Commerce Department has 
done since 2000 to honor the intent of these two Acts and how and when 
it plans to expand and fund the Office of Native American Business 
Development to fulfill the duties prescribed by these Acts.
    As for the SBA, it deserves credit for establishing an Assistant 
Administrator for Native American Affairs and increasing funding for 
``Native American Outreach.'' Several bills in past Congresses have 
proposed to elevate the position to Associate Administrator with grant-
making authority. At a minimum, the Office should have its own budget, 
with line item funding, in place of the current ``Native American 
Outreach'' line item.
II. Committee Recommendations on Indian Program Funding
    In past years, this Committee has held hearings on the President's 
Budget Requests and has submitted letters to the Senate Budget and 
Appropriations Committees making recommendations on funding levels for 
programs that advance Indian Country's priorities. This Committee 
involvement on budget priorities has always been important to Indian 
Country and to the other Committees' members and staff responsible for 
drafting budget resolutions, appropriations bills and other 
legislation. My June, 2014 testimony outlined a number of funding 
requests to address Indian Country's economic and business priorities. 
Below are some key programs where minimal increases in federal funding 
would have maximum leveraging effect in expanding access to capital and 
generating more economic, business and community development in Indian 
Country. The National Center urges the Committee to raise the following 
key programs in relevant budget hearings and letters on the FY 2016 
budget requests:
A. Department of the Interior

    1. Up to $25 Million for Interior's Office of Indian Energy and 
Economic Development

    At this funding level, this Office (OIEED) could: (1) speed the 
HEARTH Act's implementation; (2) assist tribes in developing 
environmental codes and other tribal ordinances for leasing tribal 
lands for energy and economic development projects; (3) provide grant 
funding for business plans or feasibility studies for tribal business 
and economic development projects; and (4) provide more technical 
assistance (including guidance on preparing business plans, repairing 
credit records, and completing loan applications) and expand the scope 
of the Indian Loan Guarantee Program (discussed below) to finance more 
business operations/expansions, provide standby letters of credit to 
attract needed surety bonding, and finance start up energy and economic 
development projects.

    2. $15 Million for the Indian Loan Guarantee Program

    Overseen by OIEED, the Indian Loan Guarantee Program and loan 
subsidy program have incredible potential to leverage a small federal 
investment to facilitate substantial conventional lending for 
businesses and economic development projects. BIA-certified lenders 
lend to Tribes and Indian businesses on reservations and submit to 
tribal court jurisdiction (whereas SBA-certified lenders must 
adjudicate any loan defaults in federal court). OIEED also operates a 
revolving credit facility (SBA has no such support) that assists Indian 
borrowers with lines of credit for working capital, payrolls for hiring 
new employees, and assurances sufficient for sureties to provide 
performance bonds to tribal- and other Native-owned contractors. This 
kind of support facilitates Buy Indian Act contracting. In 2006, 
recognizing this program's potential, Congress authorized a huge 
increase in the aggregate limit on Indian guaranteed loans from $500 
million to $1.5 billion. However, FY 2015 funding for the program's 
credit subsidy is less than $7 million, limiting the total loan 
principal to only about $100 million. By increasing the credit subsidy 
to a modest $15 million, upwards of $250 million in total loan 
principal could be guaranteed.
B. Department of the Treasury, Community Development Financial 
        Institutions Fund

    1. $15 Million for Native Community Development Financial 
Institutions (CDFIs)

    Indian Country has greatly benefitted from the Native Initiative of 
the CDFI Fund through expanded access to capital for individuals and 
small businesses. The initiative funds Native CDFIs to provide micro 
loans and facilitates financial literacy and entrepreneurial 
development training in Native communities across the country. This 
program is another great example of how a modest federal investment 
catalyzes greater capital access in Indian communities.

    2. Report Language on New Market Tax Credit Allocations For Indian 
Country

    The CDFI Fund also oversees the New Market Tax Credits (NMTC) 
Program that makes NMTC allocations to Community Development Entities 
(CDEs) to help finance projects in low-income urban neighborhoods and 
rural communities lacking access to capital needed to support and grow 
businesses, create jobs and sustain healthy local economies. In the 
past, NMTC allocations have helped finance projects in Indian Country, 
but none of the last two rounds of allocations went to the CDEs that 
primarily or exclusively serve Indian Country. Since the CDFI Fund is 
open to making some adjustments, we urge the Committee to signal a 
desire to see a greater percentage of the NMTCs allocated to CDEs that 
focus on community, housing, economic and business developments in 
Indian Country. (See further discussion in Legislative recommendations 
below.)
C. Funding Federal Offices of Native American Affairs and Tribal 
        Relations
    As I explained in my testimony last June, broader federal attention 
to Indian Country occurred after more Cabinet departments and key 
federal agencies established Offices with that focus (e.g., HUD's 
Office of Native American Programs, USDA's Office of Tribal Relations, 
DOE's Office of Indian Energy Policy and Programs, the FCC's Office of 
Native American Affairs and Policy, and SBA's Office of Native American 
Affairs). Each of these key Offices deserve increases or at least level 
funding for FY 2016. We ask the Committee to endorse these specific 
recommendations:

        1. Rename the SBA's line item for ``Native American Outreach'' 
        to read ``Office of Native American Affairs'' and provide up to 
        $2 Million for that important Office; and

        2. Provide line item funding of $1 Million for an Office of 
        Native American Affairs within Commerce's Departmental 
        Management budget.

III. Legislation to Achieve Parity
    The needs in Indian Country remain so great that provisions to 
achieve parity could be included in just about any federal program for 
grant or cooperative agreement assistance, formula funding, and other 
federal expenditures, including tax expenditures. Rather than advocate 
that approach, the National Center recommends more targeted focus on 
parity-forging legislation that has been previously proposed and 
vetted, perhaps reported out of committee, or has gained consensus 
support in Indian Country. Below are high priorities that the Committee 
can examine by holding its own hearings or joint hearings with other 
committees, and otherwise promote consideration of proposals in these 
areas:
    1. Restore Parity in Trust Land Acquisition: As noted in my 
previous testimony, all federally recognized Indian tribes must be able 
to protect and enhance their tribal lands to attract investment, create 
jobs and build self-sustaining tribal economies. This Committee should 
lead the charge to enact legislation (like last year's S. 2188) to 
clarify the Interior Secretary's authority to acquire land in trust for 
any federally recognized tribe so as to remedy confusion and harmful 
impacts stemming from the U.S. Supreme Court's decision in Carcieri v. 
Salazar. The Committee also should consider holding a hearing or 
listening session on proposals designed to facilitate investment in 
projects on Indian lands, such as last year's H.R. 2718, cosponsored by 
Congressmen Don Young and Tom Cole, to empower tribes to accept 
restricted fee tribal lands to spur economic development and generate 
self-sustaining income.
    2. Infuse Parity in New Market Tax Credit Allocations for CDEs 
Serving Indian Country: In the last two distributions of NMTC 
allocations, the CDFI Fund did not allocate any NMTCs to a Community 
Development Entity (CDE) with a primary mission of serving Native 
Communities. Lack of NMTCs has reduced urgently needed financing for 
business and community development projects in Native communities 
across the country. Capital can be better deployed in Indian Country 
projects if NMTCs are allocated to qualified CDEs whose primary mission 
is to invest in Native communities and who possess the required 
cultural competency and understanding of relevant legal and financial 
complexities involved. Proposals should be considered to make NMTC 
authority permanent and to set aside 10 percent of any future NMTC 
allocations for qualified CDEs whose primary mission is to serve Indian 
Country.
    3. Reach Parity in Incentives for Energy Investment/Development on 
Indian Lands: In numerous energy-related workshops hosted at our 
National RES and regional RES conferences, there has been great 
interest in development of renewable and conventional energy resources, 
and the related potential for workforce and economic development. 
Congress should act on vetted legislation (like last year's S. 2132) to 
remove regulatory barriers to energy and infrastructure development on 
Indian lands and streamline approval processes for rights-of-way. 
Congress also should extend existing tax credits that support economic 
development in Indian Country, and consider legislation to provide more 
funding mechanisms to develop energy resources on Indian lands, such as 
allowing transfer of tax credits for production from renewable 
resources.
    4. Ensure Parity in Tax Treatment: Just as Congress moved toward 
treating tribes more like state and municipal governments by enacting 
the Tribal Economic Development Bond authority, any future action on 
tax reform or any other tax legislation must include language: (a) 
eliminating the ``essential governmental function'' test for issuance 
of tribal tax exempt debt; and (b) treating tribal governments as 
taxing authorities in any provisions for collection of remote sales 
taxes (i.e., in parity with state and local governments). As 
sovereigns, tribes must be able to exercise the right to collect tax 
revenues to provide for their members, promote business and job 
creation, and offer tax advantages to attract outside investment 
necessary to build their tribal economies.
    Once again, thank you, Mr. Chairman, and the Committee for the 
opportunity to present testimony and recommendations on behalf of the 
National Center. We urge the Committee to consider and act on these 
issues promptly.

    The Chairman. Thank you very much, Mr. Davis. I think a 
couple of things. One is that you may receive more written 
questions than most hearings, because we may run out of time to 
actually ask questions. Since you used the phrase listening 
sessions in your testimony, if we do head to vote, we will 
adjourn this meeting but the staff will continue with you, if 
you have the time to stay here, and we can conduct a listening 
session then for additional information. So I appreciate it.
    Next is Ms. Stacy Bohlen, Executive Director of the 
National Indian Health Board. So nice to see you again. Welcome 
to the Committee. I look forward to your testimony.

STATEMENT OF STACY BOHLEN, EXECUTIVE DIRECTOR, NATIONAL INDIAN 
                          HEALTH BOARD

    Ms. Bohlen. Thank you, Chairman, and congratulations on 
officially becoming the Chairman and officially becoming the 
Vice Chairman, Senator Tester.
    My name is, as you said, Stacy Bohlen. I am a proud member 
of the Sault Ste. Marie Tribe of Chippewa Indians in Michigan. 
I have been the Executive Director of the National Indian 
Health Board for about 10 years. I am very proud to be here 
today and be part of this proceeding on behalf of the National 
Indian Health Board. Chi-miigwetch, many thanks to the 
Committee for taking the time to listen and engage with us.
    Our organization was founded by the tribes over 40 years 
ago. And like what you said, we are in our fifth decade. 
Advocating for the improvement of American Indian and Alaska 
Native health is the sole work that the National Indian Health 
Board does. And we are the only national organization solely 
devoted to that work.
    As you know, our people continue to live sicker and die 
younger than other Americans. Our life span is 4.2 years less 
than other Americans and on some reservations, unfortunately 
Northern Arapaho is one of them, life expectancy is only 49 
years. We experience significantly higher mortality rates from 
accidents, alcoholism, suicide, cancer, influenza, maternal 
deaths and many times we have to struggle against the tide of 
poor funding, poverty and cultural barriers that impact health.
    We must stand together to change these realities. In 2013, 
the Indian Health Service per capita expenditures for health 
care was just $2,849 per Indian person, compared to $7,717 per 
person for health care spending nationally. Despite the 
historic increases that Congress has shepherded through and the 
Administration has supported, the IHS budget is still only 
funded at 59 percent of need. Budgets do not contain increases 
for medical inflation, contract support costs, contract health 
services or Purchased Referred Care, and sequestration cuts. 
Despite valiant efforts, we just were not able to move forward. 
And we can change that.
    Even when other programs supporting vulnerable populations 
for health care, like Medicaid, Medicare and the Veterans 
Administration were exempt from sequestration cuts across the 
board, the Indian Health Service was not. That cost $220 
million to the system in 2013. That is just not acceptable. And 
we look to work with you to end the sequestration, not just for 
health programs in Indian Country, but for all programs in 
Indian Country.
    In addition, there are two important legislative changes 
that could help the tribes to overcome some of these budgetary 
challenges. The first is establishing Medicare-like rates for 
Purchased Referred Care for non-hospital-based services. This 
was recommended by the Government Accountability Office in 
2013. And IHS is the only Federal health provider not already 
paying these rates. The agency could save millions if the 
Indian Health Service was paying provider rates consistent with 
existing Federal policy.
    This is real challenge that we saw in the State of Montana 
with the orthopedic surgeons. We tried to work very hard to 
overcome it. It was impossible at that time.
    If Medicare-like rates were applied to the Indian Health 
Service they could provide an estimated 253,000 extra patient 
visits per year through a program that is at least $800 million 
short every year. Another important breakthrough would be 
establishing advance appropriations for the Indian Health 
Service, much like the Veterans Administration. This means that 
Congress would enact IHS funding a year ahead of time. That 
money could not be spent until the year for which the funding 
was intended.
    For example, tribes could spend funds appropriated in 2016 
only in 2017. This means that tribes would not have to wait on 
short-term continuing resolutions every year to make long-term 
decisions with only short-term money.
    For example, in Alaska, heating oil is a major expense to 
the Alaska health care system. We all know from having to heat 
our own homes, it is cheaper to buy heating fuel or whatever 
our needs are in bulk. In Alaska, this is also clearly the 
case. And if that is able to be done in September, before the 
rivers freeze, that oil can be shipped by barge.
    But if you have to wait until November, until the spring, 
to do so, the oil has to be flown into the villages. Along with 
increased costs of buying oil on a piece-meal basis, when 
continuing resolution money is finally freed up, the shipping 
just dramatically increases the cost.
    Advance appropriations won't solve these complex issues, 
but it would certainly be a substantial and important step 
forward.
    Even with legislative actions, it is important to note that 
many of our disparities, like alcoholism, substance abuse, 
suicide being the number two cause of death of our youth and 
children, injuries, these are treatable and preventable 
circumstances and occurrences. But they are often overlooked in 
the Indian health care delivery system, because it doesn't have 
the capacity nor is it designed to operate that way.
    I would also like to talk about a very important issue of 
alleviation of the tribal employer mandate for the Affordable 
Care Act. But I see that my time has expired, so I look forward 
to extending my remarks if I may. Thank you very much.
    [The prepared statement of Ms. Bohlen follows:]

Prepared Statement of Stacy Bohlen, Executive Director, National Indian 
                              Health Board
                              
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                             
                              
                            
                              
     The Chairman. Thank you very much, Ms. Bohlen.
    Senator Tester?
    Senator Tester. Thank you for your flexibility, Mr. 
Chairman. I want to welcome Vance Home Gun. Vance is an 
outstanding young man who has worked in Native language. He is 
a Champion for Change with Senator Dorgan's Native American 
group that he has worked with. I thank you very, very much, and 
appreciate the example you set for Native American youth all 
over this Country.
    The Chairman. Thank you very much, Senator Tester. Mr. Home 
Gun?

  STATEMENT OF VANCE HOME GUN, 2013 CHAMPION OF CHANGE, YOUTH 
  ADVISORY BOARD MEMBER, THE CENTER FOR NATIVE AMERICAN YOUTH

    Mr. Home Gun. [Greeting in Native tongue.] Good afternoon, 
Chairman Barrasso, Vice Chairman Tester and members of the 
Committee. My name is Vance Home Gun and my Indian name is 
[name given in Native language]. I am a member of the 
Confederated Salish and Kootenai Tribes in Montana.
    I am here today to provide my testimony as a youth advisory 
board member for the Center for Native American Youth at the 
Aspen Institute. Also, as Vice Chairman Tester said, I am 
representing Native youth throughout Indian Country. It is a 
big hat to fill.
    I hope to shed some light on the needs of Native American 
youth and compel you to make us a priority in Congress. My oral 
testimony is only a summary of what is included in my written 
testimony for the Congressional Record. The priorities of 
Native American youth are similar to what you will hear from 
our partner organizations. We want you to support our 
communities and keep your promises to Native Americans.
    To start, I want to lay out the overarching priorities for 
my testimony. This is what they are.
    Number one, adequate funding for programs to serve Native 
American youth, especially education, health, culture, mental 
health, language programs and welfare programs. Second, make it 
easier for tribes and organizations to utilize that funding.
    Third, engage and listen to Native youth throughout Indian 
Country. You will hear many, many positive and influential 
stories. When they come to D.C., take time and listen to them. 
Ultimately, make it a goal to prioritize Native youth issues in 
Congress. We really urge you guys to do that.
    A lot of time, stories about Native American youth focus on 
the negative. It is true, we do experience many challenges. But 
Native American youth are also leaders in Indian Country, doing 
positive, positive work. I believe you should invest in us.
    I became involved with the Center for Native American Youth 
and was named a Champion for Change. The goal of the Champions 
for Change program is to recognize Indian youth who are working 
to improve their communities, encourage their peers and leaders 
and to promote hope.
    I was named a Champion for Change simply by trying to 
revitalize and preserve my Native language. A good friend of 
mine, Dakota Brown, was also named a Champion for Change. He 
started a program called NERDS, Native Education Raising 
Dedicated Students. Another good friend of mine who was named a 
Champion for Change is a 16-year old girl named Lauren from 
Oneida, who successfully placed 18,000 new books into the hands 
of Indian children.
    These are positive stories from young Native leaders of 
today. There is so much good news in Indian Country, and there 
will even be more if we can work together to strengthen our 
Native youth.
    In order for youth to be successful, we need to address the 
issues that young Native Americans face in Indian Country each 
and every day. This is where Congress comes in. More than two 
centuries of failed policies and underfunding have led to all 
kinds of problems, making it hard for Native youth to reach 
their full potential. Tribal leaders, urban Indian 
organizations and youth throughout Indian Country are doing 
great work to address those problems and provide a better 
future for all. They are doing this with limited and many times 
no resources as a result of policies that go against the 
Federal Government's trust responsibility.
    For us to be successful, Congress needs to provide the 
funding needed for the programs and services that we were 
promised in our treaties, promises that men before you promised 
Native Americans throughout this Country. We ask that you honor 
those promises, we ask that you honor those words, the words of 
your founding fathers.
    On top of the funding, the system of Federal Government 
serving Native American youth is complex and confusing. Let's 
make it easier for tribes to actualize and utilize these 
programs.
    And before I finish, I want to mention that there are many 
other partners helping us reach Native youth, which can be 
helpful for us to work to make them a priority in the 114th 
Congress. Tribal leaders are working hard every day to try to 
ensure their children have equal and fair opportunities to 
succeed. I ask you to work with tribal governments to make it 
easier and to be rightfully consulted.
    Having the tremendous opportunity of meeting many 
outstanding Native American youth throughout Indian Country, I 
know that we are still fighters, hunters and warriors. This is 
who we are as Indian people. I hear time and time again from 
youth throughout Indian Country that language and culture is a 
priority. It is who we are. Only we can ensure that survival. 
With the revitalization of our languages and cultures comes 
pride in who we are as a people. Western education is also a 
must for future generations for the survival of American 
Indians.
    We all have the same goal of creating a healthier, more 
prosperous Indian Country in the United States of America. 
Native youth want to work alongside you as we reach that goal.
    Thank you for this opportunity.
    [The prepared statement of Mr. Home Gun follows:]

 Prepared Statement of Vance Home Gun, 2013 Champion of Change, Youth 
        Advisory Board Member, Center for Native American Youth
    Good afternoon, Chairman Barrasso, Vice Chairman Tester, and 
members of the Committee. My name is Vance Home Gun and I am member of 
the Confederated Salish and Kootenai Tribes in Montana. I am here today 
to provide testimony from my position as a Youth Advisory Board member 
for the Center for Native American Youth at the Aspen Institute. Thank 
you for the opportunity to provide testimony highlighting Native 
American youth priorities today.
    I am grateful for the opportunity to sit here with these 
distinguished leaders and hear the priorities of various tribal 
organizations. The priorities of Native youth are not unlike what you 
will hear from these partner organizations--we want you to keep your 
promises to provide services to Native Americans and allow our 
governments to express our sovereign right to decide how best to serve 
our people. My role today is to tell you about priorities we hear on 
the ground from Native American youth. I also want to tell you about 
some of the issues that are most important to me and the other 2.1 
million Native Americans under the age of 24 including: sovereignty, 
culture, language, education, child welfare and health care access, 
especially to mental and oral health services.
    At the outset I want to lay out the overarching priorities for my 
testimony. These priorities are:

        (1)  Adequate funding for programs that serve Native youth, 
        especially: education, language, culture, physical and mental 
        health, and child welfare programs.

        (2)  Make it easier for tribes and tribal organizations to 
        utilize federal grants rather than bog them down with 
        duplicative and capacity-draining administrative requirements.

        (3)  Engage with and listen to Native youth in their home 
        communities and when they come to DC.

        (4)  Make it a goal to prioritize Native youth issues in this 
        Congress.

Positive Youth Efforts in Indian Country
    I want to tell you a few stories to help you understand why 
investing in Native youth should not just be a priority for me and my 
peers, but that it should be your priority because it is an American 
priority.
    Too often stories about Native youth focus on the negative. While 
we do have unique needs, which I will share more about later, Native 
American youth are also leaders who--when given space to lead--are 
changing lives and improving Indian Country and the greater United 
States as a whole.
    I became involved with the Center for Native American Youth through 
their Champions for Change program. I was named a 2013 Champion for 
Change. The goal of this program is to reach out and lift up those 
youth, of which there are many, who are working to improve their 
communities, encourage their peers and leaders, and to promote hope! 
Inspired by a White House initiative, the program highlights young, 
inspirational leaders from Indian Country who are making a difference 
in tribal and urban Indian communities.
    I was named a Champion for Change because as a high school student 
and recent graduate I worked with tribal departments, local 
organizations, and youth groups for over six years to help preserve the 
Salish language. I taught language classes at high schools and created 
an organization called Yoyoot Skwkwimlt (Strong Young People) that 
utilizes peer-to-peer methods to teach language and culture. Within a 
short time, I was asked to lead the language department for my tribe. 
Through my work, we educated 100 students and now 12 are fluent in 
Salish.
    CNAY's inaugural class of Champions for Change also included a 14 
year-old--Dahkota Brown--who created an after-school program called 
NERDS (Native Education Raising Dedicated Students). He saw too many of 
his peers dropping out of school and created a program to support and 
encourage his Native peers to excel in education. While high school 
graduation rates hover around 50 percent for Native Americans, those 
students involved in Dahkota's program have had a 100 percent 
graduation rate. The 2014 class of Champions included a 16-year-old who 
was recognized for successfully placing over 18,000 new books into the 
hands of children in need.
    I believe these stories are inspiring. There is so much good news 
in Indian Country and there will be even more if we work together to 
find ways to support Native American youth and students.
Challenges and Barriers to Native Youth Success
    Even so, young Native Americans across Indian Country face several 
significant challenges in their daily lives. More than two centuries of 
failed policies and chronic underfunding have led to intolerable 
disparities between the health and well-being of young Native Americans 
and that of their non-Native peers, seriously impacting their ability 
to reach their full potential. They are the most at-risk in terms of 
nearly every demographic.

  <bullet> Native children have the nation's highest suicide rates and 
        in the last decade, 2.5 times the national rate and in some 
        communities that number is even higher.

  <bullet> Over the last decade, high school graduation rates increased 
        for all racial groups except Native Americans.

  <bullet> Native Americans suffer from high rates of alcohol and drug 
        abuse, chronic disease, and mental health issues.

  <bullet> They are exposed to violence at disproportional rates and 
        overrepresented in the child welfare and juvenile justice 
        systems

    Despite those many challenges, tribal leaders, tribes and urban 
Indian organizations, and youth themselves throughout Indian Country 
are doing incredible work to serve Native Americans and provide a 
better future for the First Americans. And they are doing so with 
limited or no resources as a result of policies that are not in line 
with the Federal Government's trust responsibility.
    A prime example of this is the simple fact that the funding for 
federal programs and services for Native Americans is discretionary, 
rather than mandatory, meaning public safety, education, child welfare, 
housing, language programs, and healthcare are all susceptible to 
budget cuts.
    These programs and services, which are meant to provide for the 
basic needs of Native Americans, and which are guaranteed through 
treaties--not handouts but treaties, transactions with the federal 
government. Our priorities are simple: adequate and just funding for 
the programs and services we were promised.
    In addition to underfunding, the system of federal programs serving 
Native youth is complex and even the federal agencies and 
Administration themselves are confused about what programs are 
available, where and how to get the funding, and limited in terms of 
flexibility and holistic services. If the federal agencies and 
Administration are confused by their matrix of programs, won't tribal 
communities and youth programs be just as confused or more?
    It can be very difficult for communities to know what services and 
funding are available and there is little flexibility to break down 
those silos and make it easier to serve their people Another challenge 
is that oftentimes tribal nations and urban Indian programs receive 
numerous federal grants with unpredictable funding streams or only a 
few years in length, meaning that by the time the programs are running 
well and showing positive results, the grant ends. In addition, tribal 
nations and urban programs are burdened with several reporting 
requirements that require staff time that could be used more 
effectively to serve Native youth and other community members. Allowing 
for flexibility by combining reporting requirements for federal funding 
would ensure that tribes will spend more time providing valuable 
services.
    The Center for Native American Youth has mapped out federal 
programs and services that touch the lives of Native youth. We attached 
it to my testimony. I hope this can be a roadmap to see the programs 
that impact our lives. I hope you will prioritize them and ensure they 
are properly funded.
Native Youth Voices
    The Center for Native American Youth remains committed to learning 
from and listening to Native youth, tribal nations and urban Indian 
community perspectives. We directly engage students in roundtable 
discussions while visiting their communities and homes. I have 
participated in a number of these events myself--traveling to the 
Rosebud Sioux in South Dakota, the Confederated Tribes of Umatilla 
Indians and the Confederated Tribes of Coos, Lower Umpqua and Siuslaw 
reservations in Oregon, and the Wilton Miwok Rancheria in California. 
To date the organization has facilitated 101 listening sessions in 21 
states with more than 3,800 youth in order to gather young people's 
priorities and perspectives on important issues. I will share a little 
bit about what we hear as top priorities for youth but I encourage you 
to read our annual Voices of Native Youth report that summarizes the 
issues that young people face in their communities. Here are some of 
the key findings from 2014 and issues that young Native Americans have 
asked us to prioritize in 2015.
Youth Engagement
    A consistent and clear priority heard from young people is the need 
to be engaged and have safe places to go outside of school, 
particularly on the weekends and during summer months. A number of 
participants mentioned the increase of disruptive gang activity in 
tribal nation communities is a result of the lack of available 
extracurricular activities. Youth have expressed that involvement in 
gangs in urban areas often transfers home to the reservation bringing 
with it violence, drug use and other crimes. Without safe environments 
and positive activities to engage youth, like after-school programs 
offered in evenings and on weekends, there are concerns that at-risk 
youth will continue to turn to gangs as an outlet for their 
frustrations and for a sense of a belonging.
    Youth participants stressed the desire to see more outlets, 
including cultural events, athletics, and other recreational activities 
in tribal nation communities. Yet, there is too often a lack of funding 
for these types of positive activities. Transportation is also a big 
priority for Native American youth because they often lack 
transportation to travel to such activities, to receive health care, to 
obtain groceries, or to visit family.
    When budgets are cut, extracurricular programs and transportation 
services are often the first things to go. Funding for youth programs 
and transportation is an important priority for you to consider for 
improving the lives of Native youth. Without programs to engage youth, 
they will continue to fall victim to gangs, drugs, alcohol and other 
negative activities.
Education
    Many Native American youth believe that education is critical to 
the well-being of their tribal nations and urban Indian communities and 
also that higher education is connected to future success of Indian 
Country. Native American students want culturally-appropriate student 
services, more Native teachers, tribally-run schools in their 
communities, and the integration of Native American studies into 
institutional curriculum. They believe these improvements will enable 
them and their Native peers to be successful. Native youth have 
identified the following barriers to attaining higher education:

  <bullet> Lack of access to financial aid and difficulty finding 
        information about financial assistance,

  <bullet> Limited tutoring and other forms of academic support like 
        after-school programs,

  <bullet> Difficult school environments, including:

    --lack of infrastructure and diversity of teaching staff;
    --too few teachers;
    --lack of support from school administration and family; and
    --too few connections with community and culture.

    Racial discrimination persists as a barrier to academic success for 
Native youth. During 2014 roundtable discussions, Native youth 
highlighted negative stereotyping as a major concern at school in 
addition to bullying and discrimination. Native participants noted that 
in-school bullying between Native and non-Native students, including 
cyber bullying, occurs frequently. One experience in the Southwest was 
shared about a young Native male having his long braids cut off by non-
Native peers during a school bus ride. Earlier this school year, a 
Native boy in Texas was sent home for having long hair. Youth believe 
that these racist attitudes and behaviors are especially present in 
urban areas.
    We hear Native youth asking for positive mentors and role models to 
help them stay focused and provide guidance throughout their education 
and career path. The need for supportive school environments, including 
encouragement throughout the education system and support in 
identifying, applying for, and managing scholarships and financial aid 
are all key education priorities for Native American students.
Health
    In every roundtable discussion, health and wellness issues, 
including healthy lifestyle promotion, as well as challenges like 
alcohol and substance abuse, suicide, and teen pregnancy were raised by 
students. The persistent underfunding of the Indian Health Service, 
which is the primary agency charged with providing health care to 
Native Americans, makes it increasingly difficult to meet basic health 
needs, much less proactively address health challenges throughout 
Indian Country.
    Native youth and our communities need access to quality, safe 
health care, especially primary, mental, and oral health care. Yet, 
what is exciting for me as a Native youth is that tribal nations are 
leaders in developing innovative, exciting health care programs that 
help address these health care needs. Indian Country can serve as a 
model for all communities. Below are a few examples.
    In my tribal community, we have worked together to address mental 
health needs, despite historic efforts of the federal government to end 
our culture, by reaching out to elders and revitalizing our language 
and culture. I was recruited by my tribe to learn and teach our Native 
language. Through programs like these, we have provided youth with an 
opportunity to connect to who they are and where they come from. 
Addressing the mental health needs of Native youth requires us to build 
traditional, cultural programs and we are already seeing success in our 
reservation.
    Another example are the community, behavioral and dental health 
aide programs created by Alaska tribes over ten years ago. Native youth 
experience oral disease rates that far surpass US averages and over 
half of Native youth live in what are called dental shortage areas, 
meaning that there are not enough dentists to serve the population 
size. Alaska tribes were not going to wait around for the federal 
government to solve the program for them, so they built a program 
modeled off of what every other industrialized nation already has--a 
mid-level dental provider. Thanks to these tribal endeavors, there are 
Native villages with cavity-free children and healthier communities for 
the first time in decades.
    Native youth want what everyone wants--for our communities to be 
healthy and for our tribal leadership to have the ability to makes the 
best decisions for us. Across the country we are leading movements and 
working together to raise our voices and promote tribal community 
solutions to health problems, including successful workforce models 
developed in Alaska. Sharing our stories is one way we can help. 
Recently, many Native youth are getting published in national and local 
news outlets to share their stories and perspectives on tribal 
initiatives addressing oral health needs. While stories like youth 
waiting months for care and trying to pull out their own teeth are sad 
and difficult to hear, it is important that they are told. Native youth 
voices tell of our simple need and right to have equitable health care 
and healthy smiles we can be proud of.
Child Welfare
    Addressing the distinct needs and priorities of Native foster youth 
was a priority issue in several of our youth convenings last year. 
Native youth are overrepresented in foster care and many young people 
are being separated from their tribal communities despite laws to 
prevent such placements. Recognizing this, youth and families talked 
about the importance of keeping siblings together in foster homes, 
especially current or former foster children. Throughout conversations, 
the need to place youth with relatives or Native foster homes to 
provide continuity of culture and community familiarity was expressed. 
Native foster children also described a need to improve the public 
education experience for those in foster care, since education is often 
difficult to navigate for foster youth and can be unwelcoming to Native 
youth, resulting in racism and re-traumatization for Native foster 
children. Educational assistance and specific programs for foster youth 
were highlighted as necessary supports to ensure their future success.
Culture
    Youth are very interested in learning more about their language and 
culture from tribal elders. Many say they would like to see more young 
tribal members speaking their Native language and practicing 
traditional ways of life. Although resources are limited to support 
cultural and language programs, many young Native Americans identify 
culture and language as protective factors that help them in overcoming 
the numerous challenges (highlighted above) experienced by Native 
youth. Youth also view contemporary and traditional arts as important 
for healthy communities, which give them a positive outlet. Youth have 
also expressed the desire to learn more about traditional food systems 
and how to prepare traditional meals, an interest which could 
ultimately help improve the health of Native Americans. Numerous 
participants brought up the need for incorporation of their culture and 
traditional and contemporary arts in the educational system.
Conclusion
    It is also important to note that there are many other partners 
helping to reach out to Native American youth, which can be helpful to 
you as you work to make them a priority in the 114th Congress. Tribal 
leaders are working valiantly every day to try to ensure their children 
have equal and fair opportunities to succeed. Yet, they are hamstrung 
in terms of resources. As a Native youth, I ask you to work with tribal 
governments and ensure they are rightfully consulted.
    Second, the organizations you heard from today--the National 
Congress of American Indians, National Indian Child Welfare 
Association, National Indian Health Board, and National Indian 
Education Association -are leading an effort to create a Native 
Children's Agenda called First Kids First. Nike's N7 Programs have 
donated more than $3 million through grants to Native youth programs 
across the U.S. since 2009. N7's contributions have impacted more than 
200,000 Native youth to date, with a goal of reaching 2 million kids by 
2020.
    Casey Family Programs, a national foundation and current partner of 
the Center for Native American Youth, works in 50 states, the District 
of Columbia and Puerto Rico to influence long-lasting improvements with 
regards to the safety and success of children, families and 
communities. They have an entire team of individuals in the Indian 
Child Welfare Program dedicated to improving the lives of Native 
American children.
    The W.K. Kellogg Foundation, a national foundation, has made 
incredibly generous and significant investments in tribal communities 
and is supporting efforts to create a national bipartisan focus on 
children and their families, as well as growing support for tribal-led 
solutions to help each and every native child thrive.
    Having had the tremendous opportunity of meeting many Native 
American Youth throughout Indian Country, I know that we are still 
fighters, hunters, and warriors. I hear time and time again from the 
youth that our language and culture must survive. Only we can ensure 
its survival. With the revitalization of our languages and cultures 
comes pride in who we are as a people. Western education is also a must 
for our future survival, as is taking good care of our bodies through 
fitness and diet. We need to do these things while still living our way 
of life that is unique to us. Native youth want to be a part of this 
great country and have the same privileges as all youth have.
    Ultimately the message I have for you, distinguished members of the 
Committee, is simple: prioritize and invest in Native American youth. 
Listen to us and listen to our tribal and urban leaders. Support our 
priorities with proper funding of critical and basic services to our 
people--health care, education, social services, and community safety--
and do not create barriers that make it more difficult to serve our own 
communities. Reach out to Native American youth; ask us what we think 
and find ways to help us achieve our dreams. I know there are many 
issues that come across your desk, but I challenge you to prioritize 
Native youth this Congress. We all have the same goal of creating a 
healthier, more prosperous, Indian Country and United States of 
America, and Native youth want to work alongside you as we reach that 
goal.

    The Chairman. I am are very grateful for your testimony. 
Being from Montana, there are two Senators from Montana on the 
Committee. I would like to turn first to the Vice Chairman and 
then to the junior Senator from Montana.
    Senator Tester. Very briefly, I just want to thank you all 
for your testimony. It is unfortunate we don't have time to 
question you, but we will be doing that through writing, as the 
Chairman has indicated. I am sure this is not the last time you 
are going to be appearing in front of this Committee.
    That being said, thank you for your testimony. As Vance 
said, if we work together, we really can get some positive 
things done.
    In closing, I would just say, Mary Pavel, thank you very 
much for your service to this Committee, both under the 
direction of Chairman Cantwell and myself. You have done a 
great job and you will be missed.
    [Applause.]
    The Chairman. Senator Daines?

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman. And Vance, I am 
proud of you. It is good to have you here, the pride of Arlee, 
Montana. It is an honor to be here with you.
    It is also an honor to have two Montanans on this Committee 
with Senator Tester. So I know that Montana's voice will be 
heard here. But more important also, just Indian Country in 
general, the voice of Indian Country. We have seven 
reservations in Montana, we have one time yet to be federally-
recognized tribe, with Little Shell.
    I have a long to-do list of items I will be talking about 
today. But I think in the interest of time, and allowing others 
to speak, and the fact we have a vote, I will forego my four 
pages of priorities and just say, it is an honor to serve on 
this Committee and to serve those who are in Indian Country. I 
look forward to a productive committee.
    Thank you, Mr. Chairman.
    The Chairman. Thank you so very much
    The bells that you have heard in the background mean that 
we are now further than halfway through the vote. We are going 
to have to be leaving shortly.
    Senator Heitkamp, I would like to know if you have anything 
to add, or a question?

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Just a congratulations, Mr. Chairman. I 
just want to make sure you know that I know you are the 
chairman.
    [Laughter.]
    Senator Heitkamp. And I want to welcome one of my tribal 
chairmen, Richard McCloud, who is here today from the Turtle 
Mountain Band of Chippewa. He is very involved with youth in 
his community and certainly an Indian leader in our State. 
Also, Melvin, who is enrolled at the same reservation.
    I also want to say, my list is long. And I want to brag a 
little bit, because I think both Senators from North Dakota are 
also on this Committee. Senator Hoeven is busy spearheading and 
working very hard on the Keystone Excel Pipeline or I am sure 
he would be here to greet you.
    This is a very, very high priority for me. I think anyone 
who has seen my first two years in the United States Senate 
knows that. This is a passion. And it really speaks to our 
future. Vance, you said it so well. If we focus on the 
children, if we build coalitions around the children, if we 
look at what the children need and listen to the children, in 
20 years we will have done something that we haven't done for 
the last 150, and that is be respectful to the culture, 
respectful to treaty rights and obligations that we have, and 
to build a united belief that all of the children of this 
Country are all of our children.
    So I look forward to working with all of you. I have, as 
the new Senator from Montana said, I have a long list of 
priorities. We hope that we can be successful in all of them. 
Thank you so much.
    The Chairman. Thank you, Senator Heitkamp.
    Senator Lankford?

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. Thank you as well for being here. I also 
have a very brief comment. From Oklahoma and the 38 federally-
recognized tribes in Oklahoma, I look forward to the ongoing 
conversation and what will happen around this dais, and also in 
other conversations away from this dais as well.
    I appreciate joining the Committee. I look forward to the 
ongoing conversation and working together.
    The Chairman. Thank you, Senator.
    Welcome also, joining us today is Assistant Secretary Kevin 
Washburn and his deputy, Larry Roberts. Welcome to the 
Committee. I know that you have testified many times and we 
look forward to seeing you again.
    What really stuck with me, Ms. Bohlen, as you said, live 
sicker, die younger. As a physician I have great concerns about 
health, combined with housing, education, jobs, the economic 
opportunities, it all comes together to help improve those who 
are living sicker and dying younger, and to address that issue. 
So thank you very much.
    We are going to need to go vote and it sounds like we have 
18 votes. So it is going to be very difficult for us to return 
to engage in the questioning. You will be receiving written 
questions, as well as we will adjourn this meeting and turn it 
into a listening session, as members of the staff who you are 
familiar with, they are going to come and continue the 
discussion and dialogue.
    Thank you very much for being here today. The meeting is 
adjourned.
    [Whereupon, at 2:47 p.m., the hearing was adjourned.]

                            A P P E N D I X

  Prepared Statement of Hon. Lisa Murkowski, U.S. Senator from Alaska
    Chairman Barrasso, Vice Chairman Tester, I appreciate the hearing 
you have convened today to hear from the Nation's tribal organizations 
on the priorities of Indian Country. We're not here to hear excuses of 
inaction of the federal agencies, but to hear the aspirations of 
tribes. How would tribes like to manage their own lands, affairs, and 
future.
    Chairman Barrasso, the priorities you lined out at the State of 
Indian Nations: energy, jobs, juvenile justice and economic development 
are issues I look forward aggressive addressing in this Congress. If I 
may quote our Democratic colleague from North Dakota, Senator Heitcamp, 
we should not be reauthorizing statutes for the sake of reauthorizing, 
but asking ourselves what will change the paradigm to allow our 
Nation's first peoples to realize the prosperity of the American Dream.
    This begins with honoring the government to government relationship 
that exists between Indian tribes and the United States. In the last 50 
years, since statehood, and since the passage of the Alaska Native Land 
Claims Settlement Act, we created unique institutions in our State--
tribes, tribal organizations, and Native corporations that are 
delivering basic government services on behalf of the United States, 
and privately managing their own Native lands. As our Lt. Governor in 
Alaska would say, ``we have come a long way, yet we have a long way to 
go.''
    I would like to mention several issues that will remain important 
to me, and to Alaska. We must address the pressing need for adequate 
funding for our village clinics. The federal government has ignored 
this responsibility for too long. The Indian Health Service only covers 
55 percent of the operating costs of our village clinics. Tribes in 
Alaska have had enough of inaction from the Administration on this 
issue.
    I have also focused much attention of achieving public safety in 
our villages. Last year I directed the Bureau of Indian Affairs to 
determine what it would cost to fund tribal courts in PL280 states. 
It's a failed policy of the BIA to deny these tribes of any operational 
programs to deliver justice to our communities. The rates of violence 
demand action.
    In closing, I would like to welcome the new Republican members to 
the Indian Affairs Committee. I look forward to hearing the witness 
testimony.
                                 ______
                                 
Prepared Statement of Thomas D. Ogaard, President/CEO, Native American 
                                Bank, NA
    On behalf of the Native American Bank, National Association (NAB), 
I submit this statement to endorse and reinforce the recommendations of 
the National Center for American Indian Enterprise Development to 
increase support for the Indian Loan Guarantee Program administered by 
the Office of Indian Energy and Economic Development (OIEED) of the 
Department of the Interior. National Center CEO Gary Davis gave high 
priority to this important program in his testimony for the Committee's 
Oversight Hearing, and asked that the NAB provide some supplementary 
information to the Committee based on the bank's extensive experience 
in lending and successfully working with the loan guarantee program.
    The NAB provides capital resources on a nationwide basis to Native 
American Tribes, Alaska Native Corporations, Tribal economic 
development corporations and Native individuals. The NAB is a 
subsidiary of The Native American Bancorporation Co., which was formed 
in 1998, and is owned by 33 shareholders, 90 percent of whom are a 
combination of tribes, Alaska Native Corporations, tribal owned 
entities and other Native interests.
    As a lender, the NAB has long utilized the OIEED's Indian Loan 
Guarantee Program to leverage our ability to provide capital in Indian 
Country. After a couple of challenging years dealing with the Great 
Recession, NAB is growing again and in the last two years has become 
one of the lenders with the largest portfolio of loans that are subject 
to these guarantees. In Fiscal Year (FY) 2014, our loans accounted for 
more than 25 percent of the total loan principal subject to the 
program's guarantees. Many of these loans would not have been possible 
without the support of this essential loan guarantee program and the 
diligence of NAB to provide economic opportunities in Indian Country.
    To supplement the testimony already provided, I would like to 
address three specific areas: (1) the benefits this program provides, 
including individual examples; (2) the limited amount of funding 
provided to and by the program; and (3) some limits of the program that 
restrict its effectiveness.
I. Benefits of the Indian Loan Guaranty Program
    The Program's guarantees are pivotal in providing access to capital 
for Native tribes and communities. All tribes are very interested in 
diversifying their economic activities and are becoming more 
sophisticated in their approach to development. Leveraging their 
resources by obtaining capital through a guaranteed loan is one avenue 
that is gaining notice. Economic diversification by tribes, done 
typically on or in close proximity to their reservation, usually means 
the creation of a new entity. A new commercial endeavor, combined with 
a construction and startup phase, presents a greater risk for most 
banks than other loan transactions. In Indian Country, collateral is 
often problematic (such as how to obtain a leasehold mortgage on trust 
land), rendering the transaction even more challenging to meet the 
underwriting demands of today given our regulatory environment. An 
Indian Loan Guarantee is essential (as a guarantee on 90 percent of the 
loan's value, susceptible to tribe court adjudication, etc.) and is a 
strong mitigant, for the risks involved in this type of lending. 
Without this program, many projects would not be undertaken. Below are 
some examples:

        A.  NAB is in the final stages of funding a state of the art 
        recycling facility on a reservation in Florida. Tribal members, 
        with some support from their tribe, formed a partnership to 
        bring this concept to reality. For some time, they could not 
        get interest anywhere to finance this facility until NAB 
        stepped in to underwrite a $5.2 million loan and obtain an 
        Indian loan guarantee. With the facility going online within 
        weeks, it has received significant interest and commitments. It 
        brings economic diversity to the reservation, adds 15-20 new 
        jobs and is already being considered as a proto-type for a 
        sister facility.

        B.  NAB provided capital resources in the form of a loan for 
        $5.5 million, with an Indian Loan Guarantee, to build a new 
        hotel on a Montana reservation that is also on the doorstep to 
        one of America's great national parks. Efforts to source 
        multiple types of financing were met with lack of interest. The 
        Indian Loan Guarantee Program was the vital link to getting 
        this project launched. Previously, much of the tourism, retail 
        and government traffic passed through this small community 
        without stopping, because of the lack of adequate 
        accommodations. Today, this well-known hotel brand has become a 
        stop off point where dollars are being spent locally and has 
        provided up to 25 additional jobs.

        C.  NAB is about to close on a nearly $13 million dollar 
        project in Nevada, providing $10 million in capital through an 
        Indian Guaranteed loan to the local tribal economic development 
        authority. In an effort to diversify their economy, the tribe 
        completed an exhaustive study to determine what type of retail 
        entity would have the best opportunity for success. Initially 
        the tribe was seeking to finance this project with bonds, 
        however that option proved to be too difficult. Next they 
        turned to traditional bank financing but found that route to be 
        difficult as well. Then NAB stepped in to provide a loan, along 
        with the interest subsidy as part of the Indian Loan Guarantee 
        Program, and finally the project had the financing to move 
        ahead.

        D.  NAB is in the final stages of funding $1.7 million for a 
        new facility in a remote Alaska village that will become the 
        community's general store. The project involved consolidating 
        the existing two dilapidated buildings into a new structure 
        that is much more efficient and has more capacity to provide 
        additional goods and services. The ability of the village to 
        order goods, oil and gas in larger quantities will enable its 
        members to purchase these necessities at a somewhat lower cost 
        than the very expensive prices they have been paying. Without 
        the Indian Loan Guarantee, the loan could not have been made 
        and this project would have never happened.

II. Amount of Funding Provided to and from the Program
    As noted in the National Center's testimony, the Congress 
appropriated less that $7 million for FY 2015 for the Indian Loan 
Guarantee Program allowing for about $100 million in total loan 
principle subject to guarantee. The limit for FY 2014 was about $93 
million, the guarantees were fully utilized, and NAB accounted for over 
25 percent of the program's guaranteed dollars, as noted earlier. In 
October, 2014, at the start of this FY 2015, NAB had another $10 
million in pending loans waiting for guarantees which could not be 
approved until Congress took final action on the FY 2015 Omnibus 
Appropriations Act. In addition, we now have another $30 million in 
process in our loan pipeline that will be submitted to OIEED for 
guarantees over the coming weeks and months.
    As a result of our work, and that of others, to educate and give 
guidance to Indian Country on native economic endeavors and options for 
financing, particularly in rural/remote areas, the Indian Loan 
Guarantee Program is becoming better known as a mechanism for making 
these projects come to fruition. The volume of interest and projects 
being presented to us has increased several fold over the last two 
years. We see the economic opportunities within Indian Country growing 
substantially, making the need for capital even more vital. We are 
expecting and planning that the Indian Loan Guarantee Program's current 
limit of $100 million in total loan principal will not support all of 
the requests for guarantees this fiscal year, however.
    Keep in mind that, in 2006, Congress increased the statutory 
authorization for this important program from $500 million to $1.5 
billion as the limit on total loan principal subject to guarantees. For 
FY 2016, Congress must start increasing the funding for the credit 
subsidy for this essential program to enable lending to accelerate and 
move closer to those much higher loan limits that Congress intended to 
see achieved when it increased the lending authority in 2006.
III. Limits of the Program
    Fundamentally the program has played a strategic role in helping 
provide economic opportunities that otherwise would never become 
available. It is a central part of NAB's strategic mission to assist 
with options for economic diversity that will help tribes become more 
self-sustaining. Among the program's strengths is the flexibility to 
accommodate different structures for a financing package.
    Limited funding continues to hamper the program's operations and 
effectiveness, however. Already noted is the unreasonably low level of 
funding that has been provided in recent years for the credit subsidy 
for the guarantees and the correspondingly inadequate limit on the 
total amount in loans that can be guaranteed each year. Administration 
of the program also has been challenging, since the OIEED has suffered 
cuts to personnel and resources available to operate and review and 
process all the applications for guarantees. The NAB supports the 
recommendation of the National Center to increase FY 2016 funding for 
the OIEED, as well as for the Indian Loan Guarantee Program, to enable 
both to do a better job meeting the capital needs of Indian Country.
    In closing, I would like to thank the Committee for the opportunity 
to provide my comments on behalf of Native American Bank.
                                 ______
                                 
            
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
                                 
                                 ______
                                 
Prepared Statement of Randella Bluehouse, Executive Director, National 
                 Indian Council on Aging, Inc. (NICOA)
    On behalf of The National Indian Council on Aging, Inc. (NICOA), I 
thank you for the opportunity to submit testimony.
    NICOA is a non-profit organization founded in 1976 to advocate for 
improved comprehensive health, social services, and economic well-being 
for American Indian and Alaska Native Elders. NICOA also operates as a 
National Sponsor of the federal Senior Community Service Employment 
Program (SCSEP). NICOA's SCSEP operates in fourteen states through an 
American Indian set-aside grant from the Department of Labor. For over 
39 years, we have served as the nation's foremost advocate for American 
Indian and Alaska Native Elders.
    Today's hearing, ``Indian Country Priorities for the 114th 
Congress,'' is important for the opportunity that it provides our 
community to share not only our challenges but also the solutions that 
we see possible with the partnership of Congress. The issues that 
Indian Country faces are not unique, though the solutions that they 
require may be different due to structural, societal, and legal 
differences.
    NICOA members submit resolutions which are presented and voted by 
AI/AN Elder members 55 years and older, who attend our national Aging 
Conference every other year. These resolutions address both the issues 
our AI/AN Elder communities face, especially as its members age, and 
provide possible solutions. We have attached the most relevant 
resolutions here, including the resolutions adopted by NCAI in 
partnership with NICOA. These are resolutions which Congress could take 
action on and which would make a significant difference in the quality 
of life for American Indian and Alaskan Native Elders.
    NICOA appreciates this opportunity to submit this testimony, and we 
look forward to working with the Committee this Congress.
    Attachments

    NATIONAL INDIAN COUNCIL ON AGING--Resolution #2014-02

    TITLE: Gerontology and Geriatric Research to Benefit American 
Indian/Alaskan Native (AI/AN) Elders & Tribes

    WHEREAS, we the members of the National Indian Council on Aging, 
Inc. (NICOA) of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, to enlighten the public toward a better 
understanding of the issues and needs of American Indian and Alaska 
Native Elders, to preserve Indian cultural values, and otherwise 
promote the health, safety, and welfare of our Elders, do hereby 
establish and submit the following resolution; and
    WHEREAS, NICOA was established in 1976 by Tribal Leaders to 
advocate for improved comprehensive health, social services, and 
economic wellbeing for American Indian and Alaska Native (AI/AN) 
Elders. NICOA submits to the National Congress of American Indians 
(NCAI) this resolution passed by its members at their biennial meeting 
on September 5, 2014; and
    WHEREAS, health care providers and the general public do not have 
access to adequate gerontology and geriatric data and information. 
There is a lack of relevant, immediate, applicable community based and 
inter-disciplinary data. This lack of information contributes to AI/AN 
health disparities, maltreatment, exclusion, gaps, and other 
gerontological health issues, and;
    WHEREAS, research is needed to promote systematic investigation, 
development, testing, and evaluation centered on health issues central 
to the Native community in order to create a continual dialogue between 
investigators, health care providers, and the Native communities in 
general; and
    WHEREAS, the lack of research and evidence based data and 
information specific to AI/AN Elders decreases opportunities for tribes 
to seek alternative funding placing the AI/AN entities at a 
disadvantage for accessing potential resources to support aging 
services. Health care data and information help to enhance 
opportunities to secure funding resources for a variety of care 
services by tracking death rates and such chronic illness and acute 
disease. The evidence based findings and interviews will contribute to 
health based equity and promote healthier lifestyles and establish 
common ethical and research practices such as community based 
participatory research (CBPR) that gains the trust of the AI/AN 
community by observing cultural values; and
    NOW THEREFORE BE IT RESOLVED, that the NICOA Elders do hereby 
request that the U.S Department of Health and Human Services increase 
opportunities and direct funding for gerontology and geriatric research 
to AI/AN entities; and
    BE IT FURTHER RESOLVED, that the Centers for Disease Control and 
Prevention, and the National Institutes of Health increase research for 
and by AI/AN organizations with direct set aside funding from an 
increased Congressional appropriation; and
    BE IT FURTHER RESOLVED, that this resolution is policy of NICOA 
until it is withdrawn or modified by subsequent resolution

    NATIONAL INDIAN COUNCIL ON AGING--Resolution # 2014-04

    TITLE: NICOA Elders Call for a National American Indian/Alaska 
Native Hearing on Aging

    WHEREAS, we, the members of the National Indian Council on Aging, 
Inc. (NICOA) of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the issues and 
needs of American Indian and Alaska Native Elders, to preserve Indian 
cultural values, and otherwise promote the health, safety, and welfare 
of our Elders, do hereby establish and submit the following resolution; 
and
    WHEREAS, NICOA was established in 1976 by Tribal Leaders to 
advocate for improved comprehensive health, social services, and 
economic wellbeing for American Indian and Alaska Native (AI/AN) 
Elders. NICOA submits to the National Congress of American Indians 
(NCAI) this resolution passed by its members at their biennial meeting 
on September 5, 2014; and
    WHEREAS, AI/ANs are struggling with many issues that are 
unrecognized by policy makers as poverty increases, substandard housing 
deteriorates, health care dollars shrink, the cost of living increases, 
veterans suffer long waits and lack of care, federal funding decreases, 
Native Elders age in greater numbers and require home and community-
based long term services and supports, raise grandchildren, live with 
Alzheimer's Disease, provide caregiving as they cope with their own 
aging challenges, work for acceptance of LGBT Elders; and
    WHEREAS, Congress has stated that ``older individuals who are 
Indians, older individuals who are Alaskan Natives, and older 
individuals who are Native Hawaiians are a vital resource entitled to 
all benefits and services available and that such services and benefits 
should be provided in a manner that preserves and restores their 
respective dignity, self-respect, and cultural identities'' (42 U.S.C. 
3057a); and
    WHEREAS, in the 36 years since Title VI was added to the Older 
Americans Act, funding and services for Title VI have never been 
comparable to funding for Title III, leaving older American Indians and 
Alaska Natives without needed services to allow them to live vital, 
independent lives, as long as possible in their homes and communities. 
These many pressing concerns require a broader audience to create 
awareness and a sense of the urgent, imperative nature of the problem; 
and
    NOW THEREFORE BE IT RESOLVED, that NICOA Elders request full 
Congressional Hearings on the Needs of American Indian, Alaskan Native 
and Native Hawaiian Elders to enable tribal leadership to testify on 
the status and unmet needs of tribal Elders. These hearings should also 
be held throughout Indian Country to allow for our esteemed Elders 
attendance and participation; and
    BE IT FURTHER RESOLVED that the congressional hearings be held 
prior to September 30, 2015 and be co-sponsored by the Senate Select 
Committee on Aging and the Senate Select Committee on Indian Affairs; 
and
    BE IT FURTHER RESOLVED that this resolution shall be the policy of 
NICOA until it is withdrawn or modified by subsequent resolution.

    NATIONAL INDIAN COUNCIL ON AGING--Resolution # 2014-05

    TITLE: NICOA Elders Oppose Cuts in Title V Funding

    WHEREAS, we, the members of the National Indian Council on Aging, 
Inc. (NICOA) of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the issues and 
needs of American Indian and Alaska Native Elders, to preserve Indian 
cultural values, and otherwise promote the health, safety, and welfare 
of our Elders, do hereby establish and submit the following resolution; 
and
    WHEREAS, NICOA was established in 1976 by Tribal Leaders to 
advocate for improved comprehensive health, social services, and 
economic wellbeing for American Indian and Alaska Native Elders. NICOA 
submits to the National Congress of American Indians (NCAI) this 
resolution passed by its members at their biennial meeting on September 
5, 2014; and
    WHEREAS, the Senior Community Employment Program or SCSEP is the 
largest federally funded program which targets older adults 55 and 
older seeking training and employment. It is authorized by Title V of 
the Older Americans Act. Created in 1965, the program matches eligible 
older adults with part time work-based training in community service 
organizations. Participants build skills and self-confidence while 
earning a modest income. For some, their SCSEP experience leads to 
permanent employment. This job training serves as a bridge to 
unsubsidized employment opportunities for participants and assists with 
the provision of needed community services; and
    WHEREAS, the President's FY 2015 budget request proposes a cut of 
over $54 million to SCSEP (from $434.4 million to $380 million) across 
the nation. This cut would mean a loss of paid training for 9,000 lower 
income older adults in national and state projects. This loss of 
funding would impact the Elders receiving training and also the 
programs who benefit from SCSEP participants' assistance; and
    WHEREAS, in the year ending June 30, 2014, NICOA SCSEP provided 
539,513 hours of service in over 210 local tribal, government, and 
private nonprofit community agencies; and
    WHEREAS, funding for the National Indian Council on Aging's SCSEP 
would be cut by $730,717 starting July 1, 2015. About 100 fewer older 
low income Elders would be provided jobs and training and approximately 
61,700 staff hours would be lost by community service organizations; 
and
    NOW THEREFORE BE IT RESOLVED, that NICOA Elders oppose the proposed 
$54 million cut to SCSEP and any future cut in funding to SCSEP; and
    BE IT FURTHER RESOLVED that this resolution shall be the policy of 
NICOA until it is withdrawn or modified by subsequent resolution.

    NATIONAL INDIAN COUNCIL ON AGING--Resolution # 2014-06

    TITLE: NICOA Elders Request Comparable Equity between Title III 
State Services and Title VI Tribal Services

    WHEREAS, we, the members of the National Indian Council on Aging, 
Inc. (NICOA) of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United states, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the issues and 
needs of American Indian and Alaska Native Elders, to preserve Indian 
cultural values, and otherwise promote the health, safety, and welfare 
of our Elders, do hereby establish and submit the following resolution; 
and
    WHEREAS, NICOA was established in 1976 by Tribal Leaders to 
advocate for improved comprehensive health, social services, and 
economic wellbeing for American Indian and Alaska Native Elders. NICOA, 
submits to the National Congress of American Indians (NCAI) this 
resolution passed by its members at their biennial meeting on September 
5, 2014; and
    WHEREAS, the Administration on Aging (AoA) grants are awarded under 
Title VI to American Indian tribal organizations, Alaskan Native 
organizations, and non-profit groups representing Native Hawaiians. 
Grants are used to fund supportive and nutrition services for American 
Indian/Alaska Native (AI/AN) Elders. Grants are awarded to more than 
250 tribal organizations and 2 Native Hawaiian organizations. In 
addition, family caregiver grants have been awarded to 218 Title VI 
organizations; and
    WHEREAS, the Older Americans Act states in Title VI that ``it is 
the purpose of this Title to promote the delivery of supportive 
services, including nutrition services, to AI/ANs and Native Hawaiians 
that are comparable to services provided under Title III. However, the 
provision of ``comparable services'', has not been achieved due to 
insufficient funds for this Title; and
    WHEREAS, NICOA acknowledges the tremendous efforts of Title VI 
Directors and the creative approaches they develop to cope with budgets 
shortfalls. Approximately two thirds of the grants to AI/AN tribes or 
consortia of tribes are for less than $100,000. This funding level is 
expected to provide services for a minimum of 50 Elders for an entire 
year. Those tribes receiving more than or at least $100,000 serve 
between 200-300 Elders. Many tribes are not able to meet the five day 
per week meal requirement because of insufficient funding and are 
serving congregate meals only two or three days per week; and
    NOW THEREFORE BE IT RESOLVED, that NICOA Elders request that the 
Administration on Aging (AoA) increase appropriation of funding for 
Title VI of the Older Americans Act based on the number of eligible AI/
ANs in each of the designated service areas. According to the AoA, the 
number of AI/AN people age 65 and older is projected to increase by 
nearly 75 percent between 2010 and 2020; and
    BE IT FURTHER RESOLVED, that NICOA Elders request for increased 
training for Title VI service providers that include new and innovative 
ways to improve Indian Elder access to social services. Funding for 
training should be separate from funds used to provide direct services; 
and
    BE IT FURTHER RESOLVED that this resolution shall be the policy of 
NICOA until it is withdrawn or modified by subsequent resolution.

    NATIONAL INDIAN COUNCIL ON AGING--Resolution # 2014-07

    TITLE: NICOA Elders Request Long Term Care Funding

    WHEREAS, we, the members of the National Indian Council on Aging, 
Inc. (NICOA) of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the issues and 
needs of American Indian and Alaska Native Elders, to preserve Indian 
cultural values, and otherwise promote the health, safety, and welfare 
of our Elders, do hereby establish and submit the following resolution; 
and
    WHEREAS, NICOA was established in 1976 by Tribal Leaders to 
advocate for improved comprehensive health, social services, and 
economic wellbeing for American Indian and Alaska Native Elders. NICOA 
submits to the National Congress of American Indians (NCAI) this 
resolution passed by its members at their biennial meeting on September 
5, 2014; and
    WHEREAS, as the American Indian/Alaska Native Elder population 
increases, the urgent need for long term care services and supports 
also increases. According to the Administration on Aging, the number of 
AI/AN people age 65 and older is projected to increase by nearly 75 
percent between 2010 and 2020. The Centers for Disease Control and 
Prevention found that Native people overall were 50.3 percent more 
likely to have a disability, when compared with the national average. 
Overall AI/AN populations experience some of the highest rates of 
chronic disease and disability in the U.S; and
    WHEREAS, a 2010 survey by R. Tuner Goins, Ph.D. found that out of 
566 tribes only 15 percent of tribes had nursing home services and 16 
percent had assisted living services; and
    WHEREAS, The Affordable Care Act and its dual legislation, the 
Indian Healthcare Improvement Act grants the Indian Health Service 
(IHS) specific authorities for provision of long term care; and
    WHEREAS, the aforementioned legislation only authorizes IHS to 
provide services but does not mandate any new funding specific to long-
term care. The Indian Health Service does provide care but has been 
underfunded for decades. In a 2005 GAO report titled ``Indian Health 
Service: Health Care Services Are Not Always Available to Native 
Americans'' highlighted the ongoing problems of long wait times, lack 
of adequate facilities and rationing of care due to lack of funding; 
and
    WHEREAS, adequate appropriations are needed to address this looming 
health crisis; and
    NOW THEREFORE BE IT RESOLVED, that NICOA Elders do hereby call on 
the Obama administration to request and for Congress to authorize and 
appropriate adequate funding for the provision of long term care 
services and supports for American Indian and Alaska Natives; and
    BE IT FURTHER RESOLVED that this resolution shall be the policy of 
NICOA until it is withdrawn or modified by subsequent resolution.

    NATIONAL INDIAN COUNCIL ON AGING--Resolution # 2014-10

    TITLE: NICOA Elders Support the Reauthorization of the Older 
Americans Act

    WHEREAS, we, the members of the National Indian Council on Aging, 
Inc. (NICOA) of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the issues and 
needs of American Indian and Alaska Native Elders, to preserve Indian 
cultural values, and otherwise promote the health, safety, and welfare 
of our Elders, do hereby establish and submit the following resolution; 
and
    WHEREAS, NICOA was established in 1976 by Tribal Leaders to 
advocate for improved comprehensive health, social services, and 
economic wellbeing for American Indian and Alaska Native Elders. NICOA 
submits to the National Congress of American Indians (NCAI) this 
resolution passed by its members at their biennial meeting on September 
5, 2014; and
    WHEREAS, the Older Americans Act is the key legislative framework 
for developing, coordinating, and delivering home and community based 
services that allow American Indian/Alaska Native Elders to maintain 
their independence. The Title VI program of the Older Americans Act 
provides for supportive and nutrition services which aid AI/ANs across 
the country. The Act also authorizes the only federal workforce program 
which provides training to help transition low income Elders into 
suitable employment in their community. The Act also provides for a 
long term care ombudsman program to provide those living in long term 
care facilities with protection of their rights and wellbeing; and
    WHEREAS, despite these and many other important provisions, the 
Older Americans Act was last reauthorized in 2006; its authorization 
expired in 2011.This delay means that even more Elders will not receive 
services as demand is only projected to increase. The population of 
American Indian/Alaska Natives age 65 and older is expected to grow by 
116 percent by 2030. Additionally the Older Americans Act is subject to 
sequestration, resulting in unnecessary and harmful cuts each year 
through 2021; and
    WHEREAS, the Senate Health, Education, Labor, and Pensions (HELP) 
Committee voted to send S. 1562, a bipartisan reauthorization bill, to 
the Senate floor. In the House Rep. Suzanne Bonamici has introduced 
H.R. 4122, which would strengthen the Older Americans Act and is 
similar to the Senate bill. Another House bill, H.R. 3850 would simply 
reauthorize the Act with no changes; and
    NOW THEREFORE BE IT RESOLVED, that NICOA Elders do hereby support 
the passage of S.1562 and H.R. 4122. These bills would expand and 
modernize the Act for the next 5 years as well as preserve the separate 
titles for congregate and home-delivered nutrition programs and 
maintain voluntary contributions for participants. As a last resort, 
NICOA would also support the straight reauthorization bill, H.R. 3850; 
and
    BE IT FURTHER RESOLVED that this resolution shall be the policy of 
NICOA until it is withdrawn or modified by subsequent resolution.

    NATIONAL INDIAN COUNCIL ON AGING--Resolution # 2014-11

    TITLE: NICOA Elders Support the Social Security Administration 
Accountability Act of 2014

    WHEREAS, we, the members of the National Indian Council on Aging, 
Inc. (NICOA) of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the issues and 
needs of American Indian and Alaska Native Elders, to preserve Indian 
cultural values, and otherwise promote the health, safety, and welfare 
of our Elders, do hereby establish and submit the following resolution; 
and
    WHEREAS, NICOA was established in 1976 by Tribal Leaders to 
advocate for improved comprehensive health, social services, and 
economic wellbeing for American Indian and Alaska Native (AI/AN) 
Elders. NICOA submits to the National Congress of American Indians 
(NCAI) this resolution passed by its members at their biennial meeting 
on September 5, 2014; and
    WHEREAS, many AI/AN tribal Elders live in remote areas and prefer 
to receive Social Security information and guidance from a trained 
professional in-person at the local Social Security Administration 
(SSA) field offices instead of transactions using potentially confusing 
and intimidating online databases. Those serving AI/ANs can answer 
questions more readily and ensure that they understand the various 
benefits programs available to them from the Social Security 
Administration; and
    WHEREAS, these important field offices provide valuable services to 
vulnerable Elders who may depend on their Social Security benefits as a 
sole source of income; and
    WHEREAS, these Social Security Field Offices are facing closure and 
will therefore limit efficient, culturally sensitive customer service. 
These offices provide services that are critical to tribal Elders and 
reservation communities; and
    WHEREAS, other provisions of the Social Security Accountability of 
2014 call for submission of a budget estimate directly to Congress and 
the President, revises requirements that require inclusion of the 
number of cases pending at each hearing office and average processing 
time, requires the Commissioner to submit a detailed report outlining 
and justifying the process for selecting field offices to be closed, 
consolidated, or otherwise having limited access before the 
Commissioner can close any Social Security Administration (SSA) field 
office as well as requires the Commissioner to follow certain 
administrative procedures; and
    NOW THEREFORE BE IT RESOLVED, that NICOA recognizes and supports 
the Social Security Administration's commitment to support and provide 
customer service in rural areas benefiting tribal communities and 
Elders; and
    BE IT FINALLY RESOLVED, NICOA Elders support the Social Security 
Administration Accountability Act of 2014 (H.R. 3997) and urges that 
SSA field offices remain open and continue to provide excellent 
customer service; and
    BE IT FURTHER RESOLVED that this resolution shall be the policy of 
NICOA until it is withdrawn or modified by subsequent resolution.

    NATIONAL INDIAN COUNCIL ON AGING--Resolution # 2014-12

    TITLE: NICOA Elders Support the Supplemental Security Income 
Restoration Act

    WHEREAS, we, the members of the National Indian Council on Aging, 
Inc. (NICOA) of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the issues and 
needs of American Indian and Alaska Native Elders, to preserve Indian 
cultural values, and otherwise promote the health, safety, and welfare 
of our Elders, do hereby establish and submit the following resolution; 
and
    WHEREAS, NICOA was established in 1976 by Tribal Leaders to 
advocate for improved comprehensive health, social services, and 
economic wellbeing for American Indian and Alaska Native Elders. NICOA 
submits to the National Congress of American Indians (NCAI) this 
resolution passed by its members at their biennial meeting on September 
5, 2014; and
    WHEREAS, Supplemental Security Income (SSI) is a federal program 
that provides monthly payments to people who have limited income and 
few resources. SSI is for people age 65 and older, as well as blind or 
disabled people of any age, including children; and
    WHEREAS, over 50 percent of the AI/AN population aged 62-67 are 
projected to have some work limitation. Research has shown that adult 
AI/ANs are more likely to receive Supplemental Security Income and less 
likely to receive Social Security benefits. These numbers are projected 
to increase; and
    WHEREAS, for about 60 percent of recipients, the SSI program is 
their only source of income. The maximum benefit is little more than 
$700 a month. The financial constraints are so stiff that a growing 
number of older SSI recipients are homeless; and
    WHEREAS, the Supplemental Security Income Restoration Act has been 
introduced both in the Senate (S. 2089) and the House. (H.R. 1601). 
This Act would update provisions in the program which are out of date 
concerning earned income, general income, and resources. It would also 
help the Social Security Administration streamline the claims process; 
and
    NOW THEREFORE BE IT RESOLVED, that NICOA Elders do hereby support 
passage of S. 2089 and H.R. 1601 to support vulnerable AI/ANs and 
provide a more secure quality of life; and
    BE IT FURTHER RESOLVED that this resolution shall be the policy of 
NICOA until it is withdrawn or modified by subsequent resolution.

    The National Congress of American Indians--Resolution #ATL-14-055

    TITLE: Gerontology and Geriatric Research to Benefit American 
Indian/Alaskan Native (AI/AN) Elders & Tribes

    WHEREAS, we, the members of the National Congress of American 
Indians of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the Indian 
people, to preserve Indian cultural values, and otherwise promote the 
health, safety and welfare of the Indian people, do hereby establish 
and submit the following resolution; and
    WHEREAS, the National Congress of American Indians (NCAI) was 
established in 1944 and is the oldest and largest national organization 
of American Indian and Alaska Native tribal governments; and
    WHEREAS, health care providers and the general public do not have 
access to adequate gerontology and geriatric data and information. 
There is a lack of relevant, immediate, applicable community based and 
inter-disciplinary data. This lack of information contributes to AI/AN 
health disparities, maltreatment, exclusion, gaps, and other 
gerontological health issues; and
    WHEREAS, research is needed to promote systematic investigation, 
development, testing, and evaluation centered on health issues central 
to the Native community in order to create a continual dialogue between 
investigators, health care providers, and the Native communities in 
general; and
    WHEREAS, the lack of research, evidence based data, and information 
specific to AI/AN Elders decreases opportunities for tribes to seek 
alternative funding placing the AI/AN entities at a disadvantage for 
accessing potential resources to support aging services. Health care 
data and information help to enhance opportunities to secure funding 
resources for a variety of care services by tracking death rates and 
such chronic illnesses and acute diseases. The evidence based findings 
and interviews will contribute to health based equity and promote 
healthier lifestyles and establish common ethical and research 
practices such as community based participatory research (CBPR) that 
gains the trust of the AI/AN community by observing cultural values.
    NOW THEREFORE BE IT RESOLVED, that NCAI hereby requests that the 
U.S Department of Health and Human Services increase opportunities and 
direct funding for gerontology and geriatric research to AI/AN 
entities; and
    BE IT FURTHER RESOLVED, that the Centers for Disease Control and 
Prevention, and the National Institutes of Health increase research for 
and by AI/AN organizations with direct set aside funding from an 
increased Congressional appropriation; and
    BE IT FINALLY RESOLVED, that this resolution is policy of NCAI 
until it is withdrawn or modified by subsequent resolution.

    The National Congress of American Indians--Resolution #ATL-14-057

    TITLE: Support for a National American Indian/Alaska Native Hearing 
on Aging

    WHEREAS, we, the members of the National Congress of American 
Indians of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the Indian 
people, to preserve Indian cultural values, and otherwise promote the 
health, safety and welfare of the Indian people, do hereby establish 
and submit the following resolution; and
    WHEREAS, the National Congress of American Indians (NCAI) was 
established in 1944 and is the oldest and largest national organization 
of American Indian and Alaska Native tribal governments; and
    WHEREAS, AI/ANs are struggling with many issues that are 
unrecognized by policy makers as poverty increases, substandard housing 
deteriorates, health care dollars shrink, the cost of living increases, 
veterans suffer long waits and lack of care, and federal funding 
decreases. Native Elders age in greater numbers and require home and 
community-based long term services and supports, raise grandchildren, 
live with Alzheimer's Disease, provide caregiving as they cope with 
their own aging challenges, work for acceptance of LGBT Elders; and
    WHEREAS, Congress has stated that ``older individuals who are 
Indians, older individuals who are Alaskan Natives, and older 
individuals who are Native Hawaiians are a vital resource entitled to 
all benefits and services available and that such services and benefits 
should be provided in a manner that preserves and restores their 
respective dignity, self-respect, and cultural identities'' (42 U.S.C. 
3057a); and
    WHEREAS, in the 36 years since Title VI was added to the Older 
Americans Act, funding and services for Title VI have never been 
comparable to funding for Title III, leaving older American Indians and 
Alaska Natives without needed services to allow them to live vital, 
independent lives, as long as possible in their homes and communities. 
These immediate concerns require a broader audience to create awareness 
and a sense of the crucial, imperative nature of the problem.
    NOW THEREFORE BE IT RESOLVED, that NCAI request full Congressional 
Hearings on the Needs of American Indian, Alaskan Native and Native 
Hawaiian Elders to enable tribal leadership to testify on the status 
and unmet needs of tribal Elders. These hearings should also be held 
throughout Indian Country to allow for our esteemed Elders attendance 
and participation; and
    BE IT FURTHER RESOLVED, that the congressional hearings be co-
sponsored by the Senate Select Committee on Aging and the Senate Select 
Committee on Indian Affairs; and
    BE IT FINALLY RESOLVED, that this resolution shall be the policy of 
NCAI until it is withdrawn or modified by subsequent resolution.

    The National Congress of American Indians--Resolution #ATL-14-059

    TITLE: Request for Comparable Equity between Title III State 
Services and Title VI Tribal Services

    WHEREAS, we, the members of the National Congress of American 
Indians of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the Indian 
people, to preserve Indian cultural values, and otherwise promote the 
health, safety and welfare of the Indian people, do hereby establish 
and submit the following resolution; and
    WHEREAS, the National Congress of American Indians (NCAI) was 
established in 1944 and is the oldest and largest national organization 
of American Indian and Alaska Native tribal governments; and
    WHEREAS, the Administration on Aging (AoA) grants are awarded under 
Title VI to American Indian tribal organizations, Alaskan Native 
organizations, and non-profit groups representing Native Hawaiians. 
Grants fund supportive and nutrition services for American Indian/
Alaska Native (AI/AN) Elders. Grants are awarded to more than 250 
tribal organizations and 2 Native Hawaiian organizations. In addition, 
family caregiver grants have been awarded to 218 Title VI 
organizations; and
    WHEREAS, the Older Americans Act states in Title VI that ``it is 
the purpose of this Title to promote the delivery of supportive 
services, including nutrition services, to AI/ANs and Native Hawaiians 
that are comparable to services provided under Title III. However, the 
provision of ``comparable services'', has not been achieved due to 
insufficient funds for this Title; and
    WHEREAS, NCAI acknowledges the tremendous efforts of Title VI 
Directors and the creative approaches they develop to cope with budgets 
shortfalls. Approximately two thirds of the grants to AI/AN tribes or 
consortia of tribes are for less than $100,000.This funding level is 
expected to provide services for a minimum of 50 Elders for an entire 
year. Those tribes receiving more than or at least $100,000 serve 
between 200-300 Elders. Many tribes are not able to meet the five day 
per week meal requirement because of insufficient funding and are 
serving congregate meals only two or three days per week.
    NOW THEREFORE BE IT RESOLVED, that NCAI requests that the 
Administration on Aging (AoA) determine the eligible number of AI/ANs 
in each designated service areas, and request the AoA evaluate the data 
and trend of the growing # of AI/AN elders in each designated service 
area and utilize such data in its budget request to Congress; and
    BE IT FURTHER RESOLVED, that NCAI requests increased training for 
Title VI service providers that include new and innovative ways to 
improve Indian Elder access to social services. Funding for training 
should be separate from funds used to provide direct services; and
    BE IT FINALLY RESOLVED, that this resolution shall be the policy of 
NCAI until it is withdrawn or modified by subsequent resolution.

    The National Congress of American Indians--Resolution #ATL-14-063

    TITLE: Support the Reauthorization of the Older Americans Act

    WHEREAS, we, the members of the National Congress of American 
Indians of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the Indian 
people, to preserve Indian cultural values, and otherwise promote the 
health, safety and welfare of the Indian people, do hereby establish 
and submit the following resolution; and WHEREAS, the National Congress 
of American Indians (NCAI) was established in 1944 and is the oldest 
and largest national organization of American Indian and Alaska Native 
tribal governments; and
    WHEREAS, the Older Americans Act is the key legislative framework 
for developing, coordinating, and delivering home and community based 
services that allow American Indian/Alaska Native Elders to maintain 
their independence. The Title VI program of the Older Americans Act 
provides for supportive and nutrition services which aid AI/ANs across 
the country. The Act also authorizes the only federal workforce program 
which provides training to help transition low income Elders into 
suitable employment in their community. The Act also provides for a 
long term care ombudsman program to provide those living in long term 
care facilities with protection of their rights and wellbeing; and
    WHEREAS, despite these and many other important provisions, the 
Older Americans Act was last reauthorized in 2006; its authorization 
expired in 2011.This delay means that even more Elders will not receive 
services as the demand is only projected to increase. The population of 
American Indian/Alaska Natives age 65 and older is expected to grow by 
116 percent by 2030. Additionally the Older Americans Act is subject to 
sequestration, resulting in unnecessary and harmful cuts each year 
through 2021; and
    NOW THEREFORE BE IT RESOLVED, that NCAI hereby supports legislation 
that modernizes and reauthorizes the Older Americans Act to provide 
adequate funding for delivery of nutrition services and elderly 
support; and
    BE IT FURTHER RESOLVED, that this resolution shall be the policy of 
NCAI until it is withdrawn or modified by subsequent resolution.

    The National Congress of American Indians--Resolution #ATL-14-064

    TITLE: Support Social Security Administration Consultation with 
Tribal Governments Prior to Closure of Any Field Offices

    WHEREAS, we, the members of the National Congress of American 
Indians of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the Indian 
people, to preserve Indian cultural values, and otherwise promote the 
health, safety and welfare of the Indian people, do hereby establish 
and submit the following resolution; and WHEREAS, the National Congress 
of American Indians (NCAI) was established in 1944 and is the oldest 
and largest national organization of American Indian and Alaska Native 
tribal governments; and
    WHEREAS, many AI/AN tribal Elders live in remote areas and prefer 
to receive Social Security information and guidance from a trained 
professional in-person at the local Social Security Administration 
(SSA) field offices instead of transactions using potentially confusing 
and intimidating online databases. Those serving AI/ANs can answer 
questions more readily and ensure that they understand the various 
benefits programs available to them from the Social Security 
Administration; and WHEREAS, these important field offices provide 
valuable services to vulnerable Elders who may depend on their Social 
Security benefits as a sole source of income; and
    WHEREAS, these Social Security Field Offices are facing closure and 
will therefore limit efficient, culturally sensitive customer service. 
These offices provide services that are critical to tribal Elders and 
reservation communities; and WHEREAS, legislation is needed that calls 
for submission of a budget estimate directly to Congress and the 
President, revises requirements that require inclusion of the number of 
cases pending at each hearing office and average processing time, 
requires the Commissioner to submit a detailed report outlining and 
justifying the process for selecting field offices to be closed, 
consolidated, or otherwise having limited access before the 
Commissioner can close any Social Security Administration (SSA) field 
office as well as requires the Commissioner to follow certain 
administrative procedures.
    NOW THEREFORE BE IT RESOLVED, that NCAI recognizes and supports the 
Social Security Administration's commitment to support and provide 
customer service in rural areas benefiting tribal communities and 
Elders; and
    BE IT FURTHER RESOLVED, NCAI supports legislation that would 
require the Social Security Administration to consult with Tribal 
governments prior to closure of any field offices and to take into 
account any potential impact it may have on tribal communities prior to 
closure; and BE IT FURTHER RESOLVED, that NCAI will hereby be committed 
to working with the Social Security Administration to ensure adequate 
consultation is conducted with Tribal governments in consideration of 
any field office closures; and
    BE IT FINALLY RESOLVED, that this resolution shall be the policy of 
NCAI until it is withdrawn or modified by subsequent resolution.

    The National Congress of American Indians--Resolution #ATL-14-065

    TITLE: Support for Modernization Legislation of the Supplemental 
Security Income Program

    WHEREAS, we, the members of the National Congress of American 
Indians of the United States, invoking the divine blessing of the 
Creator upon our efforts and purposes, in order to preserve for 
ourselves and our descendants the inherent sovereign rights of our 
Indian nations, rights secured under Indian treaties and agreements 
with the United States, and all other rights and benefits to which we 
are entitled under the laws and Constitution of the United States, to 
enlighten the public toward a better understanding of the Indian 
people, to preserve Indian cultural values, and otherwise promote the 
health, safety and welfare of the Indian people, do hereby establish 
and submit the following resolution; and
    WHEREAS, the National Congress of American Indians (NCAI) was 
established in 1944 and is the oldest and largest national organization 
of American Indian and Alaska Native tribal governments; and
    WHEREAS, Supplemental Security Income (SSI) is a federal program 
that provides monthly payments to people who have limited income and 
few resources. SSI is for people age 65 and older, as well as blind or 
disabled people of any age, including children; and
    WHEREAS, over 50 percent of the AI/AN population aged 62-67 are 
projected to have some work limitation. Research has shown that adult 
AI/ANs are more likely to receive Supplemental Security Income and less 
likely to receive Social Security benefits. These numbers are projected 
to increase; and
    WHEREAS, for about 60 percent of recipients, the SSI program is 
their only source of income. The maximum benefit is little more than 
$700 a month. The financial constraints are so stiff that a growing 
number of older SSI recipients are homeless.
    NOW THEREFORE BE IT RESOLVED, that NCAI hereby supports legislation 
that updates statutory provisions in the program which are out of date 
concerning earned income, general income, resources, and helps the 
Social Security Administration streamline the claims process to support 
vulnerable AI/ANs and provide a more secure quality of life; and
    BE IT FURTHER RESOLVED that this resolution shall be the policy of 
NCAI until it is withdrawn or modified by subsequent resolution.
                                 ______
                                 
    Prepared Statement of Hon. Tim Ballew II, Chairman, Lummi Nation
    Dear Committee Members:
    The Lummi Nation has many goals and priorities for 2015 and we urge 
the Committee to consider adding priorities to the 114th Congress at 
the request of the Lummi Nation. As a federally recognized tribe and 
sovereign nation, like many other tribes have issues that need to be 
addressed. Many of our issues can be addressed, fixed or heard on a 
federally level with our Trustee such as Congress. We request the 
Senate Committee on Indian Affairs to include the following for Indian 
Country Priorities for the 114th Congress:

        1)  Treaty Rights at Risk: The Lummi Nation like many tribes 
        have treaty rights and some of those rights included but not 
        limited to the right of taking fish at usual and accustomed 
        ground and stations. The Lummi Nation is facing threats of our 
        harvest and need more support from our Trustee who have a trust 
        responsibility and fiduciary obligations to protect these 
        rights. Also, we call for a response to the work of Billy 
        Franks white paper on Treaty Rights at Risk.

        2)  Job Creation and Economic Development: The Lummi Nation is 
        a growing nation and we need to be able to create jobs and 
        economic development growth to supply or help our community 
        with gaining employment. Gaming cannot be our only source of 
        income and economic development will be a stream of income for 
        the community and Nation.

    Thank your for considering our request for the record and to add to 
the list of priorities in Indian Country for the 114th Congress.

                                  [all]
</pre></body></html>
